<html>
<title> - NASA'S ORGANIZATIONAL AND MANAGEMENT CHALLENGES IN THE WAKE OF THE COLUMBIA DISASTER</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                       NASA'S ORGANIZATIONAL AND
                      MANAGEMENT CHALLENGES IN THE
                     WAKE OF THE COLUMBIA DISASTER

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2003

                               __________

                           Serial No. 108-30

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


90-160              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas


                            C O N T E N T S

                            October 29, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science, U.S. House of Representatives....    11
    Written Statement............................................    13

Statement by Representative Bart Gordon, Member, Committee on 
  Science, U.S. House of Representatives.........................    14

Prepared Statement by Representative Dana Rohrabacher, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    15

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    15

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    15

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    16

                                Panel I

Admiral F.L. ``Skip'' Bowman, Director, Naval Nuclear Propulsion 
  Program, U.S. Navy
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    24

Rear Admiral Paul E. Sullivan, Deputy Commander, Ship Design, 
  Integration and Engineering, Naval Sea Systems Command, U.S. 
  Navy
    Oral Statement...............................................    24
    Written Statement............................................    26
    Biography....................................................    33

Mr. Ray F. Johnson, Vice President, Space Launch Operations, The 
  Aerospace Corporation
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    40

Ms. Deborah L. Grubbe, P.E., Corporate Director, Safety and 
  Health, DuPont
    Oral Statement...............................................    40
    Written Statement............................................    42
    Biography....................................................    43

Discussion, Panel I
  ITEA Budget Independence.......................................    44
  Waivers........................................................    45
  Managing Safety................................................    46
  SUBSAFE........................................................    48
  Crew Escape....................................................    48
  Handling Anomolies.............................................    49
  Safety Accountability..........................................    50
  Decision-making in the Naval Reactors Program..................    52
  Culture and Attitude...........................................    52
  SUBSAFE's Use of the Challenger Case Study.....................    53
  NASA/Navy Benchmarking.........................................    54
  CAIB Recommendations...........................................    55
  Communicating Risk.............................................    55
  Turnover in the Safety Workforce...............................    56
  Nanotechnology.................................................    57
  NASA/Navy Benchmark............................................    58
  Manned vs. Unmanned Space Flight...............................    58
  Safety Organization............................................    59

                                Panel II

Admiral Harold Gehman (ret.), Chairman, Columbia Accident 
  Investigation Board
    Oral Statement...............................................    61
    Written Statement............................................    62

Discussion, Panel II
  ISS Safety and CAIB Recommendations............................    63
  Safety Program Independence....................................    64
  ISS Safety.....................................................    65
  Leadership Confidence..........................................    66
  ISS Safety.....................................................    67
  Vision.........................................................    67
  Expedition 8 Launch Decision-making Process....................    68
  ITEA and Safety Staff Turnover.................................    69
  ISS Review.....................................................    70

             Appendix 1: Answers to Post-Hearing Questions

.................................................................
Admiral F.L. ``Skip'' Bowman, Director, Naval Nuclear Propulsion 
  Program, U.S. Navy                                                 74

Rear Admiral Paul E. Sullivan, Deputy Commander, Ship Design, 
  Integration and Engineering, Naval Sea Systems Command, U.S. 
  Navy                                                               82

Mr. Ray F. Johnson, Vice President, Space Launch Operations, The 
  Aerospace Corporation..........................................    88

Ms. Deborah L. Grubbe, P.E., Corporate Director, Safety and 
  Health, DuPont.................................................    92

             Appendix 2: Additional Material for the Record

Statement of Admiral H.G. Rickover before the Subcommittee on 
  Energy Research and Production, Committee on Science and 
  Technology, U.S. House of Representatives, May 24, 1979........    96

Report NT-03-1, Environmental Monitoring and Disposal of 
  Radioactive Wastes From U.S. Naval Nuclear-Powered Ships and 
  Their Support Facilities, March 2003, Naval Nuclear Propulsion 
  Program........................................................   208

Report NT-03-2, Occupational Radiation Exposure From U.S. Naval 
  Nuclear Plants and Their Support Facilities, March 2003, Naval 
  Nuclear Propulsion Program.....................................   269

Report NT-03-03, Occupational Radiation Exposure From Naval 
  Reactors' Department of Energy Facilities, March 2003, Naval 
  Nuclear Propulsion Program.....................................   322

Report NT-03-4, Occupational Safety, Health, and Occupational 
  Medicine Report, March 2003, Naval Nuclear Propulsion Program..   373

 
  NASA'S ORGANIZATIONAL AND MANAGEMENT CHALLENGES IN THE WAKE OF THE 
                           COLUMBIA DISASTER

                              ----------                              


                      WEDNESDAY, OCTOBER 29, 2003

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       NASA's Organizational and

                      Management Challenges in the

                     Wake of the Columbia Disaster

                      wednesday, october 29, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, October 29, 2003 at 10:00 a.m., the House Committee 
on Science will hold a hearing to address the organizational and 
management issues confronting the National Aeronautics and Space 
Administration (NASA) in the aftermath of the Space Shuttle Columbia 
accident. According to the Columbia Accident Investigation Board 
(CAIB), NASA's ``organizational culture and structure'' had as much to 
do with the Columbia's demise as the physical causes of the accident. 
During the course of its nearly seven months of investigation into the 
causes of the accident, the CAIB encountered an ineffective and 
disengaged safety organization within NASA that ``failed to adequately 
assess anomalies and frequently accepted critical risks without 
qualitative or quantitative support.'' Based on its findings, the CAIB 
recommended significant changes to the organizational structure of the 
Space Shuttle Program (detailed below).
    To give a sense of some of the ways NASA could be restructured to 
comply with its recommendations, the CAIB report provided three 
examples of organizations with independent safety programs that 
successfully operate high-risk technologies. The examples were: the 
United States Navy's Submarine Flooding Prevention and Recovery 
(SUBSAFE) and Naval Nuclear Propulsion (Naval Reactors) programs and 
the Aerospace Corporation's independent launch verification process and 
mission assurance program for the U.S. Air Force.
    This hearing will provide an opportunity to examine each of these 
examples in depth, as well as the safety programs of the Dupont 
Corporation (an acknowledged industry leader in safety), to help 
determine how NASA should be reorganized.

2. Critical Questions

    The CAIB determined that reorganizing NASA is a critical 
requirement if the Shuttle is to fly safely over the long term. To 
provide adequate oversight of NASA's reorganization plans, the 
Committee needs to understand how different organization structures can 
contribute to safety. To that end, the following questions were 
submitted in advance to each of the witnesses:

        a.  What does it mean for a safety program to be 
        ``independent''? How can safety organizations be structured to 
        ensure their independence?

        b.  How can safety programs be organized to ensure that they 
        are robust and effective, but do not prevent the larger 
        organization from carrying out its duties?

        c.  How do you ensure that the existence of an independent 
        safety program does not allow the larger organization to 
        absolve itself of responsibility for safety?

        d.  How do you ensure that dissenting opinions are offered 
        without creating a safety review process that can never reach 
        closure?

3. Background

Recommendations of the CAIB and previous reports
    Since the loss of the Space Shuttle Challenger in 1986, numerous 
outside experts have reviewed NASA's human space flight safety programs 
and found them lacking. For instance, in the immediate aftermath of the 
Challenger accident, the Rogers Commission issued recommendations 
calling for the creation of an independent safety oversight function. 
Despite NASA's compliance efforts, the U.S. General Accounting Office 
concluded in 1990 that NASA still ``did not have an independent and 
effective safety organization.'' Nine years later, the Shuttle 
Independent Assessment Team and NASA Integrated Action Team likewise 
issued findings that were critical of NASA's safety programs and echoed 
the Roger Commission's call for the creation of an independent safety 
oversight function. Finally, in 2002, the Space Shuttle Competitive 
Task Force reiterated the call for an independent safety assurance 
function at NASA with ``authority to shut down the flight preparation 
processes or intervene post-launch when an anomaly occurs.''
    In August of 2003, the CAIB released Volume I of its report on the 
Columbia accident. Consistent with previous analyses of NASA's safety 
programs, the CAIB Report discovered fundamental, structural 
deficiencies in NASA's safety programs. For example, the report states, 
``the Shuttle Program's complex structure erected barriers to effective 
communication and its safety culture no longer asks enough hard 
questions about risk.. . .[T]he mistakes that were made on [the 
Columbia mission] are not isolated failures, but are indicative of 
systemic flaws that existed prior to the accident.. . .[A successful 
safety process] demands a more independent status than NASA has ever 
been willing to give its safety organizations, despite the 
recommendations of numerous outside experts over nearly two 
decades[.]''
    According to the CAIB Report, NASA's current approach to safety and 
mission assurance ``calls for centralized policy and oversight at 
Headquarters and decentralized execution of safety programs at the 
enterprise, program, and project levels.'' Under the existing 
organizational rubric, ``safety is the responsibility of program and 
project managers'' who are given flexibility ``to organize safety 
efforts as they see fit.''
    To remedy the current organization deficiencies, the primary CAIB 
recommendation on organization calls on NASA to ``establish an 
independent Technical Engineering Authority'' that would be 
``responsible for technical requirements and all waivers to them'' and 
that would be ``funded directly from NASA Headquarters, and should have 
no connection to or responsibility for schedule or program cost.'' The 
CAIB's fundamental goal is to separate the responsibility for safety 
from the Shuttle program's responsibility for cost and schedule. The 
current NASA structure, in which the Shuttle program itself is 
ultimately responsible for cost, schedule and safety inevitably leads 
to ``blind spots''--serious safety problems that are not properly 
analyzed or addressed, the CAIB concluded. The CAIB did not specify 
precisely how NASA should be reorganized to implement its 
recommendations, leaving that up to the agency.
    While the CAIB report does not label the implementation of a new 
organizational structure as a ``return to flight'' requirement, the 
report does say that NASA must ``prepare a detailed plan for defining, 
establishing, transitioning and implementing an independent Technical 
Engineering Authority, independent safety program, and a reorganized 
Space Shuttle Integration Office'' prior to returning to flight.
    NASA is in the process of preparing such a plan. Administrator Sean 
O'Keefe has tasked the Associate Administrator for Safety and Mission 
Assurance, Bryan O'Connor, with coming up with a proposed 
reorganization plan. O'Connor has circulated a ``white paper'' 
outlining his ideas for reorganization among NASA staff. Before being 
implemented, any reorganization plan will be reviewed both by the 
Stafford-Covey Task Force (the task force of outside experts set up by 
O'Keefe to evaluate return-to-flight activities, which is headed by 
former astronauts Tom Stafford and Richard Covey) and by the Space 
Flight Leadership Council, which comprises top NASA officials. NASA is 
also in the process of setting up a new NASA Engineering and Safety 
Center (NESC), which would be able to ``independently'' review aspects 
of programs. It is not clear how the NESC would relate to a new 
Independent Technical Engineering Authority, but Admiral Harold Gehman, 
the chairman of the CAIB, has testified that the NESC does not, by 
itself, fulfill the CAIB's recommendations related to organization.
Model safety organizations
    The CAIB Report cites three examples of organizations with 
successful safety programs and practices that could be models for NASA: 
the United States Navy's Naval Reactors and SUBSAFE programs and the 
Aerospace Corporation's independent launch verification process and 
mission assurance program for the U.S. Air Force.
    The Naval Reactors program is a joint Navy/Department of Energy 
organization responsible for all aspects of Navy nuclear propulsion, 
including research, design, testing, training, operation, and 
maintenance of nuclear propulsion plants on-board Navy ships and 
submarines. The Naval Reactors program is structurally independent of 
the operational program that it serves. Although the naval fleet is 
ultimately responsible for day-to-day operations and maintenance, those 
operations occur within parameters independently established by the 
Naval Reactors program. In addition to its independence, the Naval 
Reactors program has certain features that might be emulated by NASA, 
including an insistence on airing minority opinions and planning for 
worst case scenarios, a requirement that contractor technical 
requirements are documented in peer reviewed formal written 
correspondence, and a dedication to relentless training and retraining 
of its engineering and safety personnel.
    SUBSAFE is a program that was initiated by the Navy to identify 
critical changes in submarine certification requirements and to verify 
the readiness and safety of submarines. The SUBSAFE program was 
initiated in the wake of the USS Thresher nuclear submarine accident in 
1963. Until SUBSAFE independently verifies that a submarine has 
complied with SUBSAFE design and process requirements, its operating 
depth and maneuvers are limited. The SUBSAFE requirements are clearly 
documented and achievable, and rarely waived. Program mangers are not 
permitted to ``tailor'' requirements without approval from SUBSAFE. 
Like the Naval Reactors program, the SUBSAFE program is structurally 
independent from the operational program that it serves. Likewise, 
SUBSAFE stresses training and retraining of its personnel based on 
``lessons learned,'' and appears to be relatively immune from budget 
pressures.
    The Aerospace Corporation operates as a Federally Funded Research 
and Development Center that independently verifies safety and readiness 
for space launches by the United States Air Force. As a separate entity 
altogether from the Air Force, Aerospace conducts system design and 
integration, verifies launch readiness, and provides technical 
oversight of contractors. Aerospace is indisputably independent and is 
not subject to schedule or cost pressures.
    According to the CAIB, the Navy and Air Force programs have 
``invested in redundant technical authorities and processes to become 
reliable.'' Specifically, each of the programs allows technical and 
safety engineering organizations (rather than the operational 
organizations that actually deploy the ships, submarines and planes) to 
``own'' the process of determining, maintaining, and waiving technical 
requirements. Moreover, each of the programs is independent enough to 
avoid being influenced by cost, schedule, or mission-accomplishment 
goals. Finally, each of the programs provides its safety and technical 
engineering organizations with a powerful voice in the overall 
organization. According to the CAIB, the Navy and Aerospace programs 
``yield valuable lessons for [NASA] to consider when redesigning its 
organization to increase safety.''

4. Witnesses

First Panel

        a.  Admiral Frank L. ``Skip'' Bowman, United States Navy (USN), 
        is the Director of the Naval Nuclear Propulsion (Naval 
        Reactors) Program. In this capacity, Admiral Bowman is 
        responsible for the program that oversees the design, 
        development, procurement, operation, and maintenance of all the 
        nuclear propulsion plants powering the Navy's fleet of nuclear 
        warships. Admiral Bowman is a graduate of Duke University and 
        the Massachusetts Institute of Technology.

        b.  Rear Admiral Paul Sullivan, USN, is the Deputy Commander 
        for Ship Design Integration and Engineering for the Naval Sea 
        Systems Command, which is the authority for the technical 
        requirements of the SUBSAFE program. Admiral Sullivan is a 
        graduate of the U.S. Naval Academy and the Massachusetts 
        Institute of Technology.

        c.  Mr. Ray F. Johnson is the Vice President for Space Launch 
        Operations for the Aerospace Corporation, located in El 
        Segundo, California. Mr. Johnson is responsible for Aerospace's 
        support for all Air Force space launch programs, including 
        Aerospace's certification reviews prior to launch. Mr. Johnson 
        holds a B.S. degree in mechanical engineering from the 
        University of California at Berkeley and an MBA from the 
        University of Chicago.

        d.  Ms. Deborah L. Grubbe is the Corporate Director for Safety 
        and Health at Dupont. In this capacity, Ms. Grubbe is tasked 
        with leading new initiatives in global safety and occupational 
        health for Dupont. Ms. Grubbe and is a past director of DuPont 
        Nonwovens, where she was accountable for manufacturing, 
        engineering, and safety. Ms. Grubbe holds a B.S. degree in 
        chemical engineering from Purdue University and a Certificate 
        of Post-Graduate Study in chemical engineering from Cambridge 
        University.
Second Panel
    Admiral Harold Gehman, Jr., USN (retired), chaired the Columbia 
Accident Investigation Board.

5. Attachment

    Excerpt from the Columbia Accident Investigation Board Report, 
Volume I (August 2003), Chapter 7, Section 7.3 (pp. 182-184).

Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. We might as well start. We thank you for 
being punctual, and I tried very hard to be punctual, too.
    I want to welcome everyone to today's hearing, which 
concerns one of the most critical recommendations of the 
Columbia Accident Investigation Board. The CAIB was clear and 
on-target in citing organizational deficiencies as a leading 
cause of the Columbia accident. It was also clear and on-target 
in calling for the establishment of a new Independent Technical 
Engineering Authority and of a truly independent safety 
organization. And in both instances, I stress the word 
``independent''.
    In both its conclusions and its recommendations on 
organization, the Columbia Accident Investigation Board was, 
unfortunately, able to follow a well-worn path. The Rogers 
Commission and the Shuttle Independent Assessment Team, among 
others, had made similar recommendations. They all apparently 
fell on deaf ears. This must not be allowed to happen again.
    NASA Administrator Sean O'Keefe is to be applauded for 
deciding that the reorganization of NASA should occur before 
return to flight, setting a more ambitious schedule than that 
called for by the CAIB. He should also be congratulated for 
recognizing NASA's organizational deficiencies before the 
Columbia accident, which led him to initiate the so-called 
``benchmarking studies'' comparing NASA with the Navy, 
something with which he is most familiar.
    But, of course, undertaking the right studies and setting 
the right schedule is not enough. NASA must actually come up 
with the right reorganization plan and make sure that it is 
taken to heart.
    The CAIB did not dictate exactly how NASA should carry out 
its recommendations, so NASA is now in the process of drawing 
up its plans, and this committee will have to review those 
plans with a fine-tooth comb.
    The purpose of today's hearing is to help give us the 
background to do just that. We will hear from organizations 
that the CAIB cited as possible models for NASA to follow and 
from an industrial leader in safety. Obviously, there are 
differences among these models, and any one of them would have 
to be adapted to apply to NASA, but they all highlight 
characteristics of high-reliability organizations that NASA has 
been lacking. We will learn from Admiral Gehman precisely why 
and how the Navy and Air Force safety programs can be seen as 
models for NASA.
    I have no doubt that this committee will have ample 
opportunity over the next year or so to put to use the 
information we gather today. As I noted earlier, NASA is just 
in the initial stages of putting together and organizational 
plan, and I have complete confidence that Administrator O'Keefe 
has taken the CAIB recommendations to heart.
    But that said, I must note that I believe the initial 
organization ideas being circulated by NASA fall significantly 
short of the mark. We look forward to working with NASA as it 
continues to rework its plans.
    Today's hearing, though, is not on any specific proposal. 
Rather, our goal today is to learn what has worked elsewhere 
and why and to start thinking how the experience of others 
could be put to work to help NASA.
    This is one of the most important tasks facing this 
committee, and I am eager to hear from our witnesses today. And 
I want to thank you all for being resources.
    [The prepared statement of Mr. Boehlert follows:]

            Prepared Statement of Chairman Sherwood Boehlert

    I want to welcome everyone to today's hearing, which concerns one 
of the most critical recommendations of the Columbia Accident 
Investigation Board (CAIB).
    The CAIB was clear and on-target in citing organizational 
deficiencies as a leading cause of the Columbia accident. It was also 
clear and on-target in calling for the establishment of a new 
Independent Technical Engineering Authority and of a truly independent 
safety organization.
    In both its conclusions and its recommendations on organization, 
the CAIB was, unfortunately, able to follow a well-worn path. The 
Rogers Commission and the Shuttle Independent Assessment Team, among 
others, had made similar recommendations. They all apparently fell on 
deaf ears. That must not be allowed to happen again.
    NASA Administrator Sean O'Keefe is to be applauded for deciding 
that the re-organization of NASA should occur before return-to-flight, 
setting a more ambitious schedule than that called for by the CAIB. He 
should also be congratulated for recognizing NASA's organizational 
deficiencies before the Columbia accident, which led him to initiate 
the so-called ``bench-marking studies'' comparing NASA with the Navy.
    But, of course, undertaking the right studies and setting the right 
schedule is not enough. NASA must actually come up with the right 
reorganization plan and make sure that it is taken to heart.
    The CAIB did not dictate exactly how NASA should carry out its 
recommendations, so NASA is now in the process of drawing up its plans, 
and this committee will have to review those plans with a fine-tooth 
comb.
    The purpose of today's hearing is to help give us the background to 
do just that. We will hear from organizations that the CAIB cited as 
possible models for NASA to follow and from an industrial leader in 
safety. Obviously, there are differences among these models, and any 
one of them would have to be adapted to apply to NASA. But they all 
highlight characteristics of high-reliability organizations that NASA 
has been lacking. We will learn from Admiral Gehman precisely why and 
how the Navy and Air Force safety programs can be seen as models for 
NASA.
    I have no doubt that this committee will have ample opportunity 
over the next year or so to put to use the information we gather today. 
As I noted earlier, NASA is just in the initial stages of putting 
together an organization plan, and I have complete confidence that 
Administrator O'Keefe has taken the CAIB recommendations to heart.
    But that said, I must note that I believe the initial organization 
ideas being circulated by NASA fall significantly short of the mark. We 
look forward to working with NASA as it continues to rework its plans.
    Today's hearing, though, is not on any specific proposal. Rather, 
our goal today is to learn what has worked elsewhere and why, and to 
start thinking how the experience of others could be put to work to 
help NASA.
    This is one of the most important tasks facing this committee, and 
I am eager to hear from our witnesses today.

    Chairman Boehlert. The gentleman from Texas, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. I certainly join you in 
welcoming the panel and Admiral Bowman and Admiral Sullivan, 
Mr. Johnson, and Ms. Grubbe. And Admiral Gehman is to be here. 
I think he has a conflict right now, but he is to join us. We 
look forward to his input and his backing up the testimony that 
we are going to be hearing here and to thank him again for an 
excellent job that he did at a time when we really needed an 
excellent job to be done.
    As we continue to address the recommendations of the panel, 
we now come to absolutely the most important part of it. We 
have talked about organizational items, and we were organized 
then, but we just weren't organized properly. And we need 
organizational changes now. And that has got to be the thrust. 
The Columbia Accident Investigation Board, the CAIB, report 
devotes an entire chapter to the organizational causes of the 
accident. And in it, the CAIB makes three specific 
recommendations, and those are based on the CAIB's 
investigation of organizations that have had success in setting 
up and maintaining highly regarded safety procedures. They have 
had some experience and they know what they are doing. They 
know what they are recommending.
    So three of the organizations represented by our witnesses 
here are specifically named by CAIB as examples of 
organizations, and I quote, ``highly adept in dealing with 
inordinately high risk by designing hardware and management 
systems that prevent seemingly inconsequential failure from 
leading to major disasters.'' And you almost have to read that 
and read it again to really get the full impact of it. But we 
want to hear from each of you about the characteristics of your 
approaches to safety that you think are important for NASA to 
adopt.
    However, setting up the right organizational structure is 
only part of the job. Ensuring that the organization carries 
through on safe practices is equally important. That is where 
independent oversight can play a valuable role, and that is why 
the Chairman emphasizes independence, independence, 
independence. After the Apollo fire in 1968, Congress set up 
the Aerospace Safety Advisory Panel, ASAP, to provide that 
function for the agency. And in recent years, it has become 
apparent that NASA had not followed through on a number of the 
ASAP's constructive recommendations. As many of you know, the 
entire membership of ASAP resigned last month. And that is 
highly irregular. I can't even remember such an action ever 
occurring. I think we need to find out why they resigned and 
what we need to do to address their concerns.
    One of the ASAP's recommendations concerned the need for a 
crew escape system for the Shuttle. And I think ASAP was 
exactly right on that. I would also note that the appendices to 
the CAIB report that were released this week make it clear that 
we can and we should be doing more to ensure crew survivability 
on the Shuttle. I don't understand why we can't. I am going to 
press--continue to press for NASA action on a crew escape 
system if the Shuttle is going to be flying for many more 
years. If it is going to be flying for another year, I want us 
to be underway at doing it. I would hate to have a tragedy at 
the end of this year and not have already launched a method for 
them to escape whether we are able to get that in place. It is 
just like Reagan's star wars. I don't think Russia ever knew if 
we had one in place or not, but I think it helped that we were 
on our way there. And the fact that we were working toward it 
gave us a lot electronically and even nationally defense-wise. 
And it was worthwhile. It was worth what we spent for it.
    So I--and I have another concern. Admiral Gehman has made 
the point in recent months that he is concerned about NASA not 
following through on the CAIB recommendations once the Shuttle 
returns to flight. I also share his concern. I think an 
independent group is needed to monitor NASA's implementation of 
the CAIB recommendations. One potential approach is contained 
in H.R. 3219, a bill I recently introduced that directs the 
NASA Administrator to work with the National Academies of 
Science and Engineering to establish such an independent 
oversight committee. It would report yearly to Congress for 
five years following the launch of the next Shuttle. As I have 
said, it is one potential approach. It is not the only one. 
There may be others. There may be a better way to go about 
ensuring continuing, independent oversight of NASA's Shuttle 
program. And I am open to suggestions. But I think we need to 
take action. I introduced that to get something kicked off, to 
get it going in the right direction. And if anybody can pick a 
better direction or a faster direction or a safer direction, 
then I am certainly interested in looking at. I--but I don't 
want CAIB's recommendations to wind up being ignored.
    Well, I won't take any more time, Mr. Chairman, to discuss 
these issues. I know we all want to hear from the witnesses, 
very valuable witnesses, and people that are givers and not 
takers. You have had to prepare yourself to come here. You had 
to prepare yourself to know what you know and to do what you 
have done and then to share it with us. I appreciate it, and I 
know the Chair and this committee does.
    And I yield back my time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Good morning. I want to join the Chairman in welcoming Admiral 
Bowman, Admiral Sullivan, Mr. Johnson, and Ms. Grubbe to our hearing. 
Admiral Gehman, welcome back to our committee. We again look forward to 
your comments.
    As we continue to address the recommendations of the Gehman Panel, 
we now come to one of the most important areas--organizational changes. 
The Columbia Accident Investigation Board (CAIB) report devotes an 
entire chapter to the organizational causes of the accident. In it, the 
CAIB makes three specific recommendations. Those recommendations are 
based on the CAIB's investigation of organizations that have had 
success in setting up and maintaining highly regarded safety 
procedures.
    Three of the organizations represented by our witnesses are 
specifically named by the CAIB as examples of organizations ``highly 
adept in dealing with inordinately high risk by designing hardware and 
management systems that prevent seemingly inconsequential failure from 
leading to major disasters.'' We want to hear from each of you about 
the characteristics of your approaches to safety that you think are 
important for NASA to adopt.
    However, setting up the right organizational structure is only part 
of the job. Ensuring that the organization carries through on safe 
practices is equally important. That's where independent oversight can 
play a valuable role. After the Apollo fire in 1968, Congress set up 
the Aerospace Safety Advisory Panel (ASAP) to provide that function for 
the agency. In recent years, it has become apparent that NASA has not 
followed through on a number of the ASAP's constructive 
recommendations. As many of you know, the entire membership of the ASAP 
resigned last month. I can't ever remember such an action occurring, 
and I think we need to find out why they resigned and what we need to 
do to address their concerns.
    One of the ASAP's recommendations concerned the need for a crew 
escape system for the Shuttle. I think the ASAP was right. I'd also 
note that the appendices to the CAIB report that were released this 
week make it clear that we can and should be doing more to ensure crew 
survivability on the Shuttle. I'm going to continue to press for NASA 
action on a crew escape system if the Shuttle is going to be flying for 
many more years.
    I have another concern. Admiral Gehman has made the point in recent 
months that he is concerned about NASA not following through on the 
CAIB recommendations once the Shuttle returns to flight. I share his 
concern. I think an independent group is needed to monitor NASA's 
implementation of the CAIB recommendations. One potential approach is 
contained in H.R. 3219, a bill I recently introduced that directs the 
NASA Administrator to work with the National Academies of Sciences and 
Engineering to establish such an independent oversight committee. It 
would report yearly to Congress for five years following the launch of 
the next shuttle. As I said, it is one potential approach. There may be 
other ways to go about ensuring continuing, independent oversight of 
NASA's Shuttle program, and I am open to suggestions. But I think we 
need to take action soon so that the CAIB's recommendations don't wind 
up getting ignored.
    Well, I will not take any more time to discuss these issues in my 
opening statement. I know we all want to hear from the witnesses, and I 
will continue this discussion during the question period.
    I look forward to your testimony, and I yield back the balance of 
my time.

    Chairman Boehlert. Thank you very much, Mr. Hall.
    The gentleman from Tennessee, Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman. I think that you sent 
us in a good direction with your earlier remarks, so I will be 
brief here. I want to also welcome the witnesses. It is my 
understanding that Admiral Gehman is on his way over from the 
Senate. And again, I want to thank him for his willingness to 
appear before the Committee again.
    The Columbia Accident Investigation Board, which he 
chaired, raised a number of serious issues about the way NASA 
addressed safety in the Shuttle program. The Board came to the 
conclusion that should be of concern to all Members, namely, 
and I quote, ``We are convinced that the management practices 
overseeing the Space Shuttle program were as much a cause of 
the accident as the foam that struck the left wing.'' To its 
credit, the Board did not simply highlight the problem. It also 
tried to offer some suggestions on how NASA might address the 
management issue.
    Today, we are going to hear from some non-NASA 
organizations that the Board thinks may have some lessons 
learned for NASA. I look forward to their testimony. In 
particular, I hope that we can--or that they can offer the 
Committee some benchmarks by which we can judge NASA's 
responses to the Board's organizational recommendations.
    Beyond that, Mr. Chairman, I hope that this hearing will be 
just a starting point for our examination of these issues. I 
hope that we will look at additional models of safety and 
organizations for insights that they might offer. For example, 
I think that we should look at how NASA and DOD handled 
experimental flight testing programs at the Dryden Research 
Center and Edwards Air Force Base.
    I also think that it might be worth taking a look--a closer 
look at the Russian human space flight program. As I understand 
it, the Russians haven't had a space flight fatality since 
1971, or more than 30 years ago. We might also benefit from the 
examination of how NASA handled safety in the earlier years, 
that is during the Apollo moon-landing program. Apollo was an 
extremely challenging program that may have lessons for us to 
learn today, also.
    And finally, I want to support Mr. Hall's concerns and 
comments. I was also very concerned about the mass resignation 
of the Aerospace Safety Panel. ASAP members, I think we need to 
hear from them and hear more about why they resigned and what 
they feel like is necessary for their independence.
    So there is a lot to cover today, and once again, thank 
you, Mr. Chairman, for bringing us together for this important 
meeting and I am glad the witnesses are giving their time 
today.
    Chairman Boehlert. Thank you very much, Mr. Gordon and Mr. 
Hall.
    [The prepared statement of Mr. Rohrabacher follows:]
         Prepared Statement of Representative Dana Rohrabacher
    Mr. Chairman, your leadership has enabled this committee to 
carefully deliberate on the root causes that contributed to the 
Columbia Space Shuttle accident and critical issues surrounding the 
future of our civil space program in the wake of this tragedy.
    Admiral Gehman and his colleagues found that overconfidence and an 
overly bureaucratic nature dominated NASA's historical decision-making 
of Shuttle Program managers. Although NASA claims it has made safety a 
high priority within the Space Shuttle Program, ``blind spots'' 
inherent in its culture impeded its ability to detect risks posed by 
something as simple as form.
    NASA must get its house in order before it attempts to meet the 
challenge of space exploration. Our witnesses will provide us insight 
on how their organizations apply best practices for reducing the 
likelihood of accidents. Let's hope that what we learn today is useful 
for getting NASA on the path of recovery tomorrow.
    Thank you Mr. Chairman.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss the organizational and management issues 
confronting NASA in the aftermath of the Space Shuttle Columbia 
accident. Today's hearing serves has an opportunity for Congress to 
gain a better understanding of the Columbia Accident Investigation 
Board (CAIB) recommendations and the successful safety programs of the 
organizations represented at this hearing so as to have an informed 
basis for judging whether NASA is in compliance with the CAIB 
recommendations.
    I have been concerned with the Safety and Health regulation 
structure used by the DOE civilian labs. My colleague, Congressman Ken 
Calvert, has worked with me to introduce a bill ending DOE's self-
regulation and opening the civilian labs up to regulation by OSHA and 
the NRC. The Jet Propulsion Laboratory (JPL) has been drawn into this 
discussion inadvertently due to its inclusion in the DOE 2002 Best 
Practices Study. That report, coupled with reviews done by the General 
Accounting Office, draws attention to the relative efficiency of JPL's 
management processes and provides a snapshot for what we would like to 
see at the civilian labs.
    The same can be said about the Naval Nuclear Propulsion Program, 
the SUBSAFE program, and Aerospace Corporation in relation to NASA and 
evaluating best safety practices. You each represent organizations that 
have been identified as leaders in safety. The CAIB report recommends 
that NASA establish an independent Technical Engineering Authority that 
is responsible for all technical requirements and waivers to them. 
Further, the CAIB's fundamental goal in establishing this independent 
body is to separate the responsibility for safety from the Shuttle's 
program responsibility for cost and schedule.
    I am interested to know if each of your organizations has an 
independent technical engineering authority or something similar and 
how it is independent from other elements of the organization, funded 
and staffed. Further, I am interested to know from Admiral Gehman how 
he and CAIB view the role of the Shuttle program manager in light of 
the CAIB recommendations.
    I welcome our panel of witnesses and look forward to their 
testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman. I would like to thank you for calling this 
hearing today, and I would also like to thank our witnesses for 
agreeing to appear here today to answer our questions.
    Today we are here to discuss issues concerning organization and 
management at the National Aeronautics and Space Administration (NASA).
    At the end of the past summer, the final report of the Columbia 
Accident Investigation Board (CAIB) was released. While much of it 
focused on the technical causes, there was also a substantial emphasis 
on poor decisions and other organizational issues that may have led to 
the accident. Included in this report are communications about how 
repeated foam strikes on the Shuttle became damaged, as well as 
communications and decision-making issues among engineers and managers 
while the Shuttle was in orbit. These types of mistakes are entirely 
too costly.
    We are now seeing the warning signs that show that NASA is an 
agency in trouble. The Columbia Accident Investigation Board sharply 
criticized NASA's safety and management procedures. With problems 
escalating rather than abating, NASA still seems ready to put the 
mission ahead of an abundance of caution. What could be the disastrous 
affects if the Space Station is not being properly maintained and 
supplied, increasing the risk to its crew? In this environment, if 
senior safety officials cannot halt the launch of a replacement crew to 
a deteriorating Space Station, who at NASA can and would abort a 
dangerous mission?
    We must put forth a more concerted effort to protect the safety of 
our astronauts.
    It was over 40 years ago that this nation's leaders in human space 
travel were given the foresight to recognize the importance of space 
exploration. It is my hope that NASA will continue this exploration, 
with the intent of making safety first in all of their endeavors.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Mr. Chairman,

    Thank you for calling yet another critical hearing in this series 
to ensure that we in Congress are doing all we can do to help NASA get 
back on track to fulfilling its vital mission in Space. I have been 
pleased by the bipartisan spirit here and in the Space Subcommittee 
since February, when we lost the Shuttle Columbia and her brave crew. 
Fulfilling the call of the Gehman Board and changing the culture at 
NASA will take hard work, creativity, and good ideas from both sides of 
the aisle.
    But we do not need to re-invent the wheel. As was stated in the 
Columbia Accident Investigation Board Report, there are several 
excellent models of organizations that work in high-risk areas, and 
still maintain solid safety records. I thank the representatives from 
those groups for joining us today, to enlighten us on the management 
practices they use to ensure that safety is not an afterthought, but a 
top priority.
    Working together, I hope we can draw from their experiences and 
craft policies for NASA that will ensure that Shuttles and the Space 
Station, as well as the spaceships of the future, are robust and 
reliable.
    I am especially interested in their opinions on the role of 
whistleblower protections and retaliation prevention in promoting open 
dialogue and safety. After the Columbia Disaster, it was painful to 
hear from the CAIB that there were people at NASA--and not just some 
interns with naive notions--but experienced engineers, who had 
recognized the dangers, and tried to take prudent steps to get images 
that may have averted disaster. Those experts were ignored. That is 
truly painful to think about. The report gave great insight into the 
broken culture of safety at NASA that impeded the flow of critical 
information from engineers up to program managers. I quote: ``Further, 
when asked by investigators why they were not more vocal about their 
concerns, Debris Assessment Team members opined that by raising 
contrary points of view about Shuttle mission safety, they would be 
singled out for possible ridicule by their peers.''
    That reaffirms to me that strong whistleblower protections do not 
just protect workers. They protect lines of communication and dialogue 
that prevent waste, fraud, and abuse, and, in this case, might have 
saved lives. I have been working with union representatives to develop 
a pathway within NASA, through which workers with serious concerns 
about the safety of a mission or the survivability of crew can go to 
express their opinions. That body will make sure that due attention is 
given to their concerns. After that, the same office will be charged 
with following the employee that came to them over time, to ensure that 
they are not harassed or retaliated against in any way.
    Workers that think critically and act responsibly should be 
rewarded, not punished. Protecting such workers will send a signal to 
all workers that safety must always come before speed. I would like to 
hear the panelists' opinions of this approach.
    I am also interested in their opinions of what proportion of their 
budgets are dedicated to safety and quality assurance. Budgets are 
tight these days, and many important programs are being cut. However, 
if we are going to continue our mission in space--as I believe we 
must--we need to spend the appropriate funds to protect our investments 
and our astronauts. How much will that cost?
    I am also pleased to see Admiral Gehman here again to share his 
expertise and insights with us. I would like to continue the dialogue 
we started last month, exploring how we can ensure that the lessons we 
learn about how to make the Shuttle safer also carry over to the Space 
Station and other NASA programs. Recent revelations that the new Space 
Station crew was sent up against the will of senior medical personnel 
were disturbing. It was even more disturbing to hear that the internal 
debates about hazards to the crew did not percolate up to the 
Administrator until a couple of days before flight--and never made it 
to us in Congress. I hope it is not business-as-usual at NASA. I would 
like to hear the Admiral's ideas on this matter.
    I look forward to the discussion. Thank you.

                                Panel I

    Chairman Boehlert. Let us get right to our panel.
    The panel consists of: Admiral F.L. ``Skip'' Bowman, 
Director, Naval Nuclear Propulsion Program; Rear Admiral Paul 
E. Sullivan, Deputy Commander, Ship Design, Integration and 
Engineering, Naval Sea Systems Command; Ray F. Johnson, Vice 
President, Space Launch Operations, The Aerospace Corporation; 
and Ms. Deborah Grubbe, Corporate Director, Safety and Health, 
DuPont. Thank you all for your willingness to serve as 
resources for this committee. And as you will discover, we are 
going to listen in wrapped attention, because what you have to 
say is very important to us and--as we go about our very 
important work. And I would ask that you try to summarize your 
statement. The Chair is not going to be arbitrary. What you 
have to say is too darn important to confine it to 300 seconds, 
but that would be sort of a benchmark of five minutes or so, so 
that we will have ample time for a dialogue and an exchange so 
that we can learn. Thank you very much.
    Admiral Bowman, you are first up.

  STATEMENT OF ADMIRAL F.L. ``SKIP'' BOWMAN, DIRECTOR, NAVAL 
             NUCLEAR PROPULSION PROGRAM, U.S. NAVY

    Admiral Bowman. Mr. Chairman, Mr. Hall, Members of the 
Committee, thank you very much for the opportunity to testify 
today on the culture of safety that has allowed Naval Reactors 
to be successful for the last 55 years.
    First, let me say that I wish the circumstances that 
brought me here were different. I am sure it is true with you, 
also. Obviously, the underlying reason I am here involves your 
oversight of NASA in the aftermath of the Space Shuttle 
Columbia tragedy.
    I want to begin, then, by extending my sympathy to all of 
the families, colleagues, and friends of the Columbia crew. I 
must also tell you that although there has been, and continues 
to be, much public discussion of the tragedy, why it happened 
and what changes NASA should pursue, I do not know firsthand 
the details surrounding the accident nor am I an expert on 
spacecraft or the NASA organization. I am therefore not 
qualified to make judgments about the causes of the tragedy or 
to even suggest changes that NASA may implement to prevent our 
nation from suffering another terrible loss. However, I have 
studied, very carefully, the final report of the Columbia 
Accident Investigation Board, and I believe, therefore, that 
you might draw some useful thoughts from my testimony today.
    I am often asked, Mr. Chairman, how it is that Naval 
Reactors has been able to maintain its impeccable safety record 
for these 55 years. Just last week, I participated in a 
conference that asked these same questions, commemorating the 
50th anniversary of President Eisenhower's ``Atoms for Peace'' 
speech, which partially addressed these very questions that I 
will address today. And many of the things that I have said 
then are applicable today.
    Since Admiral Hyman Rickover began the Naval Reactors 
Program in 1948, we have insisted that the only way to operate 
our nuclear power plants, the only way to ensure safe operation 
generation after generation, is to embrace a system that 
ingrains in each operator a total commitment to safety, a 
pervasive, enduring devotions to a culture of safety and 
environmental stewardship.
    To ensure the Program's success, as our record of safety 
clearly demonstrates, Admiral Rickover established these core 
values, which endure today. First, technical excellence and 
technical competence are absolutely required in our work. 
Because things do happen, especially at sea, we rely on a 
multi-layered defense against off-normal events. Our reactor 
designs and operating procedures are uncomplicated and 
conservative, and we build in redundancy. Next, we still, and 
always will, select the very best people we can find with the 
highest integrity and professional competence; then we 
rigorously train them and continually challenge them. Third, we 
require formality and discipline, and we insist on forceful 
backup from the very youngest sailor on board all of the way up 
through to the commanding officer. And fourth, every level of 
the Program must accept inescapable, cradle-to-grave 
responsibility for every aspect of nuclear power operations. 
These core values, among others, are what define our 
organizational culture. They are visible in everything we do 
and have done for the last 55 years.
    Today, in my eighth year as Admiral Rickover's successor, 
the fourth director of Naval Reactors, I oversee the operation 
of 103 naval reactors, equaling the number of commercial 
reactors in this country. These reactors, powering U.S. Navy 
ships, are welcomed in more than 150 ports and more than 50 
countries around the world.
    That welcome access is primarily due to our safety record. 
Safety is embedded in our organization in every individual at 
every level. Put another way, we use the word ``mainstreamed.'' 
Safety is mainstreamed. It is not a responsibility unique to a 
segregated safety department that then attempts to impose its 
oversight on the rest of the organization. Each individual is 
completely responsible for his or her component, his or her 
system, from cradle to grave and this drives two other vital 
aspects of the way we do business.
    First, when solving a problem, we determine the range of 
technically acceptable answers first. Then we find out how to 
fit one of those solutions into our other constraints, 
specifically cost and schedule, without imposing any undue risk 
and without challenging the safety aspects of the technically 
acceptable answers. If we need more time or more money, we 
simply ask for it. Although we pride ourselves as stewards of 
the Government's resources, we don't let funding or schedules 
outweigh sound technical judgment.
    Second, the decision-making process occasionally brings out 
dissenting or minority opinions. When this occurs, my staff 
presents the facts from both sides of the issues to me 
directly. Before a final decision is made, every opinion is 
aired. There is never any fear of reprisal for not agreeing 
with the proposed recommendation; rather, if there is not a 
minority opinion, I ask why not and solicit that minority 
opinion, treat it with the same weight as the consensus view. 
If I determine that there is enough information to make a 
decision, then I make a decision. If more data are needed, then 
we get more data.
    In the aftermath of Three Mile Island, the accident in 
1979, Admiral Rickover was asked to testify before Congress in 
a context very similar to my appearance here today. In his 
testimony, he said the following: ``Over the years, many people 
have asked me how I run the Naval Reactors Program so that they 
might find some benefit for their own work. I am always 
chagrined at the tendency of people to expect that I have a 
simple, easy gimmick that makes my program function. Any 
successful program functions as an integrated whole of many 
factors. Trying to select just one aspect as the key one will 
not work. Each element depends on all of the others.''
    I wholeheartedly agree with what Admiral Rickover said 
those years ago. As I said earlier, there is no magic formula. 
Safety must be in the mainstream.
    Mr. Chairman, with your permission, I will submit a copy of 
my written testimony along with Admiral Rickover's 1979 
testimony for the record. This testimony is very relevant, 
because it describes many of the same attributes and core 
values that I have discussed today, demonstrating that in fact 
these key elements of Naval Reactors are timeless and enduring. 
That testimony also details the continual training program for 
the nuclear-trained Fleet operators. I have taken the 
opportunity to update the statistics on the first four pages of 
Admiral Rickover's testimony to put them in perspective for 
today's real numbers. Also, with your permission, I will submit 
a copy of the Program's annual environmental, occupational 
radiation exposure, and occupational safety and health reports 
for the Committee's perusal.
    Our basic organization responsibilities, and, most 
importantly, our core values have remained largely unchanged 
since Admiral Rickover founded Naval Reactors. These core 
values that I have discussed today are the foundation that have 
allowed our nuclear-powered ships to safely steam more than 128 
million miles, equivalent to over 5,000 trips around the Earth, 
without a reactor accident, indeed, with no measurable negative 
impact on the environment or human health.
    Thank you very much for allowing me to testify today.
    [The prepared statement of Admiral Bowman follows:]

           Prepared Statement of Admiral F.L. ``Skip'' Bowman

    Mr. Chairman and Members of this committee, thank you for giving me 
the opportunity to testify today on the subject of the culture of 
safety that has allowed Naval Reactors to be successful for the last 55 
years.
    But first, let me say that that I wish the circumstances that 
brought me here were different. Obviously, the underlying reason I'm 
here involves your oversight of NASA in the aftermath of the Space 
Shuttle Columbia tragedy. I want to begin, then, by extending my 
sympathy to all the families, colleagues, and friends of the Columbia 
crew. I must also tell you that although there has been and continues 
to be much public discussion of the tragedy--why it happened, what 
changes NASA should pursue, and others--I do not know first-hand the 
details surrounding the accident, nor am I an expert on spacecraft or 
the NASA organization. I therefore am not qualified to make judgments 
about the causes of the tragedy or to suggest changes that NASA may 
implement to prevent our nation from suffering another terrible loss. 
However, having studied the final report of the Columbia Accident 
Investigation Board, I believe you may draw some useful conclusions 
from my testimony.
    My area of expertise is the Naval Reactors Program (NR), so it's 
better for me to talk about that. Admiral Hyman G. Rickover set up NR 
in 1948 to develop nuclear propulsion for naval warships. Nuclear 
propulsion is vital to the Navy today for the reasons Admiral Rickover 
envisioned 55 years ago: it gives our warships high speed, virtually 
unlimited endurance, worldwide mobility, and unmatched operational 
flexibility. When applied to our submarines, nuclear propulsion also 
enables the persistent stealth that allows these warships to operate 
undetected for long periods in hostile waters, exercising their full 
range of capabilities.
    In 1982, after almost 34 years as the Director of Naval Reactors, 
Admiral Rickover retired. Recognizing the importance of preserving the 
authority and responsibilities Admiral Rickover had established, 
President Reagan signed Executive Order 12344. The provisions of the 
executive order were later set forth in Public Laws 98-525 [1984] and 
106-65 [1999]. The executive order and laws require that the Director, 
Naval Reactors, hold positions of decision-making authority within both 
the Navy and the Department of Energy (DOE). Because continuity and 
stature are vital, the director has the rank of four-star admiral 
within the Navy and Deputy Administrator within the Department of 
Energy's National Nuclear Security Administration and a tenure of eight 
years.
    Through the Executive Order and these laws, the director has 
responsibility for all aspects of naval nuclear propulsion, 
specifically:

        <bullet>  Direct supervision of our single-purpose DOE 
        laboratories, the Expended Core Facility, and our training 
        reactors.

        <bullet>  Research, development, design, acquisition, 
        procurement, specification, construction, inspection, 
        installation, certification, testing, overhaul, refueling, 
        operating practices and procedures, maintenance, supply 
        support, and ultimate disposition of naval nuclear propulsion 
        plants and components, plus any related special maintenance and 
        service facilities.

        <bullet>  Training (including that which is conducted at the 
        DOE training reactors), assistance and concurrence in the 
        selection, training, qualification, and assignment of personnel 
        reporting to the director and of personnel who supervise, 
        operate, or maintain naval nuclear propulsion plants.

        <bullet>  Administration of the Naval Nuclear Propulsion 
        Program, including oversight of Program support in areas such 
        as security, nuclear safeguards and transportation, public 
        information, procurement, logistics, and fiscal management.

        <bullet>  And finally, perhaps most relevant to this committee, 
        I am responsible for the safety of the reactors and associated 
        naval nuclear propulsion plants, and control of radiation and 
        radioactivity associated with naval nuclear propulsion 
        activities, including prescribing and enforcing standards and 
        regulations for these areas as they affect the environment and 
        the safety and health of workers, operators, and the general 
        public.

    For more than seven years, I have been the director, the third 
successor to Admiral Rickover. I am responsible for the safe operation 
of 103 nuclear reactors--the same number as there are commercial 
nuclear power reactors in the U.S. Roughly 40 percent of the Navy's 
major combatants are nuclear powered, including 10 of its 12 aircraft 
carriers plus 54 attack submarines, 16 ballistic missile submarines, 
and two former ballistic missile submarines being converted to SSGNs 
(guided missile submarines). Also included in these 103 reactors are 
four training reactors and the NR-1, a deep submersible research 
submarine. The contribution these ships and their crews make to the 
national defense and, more recently, to the Global War on Terrorism is 
remarkable. And the Program's safety record speaks for itself: these 
warships have steamed over 128 million miles since 1953 and are 
welcomed in over 150 ports of call in over 50 countries around the 
world.
    Safety is the responsibility of everyone at every level in the 
organization. Safety is embedded across all organizations in the 
Program, from equipment suppliers, contractors, laboratories, 
shipyards, training facilities, and the Fleet to our Headquarters. Put 
another way, safety is mainstreamed. It is not a responsibility unique 
to a segregated safety department that then attempts to impose its 
oversight on the rest of the organization.
    To clarify what I mean by mainstreaming, let me tell you a story 
from my days as Chief of Naval Personnel. I was speaking to a large 
gathering of Army, Navy, Air Force, and Marine Corps military and 
civilian personnel at the Defense Equal Opportunity Management 
Institute. I startled the group by beginning with the phrase, ``I'm 
here to tell you about plans to put you out of your jobs in a few 
years!'' I explained that a worthwhile goal would be to have an 
organization that didn't need specialists to monitor, enforce, and 
remind line management to do what's right. That's mainstreaming.
    Our record of safety is the result of our making safety part of 
everything we do, day to day, not a magic formula. To achieve this 
organizational culture of safety in the mainstream, Admiral Rickover 
established certain core values in Naval Reactors that remain very 
visible today. I will discuss four of them: People, Formality and 
Discipline, Technical Excellence and Competence, and Responsibility.

PEOPLE

    Admiral Rickover has been rightly credited with being an 
outstanding engineer and a gifted manager of technical matters. His 
other genius lay in finding and developing the right people to do 
extremely demanding jobs.
    At NR, we still, and we always will, select the best people we can 
find, with the highest integrity and the willingness to accept complete 
responsibility over every aspect of nuclear-power operations. Admiral 
Rickover personally selected every member of his Headquarters staff and 
every naval officer accepted into the Program. This practice is still 
in place today, and I conduct these interviews and make the final 
decision myself.
    It doesn't end there. After we hire the best men and women, the 
training they need to be successful begins immediately. All members of 
my technical staff undergo an indoctrination course that occupies their 
first several months at Headquarters. Next, they spend two weeks at one 
of our training reactors, learning about the operation of the reactor 
and the training our Fleet sailors are undergoing. This is experience 
with an actual, operating reactor plant, not a simulation or a 
PowerPoint presentation--and it is an important experience. It gives 
them an understanding that the work they do affects the lives of the 
sailors directly, while they perform the Navy's vital national defense 
role. This helps reinforce the tenet that the components and systems we 
provide must perform when needed.
    Shortly after they return from the training reactor, they spend six 
months at one of our DOE laboratories for an intensive, graduate-level 
course in nuclear engineering. Once that course is complete, they spend 
three weeks at a nuclear-capable shipyard, observing production work 
and work controls. Finally, they return to Headquarters and are 
assigned to work in one of our various technical jobs. During the next 
six months, they attend a series of seminars, covering broad technical 
and regulatory matters, led by the most experienced members of my 
staff.
    At Headquarters, there is a continued emphasis on professional 
development as we typically provide training courses that are open to 
the entire staff each month on various topics, technical and non-
technical. In particular, we have many training sessions on lessons 
we've learned--trying to learn from mistakes that we, or others, have 
made in order to prevent similar mistakes from recurring.
    Throughout their careers, the members of my staff are continually 
exposed to the end product, spending time on the waterfront, at the 
shipyards, in the laboratories, at the vendor sites, or interacting 
directly with the Fleet. My staff audits nuclear shipyards, vendors, 
training facilities, laboratories, and the ships to validate that our 
expectations are met. In addition, we receive constant feedback from 
the Fleet by several means. When a nuclear-powered ship returns from 
deployment, my staff and I are briefed on the missions the ship 
performed and any significant issues concerning the propulsion plant. 
Additionally, I have a small cadre of Fleet-experienced, nuclear-
trained officers at Headquarters who, like me, bring operational 
expertise and perspective to the table.
    My Headquarters staff is very small, comprised of about 380 people, 
including administrative and support personnel. We are also an 
extremely ``flat'' organization. About 50 individuals report directly 
to me, including my Headquarters section heads, plus field 
representatives at shipyards, major Program vendors, and the 
laboratories. Included in this is a small section of people responsible 
for Reactor Plant Safety Analysis. In an organization where safety is 
truly mainstreamed, one might ask why we have a section for Reactor 
Plant Safety Analysis. Here's why: they provide most of the liaison 
with other safety organizations (such as the NRC) to help ensure we are 
using best practices and to champion the use of those practices within 
my staff. They also maintain the documentation of procedures and upkeep 
of the modeling codes used in our safety analysis. Last, they provide 
one last layer that our mainstreamed safety practices are in fact 
working the way they should--an independent verification that we are 
not ``normalizing'' threats to safety. Thus, they are full-time safety 
experts who provide our corporate memory of what were past problems, 
what we have to do to maintain a consistent safety approach across all 
projects, and what we need to follow in civilian reactor safety 
practices.
    Nearly all my Headquarters staff came to Naval Reactors right out 
of college. A great many of them spend their entire careers in the 
Program. For example, my section heads, the senior managers who report 
directly to me, have an average of more than 25 years of Program 
experience. It is therefore not uncommon that a junior engineer working 
on the design of a component in a new reactor plant system will be 
responsible several years later for that same system during its service 
life.
    Even though the focus of my testimony is on my Headquarters staff, 
I should also point out the importance of the Navy crews who operate 
our nuclear-powered warships. Again, I personally select the best 
people I can find and then train them constantly, giving them 
increasing challenges and responsibilities throughout their careers. My 
Headquarters staff and I oversee this training directly.

FORMALITY AND DISCIPLINE

    Engineering for the long haul demands that decisions be made in a 
formal and disciplined manner. By ``the long haul,'' I mean the cradle-
to-grave life of a project, and even an individual reactor plant. 
Before a new class of ships (which may be in service for more than 50 
years) is even put into service, we typically have already determined 
how we will perform maintenance--and refueling, if needed--and have 
considered eventual decommissioning and disposal of that ship. In the 
long life of a project, all requests and recommendations are received 
as formal correspondence. Resolution of issues is documented, as well. 
Whether we are approving a minor change to one of our technical manuals 
or resolving a major Fleet issue, the resolution will be clearly 
documented in formal correspondence.
    That correspondence must have the documented concurrence of all 
parties within the Headquarters that have a stake in the matter. There 
are formal systems in place to track open commitments and agreements or 
dissents with proposed actions. I receive a copy of every recommended 
action prior to issue, a practice initiated by Admiral Rickover in July 
1949; in fact, these recommendations are frequently discussed in detail 
and, when necessary, ``cleared'' with me prior to issue.
    The 50 individuals who report directly to me inform me regularly 
and routinely of issues in their area of responsibility. In addition, 
commanding officers of nuclear-powered warships are required to report 
to me routinely on matters pertaining to the propulsion plant.
    This organizational ``flatness'' streamlines the flow of 
information in both directions--allowing me to ensure that the guidance 
I provide reaches everyone, while ensuring that my senior leaders and I 
receive timely information vital to making the right decisions.
    In our ships and at our training reactors, we require formality and 
discipline. Detailed written procedures are in place for all aspects of 
operation. These procedures are based on over 50 years of ship 
operational experience, and they are followed to the letter, with what 
we call verbatim--but not blind--compliance. Independent auditing, 
coupled with critical self-assessments at all levels and activities, is 
virtually continuous to ensure that crews are trained and procedures 
are followed properly. We insist on forceful backup, from young sailor 
to commanding officer. We also insist that the only way to operate our 
nuclear power plants--the only way to ensure safe operation, generation 
after generation--is to embrace a system that ingrains in each operator 
a total commitment to safety: a pervasive, enduring commitment to a 
culture of safety and environmental stewardship.

TECHNICAL EXCELLENCE AND COMPETENCE

    Technical excellence and competence are required in our work. 
Nearly all of my managers are technical people with either an 
engineering or science background. My job requires me to be qualified 
by reason of technical background and experience in naval nuclear 
propulsion. I am a qualified, nuclear-trained naval officer, having 
previously served in many operational billets, including commanding 
officer of a submarine and of a submarine tender that maintains nuclear 
ships. It is crucial that the people making decisions understand the 
technology they are managing and the consequences of their decisions. 
It is also important that much of the technical expertise reside within 
the Government organization that oversees the contractor work. This 
enables the Government to be a highly informed and demanding customer 
of contractor technology and services.
    An important part of our technical effort is working on small 
problems to prevent bigger problems from occurring. The way we do this 
is to ask the hard questions on every issue: What are the facts? How do 
you know? Who is responsible? Who else knows about the issue and what 
are they doing about it? What other ships and places could be affected? 
What is the plan? When will it be done? Is this within our design, 
test, and operational experience? What are the expected outcomes? What 
is the worst that could happen? What are the dissenting opinions? When 
dealing with an issue that seems minor, these and other questions like 
them not only lead us to solving the current problem before it gets 
worse, but also help us prevent future problems.
    As we look at the many potential solutions to a given problem, we 
determine the range of technically acceptable answers first. Then we 
find out how to fit one of those solutions into our other constraints, 
specifically cost and schedule, without imposing any undue risk. If we 
need more time or more money, we ask for it. Although we pride 
ourselves as stewards of the Government's resources, we do not let 
funding or schedule concerns outweigh sound technical judgment.
    Occasionally, the decision-making process brings out dissenting 
opinions. When this occurs, my staff presents the facts from both sides 
of the issue to me directly. Before a final decision is made, every 
opinion is aired. There is never any fear of reprisal for not agreeing 
with the proposed recommendation; rather, we solicit and welcome the 
minority opinion and treat it with the same weight as the consensus 
view. If I determine there is enough information to make a decision, I 
decide. If more data are needed, we get more.
    Because things do happen--especially at sea--we rely on a multi-
layered defense against off-normal events. Our reactor designs and 
operating procedures are simple and conservative, and we build in 
redundancy to compensate for the risks involved and the operational 
environment. (For example, the pressurized water reactors are self-
regulating: the reactor is designed to protect itself during normal 
operations or casualty situations.) The systems and components are 
rugged--they must be to withstand battle shock and still perform. In 
certain key systems, there are redundant components so that if one is 
unable to function, the other can take over.

RESPONSIBILITY

    Admiral Rickover realized the importance of having total 
responsibility. He once said:

         Responsibility is a unique concept: it can only reside and 
        inhere in a single individual. You may share it with others, 
        but your portion is not diminished. You may delegate it, but it 
        is still with you. You may disclaim it, but you cannot divest 
        yourself of it. Even if you do not recognize it or admit its 
        presence, you cannot escape it. If responsibility is rightfully 
        yours, no evasion, or ignorance, or passing the blame can shift 
        the burden to someone else. Unless you can point your finger at 
        the person who is responsible when something goes wrong, then 
        you have never had anyone really responsible.

    His concept of total responsibility and ownership permeates NR at 
every level. He also realized that while the Navy designed and operated 
the ships, the Atomic Energy Commission (the forerunner of the 
Department of Energy) was responsible for the nuclear research and 
development--he would need to have authority within both activities. 
Hence, he forged a joint Navy/Atomic Energy Commission program having 
the requisite authority within each activity to carry out the cradle-
to-grave responsibility for all aspects of naval nuclear propulsion, 
including safety.

CONCLUSION

    In the aftermath of the Three Mile Island accident in 1979, Admiral 
Rickover was asked to testify before Congress in a context similar to 
my appearance before you today. In this testimony, he said:

         Over the years, many people have asked me how I run the Naval 
        Reactors Program, so that they might find some benefit for 
        their own work. I am always chagrined at the tendency of people 
        to expect that I have a simple, easy gimmick that makes my 
        program function. Any successful program functions as an 
        integrated whole of many factors. Trying to select one aspect 
        as the key one will not work. Each element depends on all the 
        others.

    I wholeheartedly agree. As I said earlier, there is no magic 
formula. Safety must be in the mainstream.
    Mr. Chairman, with your permission, I will submit a copy of Admiral 
Rickover's 1979 testimony for the record. This testimony is relevant 
because it describes many of the same key attributes and core values I 
have discussed today--demonstrating that in fact, these key elements of 
Naval Reactors are timeless and enduring. That testimony also details 
the continual training program for the nuclear-trained Fleet operators 
I mentioned earlier. I have updated the statistics on the first four 
pages to make them current and placed them in parentheses beside the 
1979 data. Also, with your permission, I will submit a copy of the 
Program's annual environmental, occupational radiation exposure, and 
occupational safety and health reports. [Note: These items are located 
in Appendix 2: Additional Material for the Record.]
    Our basic organization, responsibilities, and, most important, our 
core values have remained largely unchanged since Admiral Rickover 
founded NR. These core values that I've discussed today are the 
foundation that have allowed our nuclear-powered ships to safely steam 
more than 128 million miles, equivalent to over 5,000 trips around the 
Earth. . .without a reactor accident. . .indeed, with no measurable 
negative impact on the environment or human health.
    Thank you for allowing me to testify before you today.

                 Biography for Admiral Frank Lee Bowman
    United States Navy, Director, Naval Nuclear Propulsion

    Admiral Frank L. ``Skip'' Bowman is a native of Chattanooga, Tenn. 
He was commissioned following graduation in 1966 from Duke University. 
In 1973 he completed a dual master's program in nuclear engineering and 
naval architecture/marine engineering at the Massachusetts Institute of 
Technology and was elected to the Society of Sigma Xi. Adm. Bowman has 
been awarded the honorary degree of Doctor of Humane Letters from Duke 
University. Admiral Bowman serves on two visiting committees at MIT 
(Ocean Engineering and Nuclear Engineering), the Engineering Board of 
Visitors at Duke University, and the Nuclear Engineering Department 
Advisory Committee at the University of Tennessee.
    His early assignments included tours in USS Simon Bolivar (SSBN 
641), USS Pogy (SSN 647), USS Daniel Boone (SSBN 629), and USS 
Bremerton (SSN 698). In 1983, Adm. Bowman took command of USS City Of 
Corpus Christi (SSN 705), which completed a seven-month 
circumnavigation of the globe and two special classified missions 
during his command tour. His crew earned three consecutive Battle 
Efficiency ``E'' awards. Adm. Bowman later commanded USS Holland (AS 
32) from August 1988 to April 1990. During this period, the Holland 
crew was awarded two Battle Efficiency ``E'' awards.
    Ashore, Adm. Bowman has served on the staff of Commander, Submarine 
Squadron Fifteen, in Guam; twice in the Bureau of Naval Personnel in 
the Submarine Policy and Assignment Division; as the SSN 21 Attack 
Submarine Program Coordinator on the staff of the Chief of Naval 
Operations; on the Chief of Naval Operations' Strategic Studies Group; 
and as Executive Assistant to the Deputy Chief of Naval Operations 
(Naval Warfare). In December 1991, he was promoted to flag rank and 
assigned as Deputy Director of Operations on the Joint Staff (J-3) 
until June 1992, and then as Director for Political-Military Affairs 
(J-5) until July 1994. Adm. Bowman served as Chief of Naval Personnel 
from July 1994 to September 1996.
    Admiral Bowman assumed duties as Director, Naval Nuclear 
Propulsion, on 27 September 1996, and was promoted to his present rank 
on 1 October 1996. In this position, he is also Deputy Administrator 
for Naval Reactors in the National Nuclear Security Administration, 
Department of Energy.
    Under his command, his crews have earned the Meritorious Unit 
Commendation (three awards), the Navy Battle Efficiency ``E'' Ribbon 
(five awards), the Navy Expeditionary Medal (two awards), the 
Humanitarian Service Medal (two awards), the Sea Service Deployment 
Ribbon (three awards), and the Navy Arctic Service Ribbon. His personal 
awards include the Defense Distinguished Service Medal, the Navy 
Distinguished Service Medal, the Legion of Merit (with three gold 
stars), and the Officier de l'Ordre National du Merite from the 
Government of France.

    Chairman Boehlert. Thank you very much for some very fine 
testimony. And without objection, your statement, in its 
entirety, along with the supplemental material, will be 
included in the record. And that will hold true for the 
testimony of all of our distinguished witnesses. We want 
everything you can give us, because we--that is how we learn. 
And thank you, Admiral, and congratulations, once again, for an 
outstanding program.
    Admiral Sullivan.

 STATEMENT OF REAR ADMIRAL PAUL E. SULLIVAN, DEPUTY COMMANDER, 
  SHIP DESIGN, INTEGRATION AND ENGINEERING, NAVAL SEA SYSTEMS 
                       COMMAND, U.S. NAVY

    Rear Admiral Sullivan. Good morning, Mr. Chairman, Mr. 
Hall, Members of the Committee. I would like to thank you for 
the opportunity to testify about the Submarine Safety Program, 
which we call in the Navy, SUBSAFE.
    I serve as the Naval Sea Systems Command's Deputy Commander 
for Ship Design, Integration and Engineering. My organization 
is the authority for the technical requirements that underpin 
the SUBSAFE Program.
    Mr. Chairman, I have submitted a written statement, which 
addresses the questions you raised about the SUBSAFE Program, 
and I will summarize that statement for you now.
    On April 10, 1963, when engaged in a deep test dive, the 
USS Thresher was lost with 129 people on board. The loss of 
Thresher and her crew was a devastating event for the submarine 
community, the Navy, and the Nation.
    Shortly after that tragedy, the SUBSAFE Program was created 
in June 1963. It established submarine design requirements, 
initial submarine safety certification requirements, and 
submarine safety certification continuity requirements.
    The purpose of the SUBSAFE Program is to provide maximum 
reasonable assurance of watertight integrity and the ability of 
our submarines to recover from flooding. It is important to 
note that the SUBSAFE Program does not spread or dilute its 
focus beyond that purpose.
    The heart of the Program is a combination of work 
discipline, material control, and documentation.
    The SUBSAFE Program has been very successful, however, it 
has not been without problems. For example, in 1984 NAVSEA 
directed a thorough evaluation of the SUBSAFE Program to ensure 
that mandatory discipline had been maintained. As a result, the 
following year, in 1985, the Submarine Safety and Quality 
Assurance Division was established as an independent 
organization within NAVSEA to strengthen compliance with 
SUBSAFE requirements.
    The SUBSAFE Program continues to adapt to the ever-changing 
construction and maintenance environments as well as new and 
evolving technologies as they become used on our submarines.
    Safety is central to the culture of our entire Navy 
submarine community, including designers, builders, 
maintainers, and operators. The Navy's submarine safety culture 
is instilled through the following: first, clear, concise, non-
negotiable requirements; second, multiple, structured audits; 
and third, annual training with strong, emotional lessons 
learned from past failures.
    SUBSAFE certification is a disciplined process that lead to 
formal authorization for unrestricted operations on a 
submarine. Once a submarine is certified for unrestricted 
operation, we use three elements to maintain that 
certification. The first, the Re-entry Control Process, is used 
to control work within the SUBSAFE boundary and is the backbone 
of this certification continuity. The second, the Unrestricted 
Operation/Maintenance Requirement Program, is used to carry out 
periodic inspections and tests of critical systems, and that is 
the technical basis for continued unrestricted operations. 
Third, SUBSAFE audits are used to confirm compliance with 
SUBSAFE requirements. We use two primary types of audits. The 
first is a certification audit, and that audit examines the 
objective quality evidence, or paperwork, for an individual 
submarine to ensure that that submarine is satisfactory for 
unrestricted operations. Functional audits review the 
organizations that perform SUBSAFE work to ensure that the 
organization complies with SUBSAFE requirements.
    In addition to these formal NAVSEA audits, our field 
organizations and the Fleet are required to conduct their own 
similar internal audits. In fact, we also have the field 
activities audit the headquarters. We have some homework to do, 
for instance, from the most recent of those headquarters audits 
that was performed this summer.
    The SUBSAFE Program has a formal organizational structure, 
which has key--three key elements: first, technical authority; 
second, program management; and third, the submarine safety and 
quality assurance. Each of these elements is organizationally 
independent and has the authority to stop the certification 
process until an identified issue has been satisfactorily 
resolved.
    Our nuclear submarines require a highly competent and 
experienced technical workforce and constant vigilance to 
prevent complacency. Despite our past successes, mandated 
downsizing of our workforce has caused us to continually 
optimize our processes and to become more efficient while we 
maintain that culture of safety.
    In conclusion, let me reiterate that since the inception of 
the SUBSAFE Program in 1963, the Navy has had a disciplined 
process that provides maximum reasonable assurance that our 
submarines are safe from flooding and can recover from a 
flooding incident. We have taken the lessons learned from the 
Thresher to heart, and we have them--made them a part of our 
submarine culture.
    Thank you.
    [The prepared statement of Rear Admiral Sullivan follows:]
          Prepared Statement of Rear Admiral Paul E. Sullivan

                       NAVAL SEA SYSTEMS COMMAND

                   SUBMARINE SAFETY (SUBSAFE) PROGRAM

    Good Morning Chairman Boehlert, Ranking Member Hall and Members of 
the Committee.
    Thank you for the opportunity to testify before this committee 
about the Submarine Safety Program, which the Navy calls SUBSAFE, and 
how it operates.
    My name is RADM Paul Sullivan, USN. I serve as the Naval Sea System 
Command's Deputy Commander for Ship Design, Integration and 
Engineering, which is the authority for the technical requirements of 
the SUBSAFE Program.
    To establish perspective, I will provide a brief history of the 
SUBSAFE Program and its development. I will then give you a description 
of how the program operates and the organizational relationships that 
support it. I am also prepared to discuss our NASA/Navy benchmarking 
activities that have occurred over the past year.

SUBSAFE PROGRAM HISTORY

    On April 10, 1963, while engaged in a deep test dive, approximately 
200 miles off the northeastern coast of the United States, the USS 
THRESHER (SSN-593) was lost at sea with all persons aboard--112 naval 
personnel and 17 civilians. Launched in 1960 and the first ship of her 
class, the THRESHER was the leading edge of U.S. submarine technology, 
combining nuclear power with a modern hull design. She was fast, quiet 
and deep diving. The loss of THRESHER and her crew was a devastating 
event for the submarine community, the Navy and the Nation.
    The Navy immediately restricted all submarines in depth until an 
understanding of the circumstances surrounding the loss of the THRESHER 
could be gained.
    A Judge Advocate General (JAG) Court of Inquiry was conducted, a 
THRESHER Design Appraisal Board was established, and the Navy testified 
before the Joint Committee on Atomic Energy of the 88th Congress.
    The JAG Court of Inquiry Report contained 166 Findings of Fact, 55 
Opinions, and 19 Recommendations. The recommendations were technically 
evaluated and incorporated into the Navy's SUBSAFE, design and 
operational requirements.
    The THRESHER Design Appraisal Board reviewed the THRESHER's design 
and provided a number of recommendations for improvements.
    Navy testimony before the Joint Committee on Atomic Energy occurred 
on June 26, 27, July 23, 1963 and July 1, 1964 and is a part of the 
Congressional Record.
    While the exact cause of the THRESHER loss is not known, from the 
facts gathered during the investigations, we do know that there were 
deficient specifications, deficient shipbuilding practices, deficient 
maintenance practices, and deficient operational procedures. Here's 
what we think happened:

        <bullet>  THRESHER had about 3000 silver-brazed piping joints 
        exposed to full submergence pressure. During her last shipyard 
        maintenance period 145 of these joints were inspected on a not-
        to-delay vessel basis using a new technique called Ultrasonic 
        Testing. Fourteen percent of the joints tested showed sub-
        standard joint integrity. Extrapolating these test results to 
        the entire population of 3000 silver-brazed joints indicates 
        that possibly more than 400 joints on THRESHER could have been 
        sub-standard. One or more of these joints is believed to have 
        failed, resulting in flooding in the engine room.

        <bullet>  The crew was unable to access vital equipment to stop 
        the flooding.

        <bullet>  Saltwater spray on electrical components caused short 
        circuits, reactor shutdown, and loss of propulsion power.

        <bullet>  The main ballast tank blow system failed to operate 
        properly at test depth. We believe that various restrictions in 
        the air system coupled with excessive moisture in the system 
        led to ice formation in the blow system piping. The resulting 
        blockage caused an inadequate blow rate. Consequently, the 
        submarine was unable to overcome the increasing weight of water 
        rushing into the engine room.

    The loss of THRESHER was the genesis of the SUBSAFE Program. In 
June 1963, not quite two months after THRESHER sank, the SUBSAFE 
Program was created. The SUBSAFE Certification Criterion was issued by 
BUSHIPS letter Ser 525-0462 of 20 December 1963, formally implementing 
the Program.
    The Submarine Safety Certification Criterion provided the basic 
foundation and structure of the program that is still in place today. 
The program established:

        <bullet>  Submarine design requirements

        <bullet>  Initial SUBSAFE certification requirements with a 
        supporting process, and

        <bullet>  Certification continuity requirements with a 
        supporting process.

    Over the next 11 years the submarine safety criterion underwent 37 
changes. In 1974, these requirements and changes were codified in the 
Submarine Safety Requirements Manual (NAVSEA 0924-062-0010). This 
manual continues to be the set of formal base requirements for our 
program today. Over the years, it has been successfully applied to many 
classes of nuclear submarines and has been implemented for the 
construction of our newest VIRGINIA Class submarine.
    The SUBSAFE Program has been very successful. Between 1915 and 
1963, sixteen submarines were lost due to non-combat causes, an average 
of one every three years. Since the inception of the SUBSAFE Program in 
1963, only one submarine has been lost. USS SCORPION (SSN 589) was lost 
in May 1968 with 99 officers and men aboard. She was not a SUBSAFE 
certified submarine and the evidence indicates that she was lost for 
reasons that would not have been mitigated by the SUBSAFE Program. We 
have never lost a SUBSAFE certified submarine.
    However, SUBSAFE has not been without problems. We must constantly 
remind ourselves that it only takes a moment to fail. In 1984 NAVSEA 
directed that a thorough evaluation be conducted of the entire SUBSAFE 
Program to ensure that the mandatory discipline and attention to detail 
had been maintained. In September 1985 the Submarine Safety and Quality 
Assurance Office was established as an independent organization within 
the NAVSEA Undersea Warfare Directorate (NAVSEA 07) in a move to 
strengthen the review of and compliance with SUBSAFE requirements. 
Audits conducted by the Submarine Safety and Quality Assurance Office 
pointed out discrepancies within the SUBSAFE boundaries. Additionally, 
a number of incidents and breakdowns occurred in SUBSAFE components 
that raised concerns with the quality of SUBSAFE work. In response to 
these trends, the Chief Engineer of the Navy chartered a senior review 
group with experience in submarine research, design, fabrication, 
construction, testing and maintenance to assess the SUBSAFE program's 
implementation. In conjunction with functional audits performed by the 
Submarine Safety and Quality Assurance Office, the senior review group 
conducted an in depth review of the SUBSAFE Program at submarine 
facilities. The loss of the CHALLENGER in January 1986 added impetus to 
this effort. The results showed clearly that there was an unacceptable 
level of complacency fostered by past success; standards were beginning 
to be seen as goals vice hard requirements; and there was a generally 
lax attitude toward aspects of submarine configuration.
    The lessons learned from those reviews include:

        <bullet>  Disciplined compliance with standards and 
        requirements is mandatory.

        <bullet>  An engineering review system must be capable of 
        highlighting and thoroughly resolving technical problems and 
        issues.

        <bullet>  Well-structured and managed safety and quality 
        programs are required to ensure all elements of system safety, 
        quality and readiness are adequate to support operation.

        <bullet>  Safety and quality organizations must have sufficient 
        authority and organizational freedom without external pressure.

    The Navy continues to evaluate its SUBSAFE Program to adapt to the 
ever-changing construction and maintenance environments as well as new 
and evolving technologies being used in our submarines. Since its 
creation in 1974 the SUBSAFE Manual has undergone several changes. For 
example, the SUBSAFE boundary has been redefined based on improvements 
in submarine recovery capability and establishment of a disciplined 
material identification and control process. An example of changing 
technology is the utilization of fly-by-wire ship control technology on 
SEAWOLF and VIRGINIA class submarines. Paramount in this adaptation 
process is the premise that the requirements, which keep the SUBSAFE 
Program successful, will not be compromised. It is a daily and 
difficult task; but our program and the personnel who function within 
it are committed to it.

PURPOSE AND FOCUS

    The purpose of the SUBSAFE Program is to provide maximum reasonable 
assurance of watertight integrity and recovery capability. It is 
important to recognize that the SUBSAFE Program does not spread or 
dilute its focus beyond this purpose. Mission assurance is not a 
concern of the SUBSAFE Program, it is simply a side benefit of the 
program. Other safety programs and organizations regulate such things 
as fire safety, weapons systems safety, and nuclear reactor systems 
safety.
    Maximum reasonable assurance is achieved by certifying that each 
submarine meets submarine safety requirements upon delivery to the Navy 
and by maintaining that certification throughout the life of the 
submarine.
    We apply SUBSAFE requirements to what we call the SUBSAFE 
Certification Boundary--those structures, systems, and components 
critical to the watertight integrity and recovery capability of the 
submarine. The SUBSAFE boundary is defined in the SUBSAFE Manual and 
depicted diagrammatically in what we call SUBSAFE Certification 
Boundary Books.

SUBSAFE CULTURE

    Safety is central to the culture of our entire Navy submarine 
community, including designers, builders, maintainers, and operators. 
The SUBSAFE Program infuses the submarine Navy with safety requirements 
uniformity, clarity, focus, and accountability.
    The Navy's safety culture is embedded in the military, Civil 
Service, and contractor community through:

        <bullet>  Clear, concise, non-negotiable requirements,

        <bullet>  Multiple, structured audits that hold personnel at 
        all levels accountable for safety, and

        <bullet>  Annual training with strong, emotional lessons 
        learned from past failures.

    Together, these processes serve as powerful motivators that 
maintain the Navy's safety culture at all levels. In the submarine 
Navy, many individuals understand safety on a first-hand and personal 
basis. The Navy has had over one hundred thousand individuals that have 
been to sea in submarines. In fact, many of the submarine designers and 
senior managers at both the contractors and NAVSEA routinely are on-
board each submarine during its sea trials. In addition, the submarine 
Navy conducts annual training, revisiting major mishaps and lessons 
learned, including THRESHER and CHALLENGER.
    NAVSEA uses the THRESHER loss as the basis for annual mandatory 
training. During training, personnel watch a video on the THRESHER, 
listen to a two-minute long audio tape of a submarine's hull 
collapsing, and are reminded that people were dying as this occurred. 
These vivid reminders, posters, and other observances throughout the 
submarine community help maintain the safety focus, and it continually 
renews our safety culture. The Navy has a traditional military 
discipline and culture. The NAVSEA organization that deals with 
submarine technology also is oriented to compliance with institutional 
policy requirements. In the submarine Navy there is a uniformity of 
training, qualification requirements, education, etc., which reflects a 
single mission or product line, i.e., building and operating nuclear 
powered submarines.

SUBSAFE CERTIFICATION PROCESS

    SUBSAFE certification is a process, not just a final step. It is a 
disciplined process that brings structure to our new construction and 
maintenance programs and leads to formal authorization for unrestricted 
operations. SUBSAFE certification is applied in four areas:

        <bullet>  Design,

        <bullet>  Material,

        <bullet>  Fabrication, and

        <bullet>  Testing.

    Certification in these areas applies both to new construction and 
to maintenance throughout the life of the submarine.
    The heart of the SUBSAFE Program and its certification processes is 
a combination of Work Discipline, Material Control, and Documentation:

        <bullet>  Work discipline demands knowledge of the requirements 
        and compliance with those requirements, for everyone who 
        performs any kind of work associated with submarines. 
        Individuals have a responsibility to know if SUBSAFE impacts 
        their work.

        <bullet>  Material Control is everything involved in ensuring 
        that correct material is installed correctly, beginning with 
        contracts that purchase material, all the way through receipt 
        inspection, storage, handling, and finally installation in the 
        submarine.

        <bullet>  Documentation important to SUBSAFE certification 
        falls into two categories:

                  Selected Record Drawings and Data: Specific design 
                products are created when the submarine is designed. 
                These products consist of documents such as system 
                diagrams, SUBSAFE Mapping Drawings, Ship Systems 
                Manuals, SUBSAFE certification Boundary Books, etc. 
                They must be maintained current throughout the life of 
                the submarine to enable us to maintain SUBSAFE 
                certification.

                  Objective Quality Evidence (OQE): Specific work 
                records are created when work is performed and consist 
                of documents such as weld forms, Non-Destructive 
                Testing forms, mechanical assembly records, hydrostatic 
                and operational test forms, technical work documents in 
                which data is recorded, waivers and deviations, etc. 
                These records document the work performed and the 
                worker's signature certifying it was done per the 
                requirements. It is important to understand that 
                SUBSAFE certification is based on objective quality 
                evidence. Without objective quality evidence there is 
                no basis for certification, no matter who did the work 
                or how well it was done. Objective quality evidence 
                provides proof that deliberate steps were taken to 
                comply with requirements.

    The basic outline of the SUBSAFE certification process is as 
follows:

        <bullet>  SUBSAFE requirements are invoked in the design and 
        construction contracts for new submarines, in the work package 
        for submarines undergoing depot maintenance periods, and in the 
        Joint Fleet Maintenance Manual for operating submarines.

        <bullet>  Material procurement and fabrication, overhaul and 
        repair, installation and testing generate objective quality 
        evidence for these efforts. This objective quality evidence is 
        formally and independently reviewed and approved to assure 
        compliance with SUBSAFE requirements. The objective quality 
        evidence is then retained for the life of the submarine.

        <bullet>  Formal statements of compliance are provided by the 
        organizations performing the work and by the government 
        supervising authority responsible for the oversight of these 
        organizations. All organizations performing SUBSAFE work must 
        be evaluated, qualified and authorized in accordance with 
        NAVSEA requirements to perform this work. A Naval Supervising 
        Authority, assigned to each contractor organization, is 
        responsible to monitor and evaluate contractor performance.

        <bullet>  Audits are conducted to examine material, inspect 
        installations and review objective quality evidence for 
        compliance with SUBSAFE requirements.

        <bullet>  For new construction submarines and submarines in 
        major depot maintenance periods, the assigned NAVSEA Program 
        Manager uses a formal checklist to collect specific 
        documentation and information required for NAVSEA Headquarters 
        certification. When all documentation has been collected, 
        reviewed and approved by the Technical Authority and the 
        SUBSAFE Office, the Program Manager formally presents the 
        package to the Certifying Official for review and certification 
        for sea trials. For new construction submarines, the formal 
        presentation of the certification package is made to the 
        Program Executive Officer for Submarines, and for in-service 
        submarines completing a major depot maintenance period the 
        certification package is formally presented to the Deputy 
        Commander for Undersea Warfare. Approval by the Certifying 
        Official includes verification of full concurrence, as well as 
        discussion and resolution of dissenting opinions or concerns. 
        After successful sea trials, a second review is performed prior 
        to authorizing unrestricted operations for the submarine.

SUBSAFE CERTIFICATION MAINTENANCE

    Once a submarine is certified for unrestricted operation, there are 
two elements, in addition to audits, that we use to maintain the 
submarine in a certified condition. They are the Re-Entry Control 
Process and the Unrestricted Operation/Maintenance Requirement Card 
(URO/MRC) Program.
    Re-entry Control is used to control work within the SUBSAFE 
Certification Boundary. It is the backbone of certification maintenance 
and continuity. It provides an identifiable, accountable and auditable 
record of work performed within the SUBSAFE boundary. The purpose is to 
provide positive assurance that all SUBSAFE systems and components are 
restored to a fully certified condition. Re-entry control procedures 
help us maintain work discipline by identifying the work to be 
performed and the standards to be met. Re-entry control establishes 
personal accountability because the personnel authorizing, performing 
and certifying the work and testing must sign their names on the re-
entry control documentation. It is the process we use to collect the 
OQE that supports certification.
    The Unrestricted Operation/Maintenance Requirement Card (URO/MRC) 
Program facilitates planned periodic inspections and tests of critical 
equipment, systems, and structure to ensure that they have not degraded 
to an unacceptable level due to use, age, or environment. The URO/MRC 
Program provides the technical basis for authorizing continued 
unrestricted operations of Navy submarines. The responsibility to 
complete URO/MRC inspections is divided among multiple organizations. 
Some inspections can only be completed by a shipyard during a 
maintenance period. Other inspections are the responsibility of an 
Intermediate Maintenance Activity or Ships Force. NAVSEA manages the 
program by tracking performance to ensure that periodicity requirements 
are not violated, inspections are not missed, and results meet invoked 
technical requirements.

AUDITS

    A key element of certification and certification maintenance is the 
audit program. The audit program was established in 1963. During 
testimony before Congress Admiral Curtze stated: ``To ensure the 
adequacy of the application of the quality assurance programs in 
shipyards a system of audits has been established.. . .'' This system 
of audits is still in place today. There are two primary types of 
audits: Certification Audits and Functional Audits.
    In a SUBSAFE CERTIFICATION Audit we look at the Objective Quality 
Evidence associated with an individual submarine to ensure that the 
material condition of that submarine is satisfactory for sea trials and 
unrestricted operations. These audits are performed at the completion 
of new construction and at the end of major depot maintenance periods. 
They cover a planned sample of specific aspects of all SUBSAFE work 
performed, including inspection of a sample of installed equipment. The 
results and resolution of deficiencies identified during such audits 
become one element of final NAVSEA approval for sea trials and 
subsequent unrestricted operations.
    In a SUBSAFE FUNCTIONAL Audit we periodically review the policies, 
procedures, and practices used by each organization, including 
contractors, that performs SUBSAFE work, to ensure that those policies, 
procedures and practices comply with SUBSAFE requirements, are healthy, 
and are capable of producing certifiable hardware or design products. 
This audit also includes surveillance of actual work in progress. 
Organizations audited include public and private shipyards, engineering 
offices, the Fleet, and NAVSEA headquarters.
    In addition to the audits performed by NAVSEA, our shipyards, field 
organizations and the Fleet are required to conduct internal (or self) 
audits of their policies, procedures, and practices and of the work 
they perform.

SUBSAFE ORGANIZATIONAL RELATIONSHIPS

    The SUBSAFE Program maintains a formal organizational structure 
with clear delineation of responsibilities in the SUBSAFE Requirements 
Manual. Ultimately, the purpose of the SUBSAFE Organization is to 
support the Fleet. We strongly believe that our sailors must be able to 
go to sea with full confidence in the safety of their submarine. Only 
then will they be able to focus fully on their task of operating the 
submarine and carrying out assigned operations successfully.
    There are three key elements in our Headquarters organization: 
Technical Authority, Program Management and Submarine Safety and 
Quality Assurance. Each of these elements is organizationally 
independent and has specifically defined roles in the SUBSAFE Program.
    NAVSEA Technical Authority provides technical direction and 
assistance to Program Managers and the Fleet. In our terms, Technical 
Authority is the authority, responsibility and accountability to 
establish, monitor and approve technical products and policy in 
conformance to higher tier policy and requirements. Technical 
authorities are warranted (formally given authority) within NAVSEA and 
our field organizations. Technical warrant holders are subject matter 
experts. Within the defined technical area warranted, they are 
responsible for establishing technical standards, entrusted and 
empowered to make authoritative decisions, and held accountable for the 
technical decisions made. Where technical products are not in 
conformance with technical policy, standards and requirements, warrant 
holders are responsible to identify associated risks and approve non-
conformances (waivers or deviations) in a manner that ensures risks are 
acceptable. NAVSEA is accustomed to evaluating risk; however, non-
conformances are treated as an exception vice the norm. Full discussion 
of technical issues is required before making decisions. Discussions 
and decisions are coordinated with the Program Management and Submarine 
Safety and Quality Assurance Offices. However, NAVSEA 05, Ship Design, 
Integration and Engineering, is the final authority for the technical 
requirements of the SUBSAFE Program.

        <bullet>  Within the Undersea Warfare Directorate (NAVSEA 07) 
        the Director, Submarine Hull, Mechanical and Electrical 
        Engineering Management Division (NAVSEA 07T) is the warranted 
        technical authority and provides system engineering and support 
        for submarine technical SUBSAFE issues.

    Submarine Program Managers manage all aspects of assigned submarine 
programs in construction, maintenance and modernization, including 
oversight of cost, schedule, performance and direction of life cycle 
management. They are responsible and accountable to ensure compliance 
with the requirements of the SUBSAFE Program and with technical policy 
and standards established by the technical authority.
    The Submarine Safety and Quality Assurance Office (NAVSEA 07Q) 
manages the SUBSAFE program and audits organizations performing SUBSAFE 
work to ensure compliance with SUBSAFE requirements. NAVSEA 07Q is the 
primary point of contact within NAVSEA Headquarters in all matters 
relating to SUBSAFE Program policy and requirements.
    In addition, several groups and committees have been formally 
constituted to provide oversight of and guidance to the SUBSAFE Program 
and to provide a forum to evaluate and make changes to the program:

        <bullet>  The SUBSAFE Oversight Committee (SSOC) provides 
        independent command level oversight to ensure objectives of the 
        SUBSAFE Program are met. Members are of Flag rank and represent 
        NAVSEA Directorates (SEA 09, PEO-SUB, SEA 05, SEA 04, SEA 07) 
        and the Navy Inventory Control Point.

        <bullet>  The SUBSAFE Steering Task Group (SSSTG) was 
        established based on results of the THRESHER investigation to 
        ensure adequate provision of safety features in current and 
        future submarine construction, conversion, and major depot 
        availability programs. The SSSTG defines the scope of the 
        SUBSAFE Program, reviews program progress and approves or 
        disapproves proposed policy changes. Members include Admirals, 
        Senior Executive Service members and other senior civilian 
        managers with direct SUBSAFE and technical responsibilities, as 
        well as the Submarine Program Managers.

        <bullet>  The SUBSAFE Working Group (SSWG) consists of SUBSAFE 
        Program Directors from Headquarters, shipyards, field 
        organizations, and the Fleet. The Working Group meets formally 
        twice a year to provide a forum to discuss and evaluate SUBSAFE 
        Program progress, implementation and proposals for improvement. 
        SUBSAFE Program Directors are the focal point for SUBSAFE 
        matters and are responsible and accountable for implementation 
        and proper execution of the SUBSAFE Program within their 
        respective organizations. They maintain close liaison with 
        NAVSEA 07Q to present or obtain information relative to SUBSAFE 
        issues.

SUBSAFE CERTIFICATION RELATIONSHIPS

    As described earlier in this testimony, each NAVSEA organization is 
assigned separate responsibility and authority for SUBSAFE Program 
requirements and compliance. Our technical authority managers are 
empowered and accountable to make disciplined technical decisions. They 
are formally given the authority, responsibility and accountability to 
establish, monitor and approve technical products and policy. The 
Submarine Program Managers are responsible for executing the SUBSAFE 
Program for assigned submarines in new construction and major depot 
availabilities. They have the authority, responsibility and 
accountability to ensure compliance with technical policy and standards 
established by cognizant technical authority. NAVSEA 07Q, Submarine 
Safety and Quality Assurance Office, is responsible and accountable for 
implementation and management of the SUBSAFE Program and for ensuring 
compliance with SUBSAFE Program requirements.
    The ultimate certification authority is the Program Executive 
Officer for Submarines (PEO SUB) for new construction and the Deputy 
Commander for Undersea Warfare (NAVSEA 07) for major depot 
availabilities. The Program manager, with the concurrence of and in the 
presence of the technical authority representative (NAVSEA 07T) and the 
SUBSAFE office (NAVSEA 07Q), presents the certification package with 
which he attests that the SUBSAFE material condition of the submarine 
is satisfactory for sea trials or for unrestricted operation. Each of 
the participants has the authority to stop the certification process 
until an identified issue is satisfactorily resolved.

NAVSEA PERSONNEL

    Our nuclear submarines are among the most complex weapon systems 
ever built. They require a highly competent and experienced technical 
workforce to accomplish their design, construction, maintenance and 
operation. In order for NAVSEA to continue to provide the best 
technical support to all aspects of our submarine programs, we are 
challenged to recruit and maintain a technically qualified workforce. 
In 1998, faced with downsizing and an aging workforce, NAVSEA initiated 
several actions to ensure we could meet current and future challenges. 
We refocused on our core competencies, defined new engineering 
categories and career paths, and obtained approval to infuse our 
engineering skill sets with young engineers to provide for a systematic 
transition of our workforce. We hired over 1000 engineers with a net 
gain of 300. This approach allowed our experienced engineers to train 
and mentor young engineers and help NAVSEA sustain our core 
competencies. Despite this limited success, mandated downsizing has 
continued to challenge us. I remain concerned about our ability, in the 
near future, to provide adequate technical support to, and quality 
overview of our submarine construction and maintenance programs.

NASA/NAVY BENCHMARKING EXCHANGE (NNBE)

    The NASA/NAVY Benchmarking Exchange effort began activities in 
August 2002 and is ongoing. The NNBE was undertaken to identify 
practices and procedures and to share lessons learned in the Navy's 
submarine and NASA's human space flight programs. The focus is on 
safety and mission assurance policies, processes, accountability, and 
control measures. To date, nearly all of this effort has involved the 
Navy describing our organization, processes and practices to NASA. The 
NNBE Interim report was completed December 20, 2002.
    Phase-2 was initiated in January 2003 with 40 NAVSEA personnel 
spending a week at the Kennedy Space Center (January 13-17) being 
briefed on a wide array of topics related to the manufacturing, 
processing, and launch of the Space Shuttle with emphasis on safety, 
compliance verification, and safety certification processes. A follow-
up trip to Kennedy Space Center and a trip to Johnson Space Center were 
scheduled for early February 2003. After loss of Columbia, the NAVSEA 
benchmarking of NASA activity was placed on hold until October when 18 
NAVSEA software experts were hosted by their NASA counterparts for a 
week of meetings at Kennedy Space Center and Johnson Space Center. It 
should also be noted that Naval Reactors hosted 45 senior NASA managers 
for a ``Challenger Launch Decision'' training seminar at the Washington 
Naval Yard on May 15.
    Three Memoranda of Agreement (MOA) have been developed to formalize 
NASA/NAVSEA ongoing collaboration. The first, recently signed, 
establishes a sharing of data related to contractor and supplier 
quality and performance. The second MOA, in final preparation, 
establishes the basis for reciprocal participation in functional 
audits. The third MOA, also in final preparation, will establish 
reciprocal participation in engineering investigations and analyses.
    In conclusion, let me reiterate that since the inception of the 
SUBSAFE Program in 1963, the Navy has had a disciplined process that 
provides MAXIMUM reasonable assurance that our submarines are safe from 
flooding and can recover from a flooding incident. In 1988, at a 
ceremony commemorating the 25th anniversary of the loss of THRESHER, 
the Navy's ranking submarine officer, Admiral Bruce Demars, said: ``The 
loss of THRESHER initiated fundamental changes in the way we do 
business, changes in design, construction, inspections, safety checks, 
tests and more. We have not forgotten the lesson learned. It's a much 
safer submarine force today.''

              Biography for Rear Admiral Paul E. Sullivan
    United States Navy, Deputy Commander for Ship Design Integration 
and Engineering, Naval Sea Systems Command

    Rear Admiral Sullivan is a native of Chatham, N.J. He graduated 
from the U.S. Naval Academy in 1974 with a Bachelor of Science Degree 
in Mathematics.
    Following graduation, Rear Adm. Sullivan served aboard USS Detector 
(MSO 429) from 1974 to 1977, where he earned his Surface Warfare 
Qualification.
    Rear Adm. Sullivan then attended the Massachusetts Institute of 
Technology (MIT), where he graduated in 1980 with dual degrees of 
Master of Science (Naval Architecture and Marine Engineering) and Ocean 
Engineer. While at MIT, he transferred to the Engineering Duty Officer 
Community.
    Rear Adm. Sullivan's Engineering Duty Officer tours prior to 
command include Ship Superintendent, Docking Officer, Assistant Repair 
Officer and Assistant Design Superintendent at Norfolk Naval Shipyard, 
where he completed his Engineering Duty Officer qualification; Deputy 
Ship Design Manager for the Seawolf class submarine at Naval Sea 
Systems Command (NAVSEA), where he completed his submarine 
qualification program; Associate Professor of Naval Architecture at 
MIT; Ohio (SSBN 726) Class Project Officer and Los Angeles (SSN 688) 
Class Project Officer at Supervisor of Shipbuilding, Groton, Conn.; 
Team Leader for Cost, Producibility, and Cost and Operational 
Effectiveness Assessment (COEA) studies for the New Attack Submarine at 
NAVSEA; and the Director for Submarine Programs on the staff of the 
Assistant Secretary of the Navy (Research, Development and 
Acquisition).
    Rear Adm. Sullivan served as Program Manager for the Seawolf Class 
Submarine Program (PMS 350) 1995 to 1998. During his tenure, the 
Seawolf design was completed, and the lead ship of the class was 
completed, tested at sea, and delivered to the Navy.
    In September 1998, Rear Adm. Sullivan relieved as Program Manager 
for the Virginia Class Submarine Program (PMS 450). During his tour the 
contract for the Virginia Class Submarine Program was signed, 
construction was initiated on the first four submarines, and most of 
the Virginia design was completed. In September 2001 he reported to his 
current assignment as Deputy Commander for Ship Design Integration and 
Engineering, Naval Sea Systems Command. Rear Adm. Sullivan's awards 
include the Legion of Merit (two awards), the Meritorious Service Medal 
(four awards), the Navy Commendation Medal (two awards) and the Navy 
Achievement Medal.

    Chairman Boehlert. Thank you very much, Admiral Sullivan.
    Mr. Johnson.

 STATEMENT OF MR. RAY F. JOHNSON, VICE PRESIDENT, SPACE LAUNCH 
             OPERATIONS, THE AEROSPACE CORPORATION

    Mr. Johnson. Thank you. Mr. Chairman, distinguished 
Committee Members, and staff, I am pleased to have the 
opportunity to describe the capabilities of The Aerospace 
Corporation as they relate to organizational and management 
``best practices'' of successful safety and mission assurance 
programs.
    I will discuss the Committee's questions as outlined in the 
invitation letter, but first, I would like to present an 
overview of Aerospace and specifically what we do for the Air 
Force in the area of launch readiness verification.
    The Aerospace Corporation is a private, non-profit, 
California corporation that was created in 1960 at the 
recommendation of Congress to provide research, development, 
and advisory services to the U.S. Government in the planning 
and acquisition of space, launch, and ground systems and their 
related technologies.
    As its primary activity, Aerospace operates a Federally 
Funded Research and Development Center, or FFRDC, sponsored by 
the Undersecretary of the Air Force and managed by the Space 
and Missile Systems Center, or SMC, in El Segundo, California. 
Our principal tasks are systems planning, systems engineering, 
integration, flight readiness verification, operations support, 
and anomaly resolution for DOD, Air Force, and National 
Security Space systems. Independent launch verification is a 
core competency of Aerospace, as defined in its charter. As 
such, Aerospace is directly accountable to SMC for the 
verification of launch readiness. The verification begins as 
early as the concept and requirement definition phase of most 
programs and continues through flight operations. This 
assessment includes things such as design, qualification, 
fabrication, acceptance, software, mission analysis, 
integration, and test.
    Prior to any launch, Aerospace provides a letter to SMC 
documenting the results of the launch verification process, 
confirming the flight readiness of the launch vehicle. This 
letter is not just a formality but represents the culmination 
of a long and rigorous assessment that draws upon the 
collective expertise of scientists and engineers within the 
program office and engineering staff.
    Now I will address the Committee's specific questions. The 
first question: ``What does it mean for a safety program to be 
``independent''? How is your organization structured to ensure 
its independence?''
    The Government's requirement for the Aerospace FFRDC 
mission requires complete objectivity and freedom from conflict 
of interest; a highly expert staff, full access to all space 
programs and contractor data sources; special simulation, 
computational, laboratory, and diagnostic facilities; and 
continuity of effort that involves detailed familiarity with 
the sponsor's programs, past experience, and future needs.
    Although the Aerospace program offices are co-located with 
the Air Force programs, they are separate organizations with 
their own management structure. Technical recommendations are 
worked up through Aerospace management and are then presented 
to the Air Force.
    The second question was: ``Given that more can always be 
done to improve safety, how can you ensure that your safety 
program is independent and vigilant, and that it won't prevent 
the larger organization from carrying out its duties?''
    Aerospace recognizes its obligation to identify issues in a 
timely manner and to keep the Air Force aware of any technical 
issues that may impact the overall program. The launch 
verification process is involved with all phases of the program 
and is not merely a final assessment that is done just prior to 
launch. While our technical rigor can identify otherwise 
unobserved risks, the entire team must work together to allow 
the larger organization to carry out its duties to achieve 
flight worthiness certification and a successful mission.
    The third question was: ``How do you ensure that the 
existence of Aerospace's mission assurance program and 
independent launch verification process does not allow the 
larger organization that it serves to feel that it is absolved 
of its responsibility for safety?''
    Final flight worthiness certification is the responsibility 
of the SMC Commander. At the final flight readiness review, the 
Commander receives input from several organizations prior to 
giving the GO to proceed with launch processing. The Commander 
receives inputs from the Air Force Mission Director, the launch 
vehicle program managers, the launch ranges, the SMC Chief 
Engineer, prime contractors, the spacecraft program managers, 
The Aerospace Corporation, and also his Independent Readiness 
Review Team.
    Aerospace is directly accountable to SMC for the 
verification of launch readiness. The ultimate GO/NO-GO launch 
decision rests with the SMC Commander, not Aerospace. However, 
the Air Force relies heavily on our readiness assessment in 
building confidence in the final decision.
    And the final question is: ``How do you ensure that 
dissenting opinions are offered without creating a process that 
can never reach closure?''
    The verification process includes all stakeholders at major 
decision points and milestones. Individuals with dissenting 
opinion are heard and we make every effort to assure our 
positions are based on sound engineering practices backed up by 
factual data. Management encourages the sharing of all points 
of view and has the responsibility for ultimately deciding on a 
final recommendation. When a pure technical solution is not 
possible, the Air Force is provided with a risk assessment that 
outlines the degree of risk associated with each course of 
action.
    In closing, our success depends largely on the close, 
intimate relationship we have with our government customers. We 
are physically integrated and programmatically aligned with our 
customers. It is this totally integrated approach that allows 
Aerospace to use its technical and scientific skills in support 
of the National Security Space Program.
    Thank you for the opportunity to describe The Aerospace 
Corporation, its launch verification program, and contributions 
to mission success.
    I stand ready to provide any further data or discussions 
that the Committee may require.
    Thank you.
    [The prepared statement of Mr. Johnson follows:]

                  Prepared Statement of Ray F. Johnson

Mr. Chairman, distinguished Committee Members and Staff:

    I am pleased to have the opportunity to describe the capabilities 
of The Aerospace Corporation as they relate to organizational and 
management ``best practices'' of successful safety and mission 
assurance programs. Aerospace is truly a unique organization. Our 
capabilities, core competencies and practices are the result of 43 
years of operating a Federally Funded Research and Development Center 
(FFRDC) for the National Security Space program.
    I will discuss the committee's questions as outlined in the 
invitation letter, but first I would like to present an overview of 
Aerospace and specifically what we do for the Air Force in the area of 
launch readiness verification.

The nature and value of The Aerospace Corporation

    The Aerospace Corporation is a private, nonprofit corporation, 
headquartered in El Segundo, California. It was created in 1960 at the 
recommendation of Congress and the Secretary of the Air Force to 
provide research, development and advisory services to the U.S. 
government in the planning and acquisition of space, launch and ground 
systems and their related technologies. The key features of Aerospace 
are that we provide a stable, objective, expert source of engineering 
analysis and advice to the government, free from organizational 
conflict of interest. We are focused on the government's best 
interests, with no profit motive or predilection for any particular 
design or technical solution.
    As its primary activity, Aerospace operates an FFRDC sponsored by 
the Under Secretary of the Air Force, and managed by the Space and 
Missile Systems Center (SMC) in El Segundo, California. Our principal 
tasks are systems planning, systems engineering, integration, flight 
readiness verification, operations support and anomaly resolution for 
the DOD, Air Force, and National Security Space systems. Through our 
comprehensive knowledge of space systems and our sponsor's needs, our 
breadth of staff expertise, and our long term, stable relationship with 
the DOD, we are able to integrate technical lessons learned across all 
military space programs and develop systems-of-systems architectures 
that integrate the functions of many separate space and ground systems.
    Aerospace does not compete with industry for government contracts, 
and we do not manufacture products. The government relies on Aerospace 
for objective development of pre-competitive system specifications, and 
impartial evaluation of competing concepts and engineering hardware 
developments, to ensure that government procurements can meet the 
military user's needs in a cost-and-performance-effective manner.
    Aerospace employs about 3,450 people, of whom 2,400 are scientists 
and engineers with expertise in all aspects of space systems 
engineering and technology. The professional staff includes a large 
majority, 74 percent, with advanced degrees, with 29 percent holding 
Ph.D.s. The average experience of Members of the Technical Staff (MTS) 
is more than 25 years. We recruit more than two-thirds of our technical 
staff from experienced industry sources and the rest from new 
graduates, university staff, other nonprofit organizations, government 
agencies, and internal degree programs.
    Aerospace has maintained a 43-year strategic partnership with the 
DOD and the National Security Space community, developing a data and 
experience base that covers virtually every military space program 
since 1960. We have evolved an unparalleled set of engineering design, 
analysis and systems simulation tools, along with computational, 
diagnostic test, and research facilities in critical space-specific 
disciplines that are used in day-to-day support of government space 
system programs.
    Aerospace is the government's integral engineering arm for National 
Security Space systems architecture and engineering. As such, Aerospace 
has broad access to intelligence information, government requirements 
development, all programs and contractors' proprietary data and 
processes, and the full scope of government program planning 
information. We translate the requirements dictated by Congress and the 
military and national security management into engineering 
specifications that form the basis for competitive Request for 
Proposals (RFPs) to industry. We evaluate contractor technical designs 
and performance, and provide continuing technical insight and progress 
assessment for the government program manager throughout the 
engineering development, test and initial operation phases of space 
systems. In order to do this, Aerospace must have technical experience 
and breadth at least equal to the industrial firms we evaluate. I am 
extremely proud of the quality and performance record of our staff, as 
evidenced by the outstanding success record of the space launches and 
satellite systems Aerospace has technically supported on behalf of its 
government sponsors.
    The Aerospace technical program office MTS are supported by a 
matrix of 1,000 engineering and scientific specialists in every 
discipline relevant to space systems, with extensive laboratory and 
diagnostic facilities. Typically, an expert in a particular field--
propulsion, microelectronics, or infrared sensors, for example--will 
work on several programs during the course of a year, as each program 
has a need for a particular skill depending on its program phase. This 
approach permits Aerospace to develop and maintain state-of-the-art 
analytical and simulation models and test facilities that could not be 
afforded by a single program or contractor, but are efficiently used as 
needed by all programs.
    Aerospace systems engineering currently supports 29 satellite 
programs, 8 launch vehicle boosters, and 13 ground station elements for 
the DOD and National Security customers. Our functions can be 
summarized as follows, covering the entire system acquisition process:

        <bullet>  planning and systems studies--pre-competitive systems 
        definition

        <bullet>  trade-offs and simulations of system requirements to 
        help prioritize user needs

        <bullet>  technical RFPs and technical evaluation of proposals

        <bullet>  early detection of development problems and timely 
        identification of alternative solutions, to preserve schedule, 
        cost and performance

        <bullet>  independent analysis, verification, and validation of 
        data and performance to assure mission success

        <bullet>  launch verification and readiness assessments 
        (boosters, satellites and ground systems)

        <bullet>  launch and on-orbit operations and work-arounds

Aerospace's launch readiness verification process

    Independent launch readiness verification is a core competency of 
Aerospace as defined in our charter as an FFRDC supporting the Air 
Force. As such, Aerospace is directly accountable to SMC for 
verification of launch readiness. This responsibility is vested within 
the Space Launch Operations program offices and executed using our 
launch readiness verification process.
    Prior to any launch, Aerospace provides a letter to SMC documenting 
the results of the launch verification process, confirming flight 
readiness of the launch vehicle. This letter is not just a formality, 
but represents the culmination of a long and rigorous assessment that 
draws upon the collective expertise of scientists and engineers within 
the program office and the engineering staff. The launch readiness 
verification letter provided by the Aerospace Vice President of Space 
Launch Operations to the Air Force was first introduced in the late 
1970s to document our corporate commitment to mission success. This 
formal launch readiness verification provides assurance that all known 
technical issues have been assessed and resolved, residual launch risks 
have been satisfactorily assessed, and establishes confidence in launch 
mission success. The ultimate GO/NO-GO launch decision and flight 
worthiness certification rests with SMC, not Aerospace, however, the 
Air Force relies heavily on our readiness assessment in building 
confidence in its final decision.
    The process used to independently determine launch system flight 
readiness is a capability that has evolved over 40 years. Aerospace's 
role in independent launch readiness verification began with the 
Mercury-Atlas program in 1960, shortly after the corporation was 
founded. The Project Mercury launch vehicle had suffered two failures 
and a turnaround in reliability was required before human space flight 
could be attempted. The risk reduction techniques that Aerospace 
developed were instrumental in achieving mission success. Since then, 
we have applied this process to the design, development, and operation 
of more than 600 launches including all Atlas, Delta, Inertial Upper 
Stage, and Titan launch vehicle variants resulting in a proven track 
record of reducing launch risk.
    The fundamental features of our launch readiness verification have 
been the same since first employed. Verification begins as early as the 
concept and requirements definition phase of most programs and 
continues through flight operations. Launch verification certification 
and readiness assessments include design, qualification, fabrication, 
acceptance, software, mission analysis, integration and test. Thorough 
launch readiness verification requires a detailed review by Aerospace 
staff of thousands of components, procedures, and test reports to 
verify flight readiness. Independent models are developed and 
maintained by Aerospace domain experts and exercised to validate and 
verify the contractors' results. Resident Aerospace engineers are 
involved in all aspects of the launch campaign from manufacture through 
launch site operations. Launch readiness verification is a closed loop 
process via post flight analyses that use the independent analytical 
tools and independently acquired and processed flight telemetry data to 
provide feedback into the engineering design process, capture lessons 
learned, monitor trends, and establish a basis for proceeding into the 
next launch cycle.
    To accomplish the entire spectrum of launch readiness verification 
requires that Aerospace retain a diverse cadre of skilled engineers 
with expertise in a wide variety of disciplines including systems 
engineering, mission integration, structures and mechanics, structural 
dynamics, guidance and control, power and electrical, avionics, 
telemetry, safety, flight mechanics, environmental testing, computers, 
software, product assurance, propulsion, fluid mechanics, aerodynamics, 
thermal, ground systems, facilities and operations. Our major objective 
is to retain the necessary skills and expertise needed to support 
planned as well as unexpected events.
    The launch readiness verification process was reinvigorated in the 
late 1990s following a series of launch failures. Among the 
observations of the Space Launch Broad Area Review were that the root 
cause was the lack of disciplined system engineering in the design and 
processing of launch vehicles exacerbated by a premature dismantling of 
government oversight capability, particularly the engineering support 
capabilities; that space launch needed to re-establish clear lines of 
authority and accountability; that space launch is inherently more 
engineering intensive than other operational systems; and that properly 
conducted independent review is an essential element of mission 
success.
    Now, I will address the committee's specific questions:

1.  What does it mean for a safety program to be ``independent?'' How 
is your organization structured to ensure its independence?

    The government's requirement for the Aerospace FFRDC mission 
requires complete objectivity and freedom from conflict of interest; a 
highly expert staff; full access to all space programs and contractor 
data sources; special simulation, computational, laboratory and 
diagnostic facilities; and continuity of effort that involves detailed 
familiarity with the sponsor's programs, past experience, and future 
needs. We are focused on the government's best interests, with no 
profit motive or predilection for any particular design or technical 
solution.
    Although the Aerospace program offices are co-located with the Air 
Force programs, they are separate organizations with their own 
management structure. Technical recommendations are worked up through 
Aerospace management and are then presented to the Air Force. In 
addition to the launch verification letter, a formal launch readiness 
briefing is given to the Aerospace president. At this review, our 
president confirms that our technical analyses are thorough and 
objective, and our recommendations are based on sound engineering 
principles. Although the Aerospace launch readiness verification 
products are produced independently from those of the prime contractor, 
we also employ another independent review organization that reports to 
the SMC Commander. This independent review team also briefs our 
president on its findings to ensure that our process has yielded 
acceptable risks. This review is conducted just prior to the SMC 
Commander's Flight Readiness Review (FRR). The Aerospace president is 
polled during the Commander's FRR for his concurrence to proceed with 
final launch processing.

2.  Given that more can always be done to improve safety, how do you 
ensure that your safety program is independent and vigilant, but that 
it won't prevent the larger organization from carrying out its duties?

    The key elements here are teamwork, technical rigor, and a goal for 
100 percent mission success. Aerospace program offices are co-located 
with the Air Force programs and Aerospace engineers are in daily 
contact with their Air Force counterparts. Aerospace recognizes our 
obligation to identify issues in a timely manner and to keep the Air 
Force aware of any technical issues that may impact the overall 
program. The launch readiness verification process is involved with all 
phases of the program and is not merely a final assessment that is 
performed just prior to launch. The failures of 1998 and 1999 were in 
part due to ineffective teamwork. All successes since then can be 
attributed to a complete team effort among Aerospace, the Air Force, 
and the contractors. All team members understand and respect the value 
of the individual responsibilities and contributions. While vigilance 
and independence can identify otherwise unobserved risks, the entire 
team must work together to allow the larger organization to carry out 
its duties to achieve flight worthiness certification and a successful 
mission.
    Just as important as teamwork is the technical rigor employed in 
the process to reach certification. We employ a well-defined launch 
readiness verification process with individual responsibilities and 
accountability. The burden of proof requires a positive demonstration 
that a system is flight-worthy, rather than proving that an anomalous 
condition will cause a flight failure. The launch readiness 
verification process is part of an overarching flight readiness 
process. Many unforeseen events occur during each launch campaign that 
must be acted upon. The process rigor that we employ assures that no 
single event or issue is overlooked or prematurely closed. With 100% 
focus on mission success, the technical rigor and commitment by each 
team member enhances the larger organization decision process.

3.  How do you ensure that the existence of Aerospace's mission 
assurance program and independent launch verification process does not 
allow the larger organization that it serves to feel that it is 
absolved of responsibility for safety?

    Final flight worthiness certification is the responsibility of the 
SMC Commander. At the final FRR, the Commander receives input from 
several organizations prior to giving the GO to proceed with launch 
processing. The Commander receives input from the Air Force Mission 
Director, launch vehicle program managers, launch ranges, SMC Chief 
Engineer, prime contractors, spacecraft program managers, Aerospace, 
and the Independent Readiness Review Team (IRRT).
    Aerospace is directly accountable to SMC for the verification of 
launch readiness. Our task is to independently confirm readiness of the 
launch vehicle, assess mission risks, and assure that all risks are 
acceptably low to enter into launch. The ultimate GO/NO-GO launch 
decision rests with the SMC Commander, not Aerospace; however, the Air 
Force relies heavily on our readiness assessment in building confidence 
in the final decision.

4.  How do you ensure that dissenting opinions are offered without 
creating a process that can never reach closure?

    The verification process includes all stakeholders at major 
decision points and milestones. Dissenting opinions are heard and data 
is required to resolve engineering issues. Aerospace makes every effort 
to ensure that our positions are based on sound engineering practices 
backed up by factual data. Aerospace's engineering staff objectively 
develops their technical recommendations and supporting analyses that 
are then coordinated with the Aerospace program offices and management. 
Management encourages the sharing of all points of view and is 
responsible for ultimately deciding on a final recommendation. When an 
issue is well founded in science and engineering, the path forward is 
usually identifiable, e.g., additional inspections, tests, analyses, 
etc. For issues that do not have concrete solutions, risks are assessed 
by senior review teams based on technical data. When a ``pure'' 
technical solution is not possible, the Air Force is provided with a 
risk assessment that outlines the degree of risk associated with each 
course of action.
    As I mentioned previously, the independent launch readiness 
verification end-to-end system review process culminates in a launch 
readiness assessment for each mission. A formal flight readiness 
certification provides assurance that all known technical issues have 
been assessed and resolved, residual launch risks have been 
satisfactorily assessed and confidence in launch mission success has 
been established as acceptable. It is this process, as outlined in the 
following figure, that ensures acceptable closure of every issue.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I would like to leave you with some concluding summary thoughts:

        <bullet>  Aerospace is focused on the success of its sponsor's 
        mission

        <bullet>  Aerospace is the integral space systems engineering 
        arm of the Air Force and National Security Space program

        <bullet>  The key to Aerospace's value and effectiveness is our 
        process of systems engineering:

                --  stable, objective, expert advice backed by analysis 
                and experiment

                --  a trusted partner with our sponsors and industry

                --  breadth and depth of staff in all space disciplines

                --  access to sensitive planning and proprietary data

                --  continuity across all space programs and 
                technologies

                --  co-location with the government customer

    In closing, our success depends largely on the close, intimate 
relationship we have with our government customers. We are physically 
integrated and programmatically aligned with our customers. It is this 
totally integrated approach that allows Aerospace to use its technical 
and scientific skills in support of the National Security Space 
program.
    Thank you for the opportunity to describe The Aerospace 
Corporation, its Launch Readiness Verification program, and 
contribution to mission success.
    I stand ready to provide any further data or discussions that the 
Committee may require.

                      Biography for Ray F. Johnson

    Ray F. Johnson is Vice President of Space Launch Operations, Space 
Systems Group. He assumed this position on April 1, 2001.
    Johnson is responsible for Aerospace support to all Air Force 
launch programs including Titan II, Titan IV, Delta II, Atlas II, upper 
stages and the Evolved Expendable Launch Vehicle (EELV), as well as the 
Air Force Space Test Program. He has responsibility for the company's 
launch operations at Cape Canaveral, Florida, and Vandenberg Air Force 
Base, California, and operations in support of the Space Test Program 
at Kirtland Air Force Base, New Mexico.
    Johnson joined Aerospace in 1987 as a project engineer in the Titan 
program office. He was promoted to manager of the Liquid Propulsion 
section in 1988. He was director of the Centaur Directorate within the 
Titan program office from 1990 to 1993 and was responsible for 
Aerospace's support in developing the Centaur upper stage for use on 
the Titan IV launch vehicle.
    In November 1993 Johnson was appointed principal director of the 
Vehicle Performance Subdivision, Engineering and Technology Group, with 
responsibility for engineering support in the areas of propulsion, 
flight mechanics, fluid mechanics, and launch vehicle and spacecraft 
thermal analysis.
    Before being named vice president, Johnson was general manager of 
the Launch Programs Division with responsibility for managing 
Aerospace's technical support to the Air Force for the Titan, Atlas and 
Delta launch programs.
    Prior to joining Aerospace, Johnson held a number of engineering 
positions with Martin Marietta Aerospace as part of Titan launch 
operations at Vandenberg AFB.
    Johnson holds a B.S. degree in mechanical engineering from the 
University of California at Berkeley and an MBA from the University of 
Chicago. He is a registered professional engineer in the state of 
California and a senior member of the American Institute of Aeronautics 
and Astronautics.
    The Aerospace Corporation, based in El Segundo, California, is an 
independent, nonprofit company that provides objective technical 
analyses and assessments for national security space programs and 
selected civil and commercial space programs in the national interest.

    Chairman Boehlert. Thank you very much, Mr. Johnson.
    Ms. Grubbe.

 STATEMENT BY MS. DEBORAH L. GRUBBE, P.E., CORPORATE DIRECTOR, 
                   SAFETY AND HEALTH, DuPONT

    Ms. Grubbe. Good morning, Mr. Chairman, Members of the 
Committee. I would like to thank you for the opportunity to 
testify today on the most important issue of safety.
    In my work with the DuPont Company, I am a chemical 
engineer by training. I also have 25 years of experience with 
DuPont in engineering design, leading multi-million dollar 
construction projects and running multi-million dollar 
manufacturing organizations.
    Today, I would like to focus my remarks on how we manage 
safety in the DuPont Company. My overarching message is that 
good safety practice takes committed leadership, educated 
personnel, integrated safety systems, and a continuous 
attention to doing the details of the work.
    While DuPont has one of the best safety records in the 
world, we are far from perfect. Good safety is an elusive 
dynamic. When we think we are getting good, that is the time we 
need to start to worry. The key is never to become complacent.
    From our experience, we think there are several 
organizational attributes common to successive--successful 
safety organizations: number one, safety comes first, and all 
organizational leadership is actively engaged in safety; number 
two, standards are high, these standards are well communicated 
and everyone knows what their role is; number three, our line 
management is accountable for safety, every person; number 
four, if the work can not be done safely, it is not done until 
it can be done safely; number five, safety systems, tools, and 
process are in place to support high standards and to support 
implementation and people are trained.
    DuPont's safety culture starts at the top of our 
organization. Our Chief Executive Officer is actively engaged 
in leading safety. He starts his key meetings with safety. He 
insists that safety come first on every manager's and 
employee's list of tasks. He expects to be notified by his 
direct reports of each employee and contractor fatality or 
lost-time injury within 24 hours of the event.
    Any person can stop any job at any time if there is a 
perceived danger. Managers and employees are expected to work 
together to figure out how to do a job safely. If they need 
more resources, the team obtains them and resolves the problem. 
Management's role is to support the team and to help find the 
safest, best solution. Safety is, and must be, a fundamental, 
line management responsibility all through the organization. 
Independent bodies can help and assist line managers execute 
their responsibilities and monitor that execution.
    Our corporate safety organization is accountable for being 
the watchdog on corporate safety policy and for examining how 
well DuPont executes against its own procedures. This 
organization, in conjunction with business safety leaders, also 
develop safety improvements. All improvements, however, are 
owned and implemented by the line management structure. There 
are multiple audits to ensure compliance to standards. DuPont 
never stops looking for weaknesses in its safety systems.
    The corporate safety organization reports to a separate 
executive leader. This person does not have a specific business 
or manufacturing role and is accountable for integrating safety 
health and environmental excellence as a core business 
strategy. His organization works with every DuPont business and 
functional leader to ensure safe, injury-free operation.
    Just as our CEO considers himself the ``chief safety 
officer'' for DuPont, each of our managers and supervisors are 
the chief safety officers of their respective organizations. 
They are never relieved of their safety duties. Our collective 
goal is to have every employee and every contractor that works 
at our facilities leave everyday just as they arrived. We 
believe that all injuries and incidents are preventable. 
Complacency and arrogance are our enemies.
    In summary, we believe that any organization can create a 
safe work environment if it embraces and implements a core set 
of organizational attributes and values, beginning with the 
fundamental belief that good safety is achievable and is a core 
management responsibility.
    Thank you for the opportunity to share our experiences with 
the Committee, and I would be happy to answer any questions.
    [The prepared statement of Ms. Grubbe follows:]

                Prepared Statement of Deborah L. Grubbe

    I am a chemical engineer by training and have 25 years of 
experience with DuPont in engineering design, construction and 
operations. My current role is Corporate Director--Safety and Health.
    Today I would like to focus my remarks on ``Safety at DuPont.'' In 
summary, good safety practice takes committed leadership, educated 
personnel, integrated safety systems, and a continuous attention to 
detail.
    DuPont has been in business for over 200 years. We started as a 
manufacturer of black powder for the U.S. Government in 1802. DuPont 
first kept injury statistics in 1912, installed an off the job safety 
process in the 1950's, and worked with the U.S. Government to establish 
OSHA 1910.119 in the 1980's. Even today, DuPont continues to improve 
its own safety systems. In 1994, DuPont established a Goal of Zero for 
injuries and incidents, and in the year 2000, decided to adopt a Goal 
of Zero for soft tissue injuries like, and not limited to, carpal 
tunnel syndrome and back injuries.
    DuPont always strives to improve its safety performance. In fact, 
safety is a precarious subject; just when you think you are good, that 
is the time you should start to worry. The key is to never become 
complacent. DuPont does have a leadership commitment to put safety 
first and we are committed to continuous improvement throughout our 
whole organization.
    Safety conscious organizations hold similar organizational 
attributes:

        1.  Safety comes first, and all organizational leadership is 
        actively engaged.

        2.  Standards are high, are well communicated, and everyone 
        knows their role.

        3.  Line management is accountable for safety.

        4.  If the work cannot be done safely, it is not done until it 
        can be done safely.

        5.  Safety systems, tools and processes are in place and 
        training is constant.

    DuPont is a large organization, diverse in products, in 
technologies, and in global locations. However, in spite of this 
diversity, we have a single safety culture. We have an integrated, 
disciplined set of beliefs, behaviors, safety systems and procedures. 
The safety culture is held together by committed and visible 
leadership. We ensure that our contractors also have similar management 
processes in place to manage their own safety to high standards.
    DuPont safety culture starts at the top of the organization. Our 
CEO is actively engaged in leading safety. He starts his key meetings 
with safety, and he insists that safety come first on every employee's 
list. He expects to be notified by his direct reports, of each employee 
lost time injury or fatality, employee or contractor, within 24 hours 
of the event.

Safety at DuPont

    Safety management is the unique balance of the carrot and the 
stick. There must be recognition and reward, as well as serious 
implications for blatant disregard of safety procedures and standards. 
If a DuPont employee continuously disregards procedures, he/she 
endangers his/her life, the lives of his/her colleagues, the 
shareholders' investment, and the health and welfare of the communities 
where we do business. We usually prefer that these kinds of people find 
work somewhere else.
    Any person can stop any job at anytime if there is a perceived 
safety danger. Employees are trained to look out for each other and to 
ensure that they and their colleagues work safely.
    The corporate safety organization is accountable for being the 
watchdog on corporate policy and for examining how well DuPont executes 
against its own procedures. This organization, in conjunction with 
business safety leaders, also develops safety improvements. All 
improvements are owned and implemented by the line organization. There 
are multiple audits to ensure compliance to standards. These audits can 
range from a sales manager observing the driving habits of his/her 
sales representatives, to an external consultant evaluating how well we 
conduct our audits. The point is that DuPont never stops looking for 
weaknesses in its safety systems.
    The corporate safety organization reports to a separate leader. 
This person does not have a specific business or manufacturing role and 
is accountable for integrating safety, health and environmental 
excellence as a core business strategy. His organization works with 
each DuPont leader to ensure there is clear knowledge of the risks 
present in his/her area, and to ensure safe, injury-free operation.
    Just as our CEO considers himself the ``chief safety officer'' for 
DuPont, each of our managers and supervisors are the chief safety 
officers for their respective organizations. They are never relieved of 
their safety duties. The safety organization in DuPont is sometimes a 
consultant, sometimes a conscience, and sometimes a leader. Our 
collective goal is to have every employee and every contractor that 
works at our facilities leave every day just as they arrived.
    In 2002, over 80 percent of our 367 global sites completed the year 
with zero lost time injuries. While we are proud of the thousands of 
employees and their achievements; we are not satisfied with this 
performance. We believe that all injuries and incidents are 
preventable. Complacency and arrogance are our enemies.

                    Biography for Deborah L. Grubbe

    Deborah Grubbe is Corporate Director--Safety and Health for DuPont. 
She is accountable for leading new initiatives in global safety and 
occupational health for the $27 billion corporation. Deb was formerly 
the Operations Director in two of DuPont's global businesses, where she 
was accountable for manufacturing, engineering, safety, environmental 
and information systems. Deborah is also a past director of DuPont 
Engineering's 700 person engineering technology organization. Her 15 
different assignments in 24 years range from capital project 
implementation through manufacturing management and human resources.
    Deborah currently serves on the National Institute of Standards and 
Technology Visiting Committee for Advanced Technology. She also serves 
the National Academy of Sciences as a member of the oversight committee 
for the Demilitarization of U.S. Chemical Weapons Stockpile. Deborah 
sits on the Board of Directors of the Engineering and Construction 
Committee of the American Institute of Chemical Engineers, and is on 
the Business Management Advisory Committee of Wilmington College. She 
is the former co-chair of the Benchmarking and Metrics Committee of the 
Construction Industry Institute, and currently serves as a member of 
the Purdue University School of Chemical Engineering New Directions 
Executive Committee. Deborah was the first woman and youngest elected 
member on the State of Delaware Registration Board for Professional 
Engineers (1985-1989). During her tenure on the State Board, she was 
the Chair of the Law Enforcement and Ethics Committee. She is active 
with the Society of Women Engineers, and is a former board member of 
the Women in Engineering Program Advocates Network (WEPAN). Deborah has 
been featured in the books ``Engineering Your Way to Success'' and 
``Journeys of Women in Science and Engineering--No Universal 
Constants.''
    She has been active in the Delaware community; as former president 
and board member of the Chesapeake Bay Girl Scout Council, and 
currently sits on their Northern President's Advisory Council. Deborah 
is also a board member of the Delaware Zoological Society. Deborah is a 
past board member of the YWCA of New Castle County. She has served as a 
Province President of her sorority, Zeta Tau Alpha, and is a recipient 
of their Alumnae Certificate of Merit. In 1994, Deborah was named an 
outstanding Chemical Engineering Alumna by the Purdue University School 
of Chemical Engineering, and is a recipient of the 1986 Trailblazer 
Award from the Delaware Alliance of Professional Women. This year, she 
is a recipient of the Purdue Distinguished Engineering Alumni Award, 
and has been named ``Delaware Engineer of the Year,'' by the Delaware 
Engineering Society.
    Deborah was born in suburban Chicago and graduated with a Bachelor 
of Science in Chemical Engineering with Highest Distinction from Purdue 
University. She received a Winston Churchill Fellowship to attend 
Cambridge University in England, where she received a Certificate of 
Post Graduate Study in Chemical Engineering. She is a registered 
professional engineer in Delaware. She is married to James B. Porter, 
Jr., and resides in Chadds Ford, Pennsylvania.

                          Discussion, Panel I

    Chairman Boehlert. Thank you very much, Ms. Grubbe, and 
thank all of you.

                        ITEA Budget Independence

    Can you explain--you know, Admiral Gehman, the CAIB 
Commission, if they have said it once, they have said it a 
thousand times: safety has to be independent of operational 
budget considerations. Can you tell me how your organizations, 
particularly the Admirals', have safety truly independent of 
the operational segment budgets and schedules? Ms. Grubbe and 
Mr. Johnson specifically addressed those, and I would like the 
Admirals to do so.
    Admiral Bowman. Mr. Chairman, as I listened to Ms. Grubbe, 
I heard her describing the Naval Reactors organization, also. 
Many of the elements of her safety program and her operation 
are identical to what I described as the Naval Reactors 
organization. I specifically jotted down committed leadership, 
ingrained safety culture throughout the organization, an 
integrated safety system, attention to detail, safety owned by 
line management, a very key point, and that the CEO feels that 
he is the ``chief safety officer.'' I could just say ditto for 
the Naval Reactors Program.
    And this is a difference in the way I think some are 
interpreting or perhaps the way the CAIB report is written. 
Standby for heavy rolls here. I don't believe an organization 
should have--should rely on an independent organization off to 
the side to oversee safety. I believe that safety has to be 
endemic to the organization. It has to be ingrained in every 
person. I used the word ``mainstream.'' Our line management, 
likewise, is responsible for safety in our organization. We can 
not have a separate group that comes in at the end and throws 
the flag on safety. Safety is a part of the day-to-day design, 
the day-to-day operation, the day-to-day development of 
procedures. It is who we are. It is what we are. Every person 
who is responsible and reports directly to me for components 
for systems for the entire reactor plant feels the 
responsibility for safety.
    We don't create, therefore, a tension between safety and 
resources. Safety is a part of the technical line management 
organization. If one were to arrange a separate safety 
committee or safety group totally responsible for safety within 
an organization, I believe that it would be near impossible to 
avoid this tension between the schedule and the budget, the 
resources that are necessary. The line management will--would 
look upon that safety group as Piranhas, not invite them into 
the campfire at night. They would be pulling in the opposite 
direction, and I think that the correct way is to ensure that 
every person within the organization understands that safety is 
a part of his or her responsibility from the very beginning, 
from the design and the operation.
    Chairman Boehlert. You can't emphasize that enough.
    Admiral Bowman. Yes, sir.
    Chairman Boehlert. Like you know the old saw where if 
something is everybody's business, it is nobody's business.
    Admiral Bowman. Yes, sir.
    Chairman Boehlert. I mean, it has to be someone. And I 
think what Admiral Gehman is saying, at least in my 
interpretation, is that you need people--everybody has to be 
devoted to safety, but you need an operation separate from the 
pressures of scheduling and looking at the calendar. ``Can we 
go on the 14th?'' Or, ``Do we have to wait until the 15th?'' 
Or, ``Do we have enough money to go?'' Some--safety has to be 
totally separate from that, according to my interpretation of 
the Gehman report and then be able to enter into the equation 
and say, ``Regardless of schedule, regardless of money, here is 
what we think in terms of safety.''
    Admiral Sullivan, do you have any thoughts on that?
    Rear Admiral Sullivan. Yes, sir. I would like to start by 
echoing Admiral Bowman's remarks about a culture of safety. You 
can not enforce from above or from beside and catch everything. 
You will always need to have everyone from the designers to the 
builders to the operators raised in a culture of safety. That 
is the best way to get started.
    In our submarine safety program, we, in fact, have two 
checks and balances on the program office, if you will. And I 
have been on both sides of this. I was the Sea Wolf program 
manager and the Virginia class program manager, so I have 
looked at this issue from both sides. The program managers are, 
in fact, driven by cost and schedule, but the technician 
authority in NAVSEA is outside of the Program Manager's 
organization. And the technical authority is, in fact, 
independent of the Program Manager, and they are funded 
separately.
    The safety--submarine safety organization is also 
independent of the Program Manager, so, in fact, we have two 
checks and balances. And both of those organizations can put a 
stop to a certification process or getting--allowing a ship to 
get underway, for instance, if there is an issue. And we stop 
until we get it resolved.

                                Waivers

    Chairman Boehlert. I am going to interrupt you for a 
minute, because my--the red light is on and we are trying to 
stick to the five-minute rule, but I gave you a little 
flexibility, so I will take a little flexibility here.
    But I assume that each of you have a system for waivers, 
and I would like to know, you know, at NASA they got almost 
4,000 waivers, some of them--a third of them are over 10 years 
old. Do you have a waiver system, Admiral Bowman and Admiral 
Sullivan? I will ask you to respond to that. How many waivers 
are in place, and how do you deal with the waivers?
    Admiral Bowman. There are very few waivers in place in the 
unforgiving technology that I deal with, the Naval Nuclear 
Reactors Program. When deviations from specifications occur in 
manufacturer--in production, they are brought through the 
system with recommendations and analysis of the overall impact 
of that deviation on the product, on the system, and on the 
integrated operation of the plant. Before the decision is made 
to agree to any deviation, departure from existing written 
specification and manufacturer production, it is brought to me 
for final approval. And we, at the table, then, go through that 
process that I described earlier asking what is the impact, 
what might be the impact, what is the worst that could happen 
if we accept this deviation, and what are the minority 
opinions. Are there people out there in the organization who 
say, ``No, don't accept this product; send it back, start 
over.''? We have very, very few of those. It is the--very much 
the exception and not the rule.
    Chairman Boehlert. So you would say maybe a handful?
    Admiral Bowman. Yeah, it would be difficult for me to put a 
number, sir, but----
    Chairman Boehlert. Certainly not thousands?
    Admiral Bowman. Not thousands.
    Chairman Boehlert. And are you aware of any waivers that 
might be in existence in your Program that are 10 years old?
    Admiral Bowman. Deviations from manufacturing tolerances 
where a manufacturing tolerance might call for something to be 
between five and 10 mils and it is--in fact, it came in at four 
mils, we may have those kinds of deviations in existence, but 
they have been very thoroughly analyzed and determined not to 
impact the----
    Chairman Boehlert. Thank you.
    Admiral Sullivan, would you care to comment?
    Rear Admiral Sullivan. We have a similar process outside 
the propulsion plant where waivers are formally submitted and 
evaluated. We, too, have few waivers, and I couldn't give you 
the numbers off the top of my head, but it is a disciplined, 
rigorous process, and yes, the age of our submarines can be up 
to--they have about a 30-year service life, but the only 
waivers that are allowed to stay on a submarine permanently are 
those of a similar nature to what the Admiral just described.
    Chairman Boehlert. Ms. Grubbe and Mr. Johnson, I mean you 
both addressed this directly in your testimony. Do you have 
anything you would like to add before I go to Mr. Hall?
    Mr. Johnson. Well, I was just going to add that we do have 
a process of working waivers. And to give you an idea of the 
typical number on a Titan 4, which is our--a fairly complex 
vehicle, we have on the order of about 130 to 150 waivers that 
we would be working. That has actually been driven down, 
because there has been a real effort to try and reduce the 
number of waivers on the vehicle. Probably about four or five 
years ago, the number was more like around 400 waivers. But we 
have a process that we review each one of those, provide an 
engineering assessment and opinion back to the Air Force on 
those.
    Chairman Boehlert. Ms. Grubbe.
    Ms. Grubbe. Nothing to add.
    Chairman Boehlert. All right. Thank you very much.
    Mr. Hall.

                            Managing Safety

    Mr. Hall. Mr. Chairman, thank you for leading in to the--
your questions with the word safety. And I think when we think 
about safety, I guess it is fair to assume that no one at NASA 
or any of your organizations would deliberately seek to follow 
unsafe practices. That is outrageous and ridiculous to even 
think about.
    However, back when we were working in the early '80's on 
the Clean Air Act and worked--I think it took 12 or 13 years to 
do it, there was a poll that came out that--from one of the 
Members of the Congress that had sought that poll to try to 
pass a stronger Clean Air Act. He had a poll that showed that 
82 percent of the people wanted clean air. And I wondered about 
that other 18 percent what--just what their choice was. But we 
are 100 percent on safety and seeking it and wanting it and 
demanding it. And I think that is what you have to do. The 
problem, though, arises when the pressures to achieve these 
organizational goals that you men and lady set out, I think, 
reach the point where the managers and workers find themselves 
making compromises to follow that schedule or to try to escape 
the use of a waiver or to have to seek something other than the 
100 percent perfection that you have to have when you are going 
to have safety.
    So--well, for example, Admiral Gehman's Investigation Board 
found that the pressures exerted by NASA's top management to--
made an arbitrary date for Space Station Core Complete led to 
actions being taken that wound up reducing the safety margins 
of the Shuttle Program, we are told, and I believe that is 
probably right, because I don't hear anybody that negates that. 
So I guess I would like to ask each of you, how do you prevent 
this kind of a thing from happening in your organizations? How 
have--you been successful in your thrust there or you wouldn't 
be here. The Chairman selected you to come and give us the best 
testimony that is obtainable anywhere in the country, and you 
are here, so apparently you have found a way to prevent that 
from happening in your organizations. How do you ensure that 
safety margins can be protected in the thrust that we are on 
right now? I guess I ask any of you, and if that type of 
situation does arise, how would you deal with it?
    Admiral Bowman.
    Admiral Bowman. Yes, sir, Mr. Hall----
    Mr. Hall. Skip? They call you ``Skip,'' Admiral Bowman?
    Admiral Bowman. Yes, sir, they do.
    Mr. Hall. Do just the normal, ordinary, J.G. like I was 60 
years ago, call--come up and said, ``Hey, Skip.'' Would that be 
okay?
    Admiral Bowman. No, sir. Maybe I should have said once.
    Your question strikes at the very heart of what we are 
talking about today. And again, I would just have to fall back 
on the answer that within the Naval Reactors organization, my 
line management, who are all direct reports to me, we probably 
have one of the flattest organizations in this country, and 
certainly within the United States Government, in that all of 
my direct reports are the first line reports. There is nobody 
between me and the 21 direct reports at headquarters. They all 
feel responsible for safety from the beginning. So we don't 
allow this competition, this competition between schedule, 
costs, and safety to exist, because we built it into the system 
from the design, from the redundancy, from the system 
oversight, the component oversight as it is being developed.
    And so we don't allow that to be a topic of conversation 
that we are supposed to go on sea trials on Monday the 15th of 
March and if we don't make that, it is going to be a black eye 
and now we have this safety issue that has reared its ugly 
head. And the answer is very simple: fix it. Fix it. We build 
redundancy and safety into our systems for the Commanding 
Officer of these ships to exercise at sea in battle or in 
untoward situations. And it is not within my purview. I don't 
even consider it to be a question that I can remove that 
redundancy and that safety from him by making a decision here 
in Washington, DC that makes the ship less safe before it goes 
to sea.
    I might add, by the way, that I ride all of the initial sea 
trials on all of these ships and take the ships through all of 
their evolutions the--for the very first time. So my staff is 
there with me, and we are there watching the results of the 
fruits of our labor. So it just doesn't come up. We don't allow 
safety to be in competition with schedule and budget.

                                SUBSAFE

    Mr. Hall. Admiral Sullivan, your experience on your SUBSAFE 
thrust, give us the benefit of that.
    Rear Admiral Sullivan. Yes, sir. First off, as far as 
waivers coming up and getting pushed aside by the Program 
Manager, the Program Manager does not have unilateral authority 
to grant a waiver. He must get technical disposition and that--
and he must take a technically acceptable path to disposition 
of that way. And we do not waive fundamental SUBSAFE 
requirements, period. And like the Admiral said, when we have 
an initial sea trial, the toughest certification is the ship 
going to sea for the first time and the Program Manager also 
rides.
    Mr. Hall. My time is up. Briefly, Mr. Johnson or Ms.--I 
called you Ms. Grubbe. Is it Ms. Grubbe?
    Ms. Grubbe. Yes, sir, Grubbe.
    Mr. Hall. Ms. Grubbe.
    Ms. Grubbe. I would just like to add, very similarly to the 
other gentlemen, that safety comes first and that anyone at any 
time can stop anything. And safety does come before budget. I 
find it interesting that in the collective, when over the years 
as many people have dealt with safety, we find that we rarely 
have money up front to do it right, but we always have lots of 
money at the end to fix it once something goes wrong.
    Mr. Hall. Mr. Johnson.

                              Crew Escape

    Mr. Johnson. Just very briefly, well, first of all, our 
whole purpose is a mission assurance or safety organization. We 
are separate from the Air Force in that respect. We also do 
have a separate management chain so we are held accountable 
up--beyond the people that report directly to the Air Force 
program managers that verify that--and maintain that our 
mission success focus is something that we never deviate from 
and never give in to the pressures of schedule and cost.
    Mr. Hall. I have one more quick answer--question to ask. I 
won't require anything but a yes or a no. Do you know of any 
way that the parents of a person that is going to be launched 
in one of our Shuttles can feel completely confident without 
having an escape, modular escape vehicle?
    Admiral Bowman. Sir, for my purposes, that is outside my 
realm of expertise. It certainly sounds----
    Mr. Hall. You are going to skip that, huh?
    Admiral Bowman. It sounds like something that should be 
evaluated. Absolutely.
    Mr. Hall. Admiral.
    Rear Admiral Sullivan. I don't have anything to add to 
that, sir.
    Mr. Hall. You are consistent. Go ahead, Mr. Johnson.
    Rear Admiral Sullivan. It is--again, it is outside our----
    Mr. Hall. Yeah.
    Rear Admiral Sullivan. Outside our purview.
    Mr. Hall. But it is not above your pay scale, is it?
    Mr. Johnson, your answer is probably no and Ms. Grubbe, 
yours is probably no. We have got to have an escape if we are 
going to feel completely safe, right?
    Mr. Johnson. That is correct.
    Mr. Hall. That is three to two. So we are pretty--no, thank 
you for your answers. We have to have our fun up here.
    Chairman Boehlert. Thank you very much, Mr. Hall.
    Mr. Burgess.

                           Handling Anomolies

    Mr. Burgess. Well, Mr. Chairman, I want to thank you for 
convening this panel today. It has truly been very instructive 
and necessary for us as we make our evaluations about the 
Columbia Accident Investigation Board report.
    The--when Admiral Gehman was here before, he talked about 
applying the template to NASA where there is a strict adherence 
to safety and how to treat an anomaly and continue flying. And 
yet I read in the Washington Post yesterday an editorial about 
apparently accepting an anomaly with the on-board environment 
on the Space Station and continuing--continue with the mission 
to put some additional astronauts up there. So the question 
comes up are we really serious about that and, Admiral Bowman, 
would that be an acceptable anomaly in your experience to 
continue flying?
    Admiral Bowman. I fly underwater. If we were faced with a 
similar situation of--or if we were faced with a situation of 
not being able to monitor the ship's environment, that would be 
cause for not allowing the ship to sail.
    Mr. Burgess. All right. Thank you.
    On the--just following on the same line that the Chairman 
and Mr. Hall have been pursuing, do you have--could you share 
with us, any of you, a real-world example of how your 
organization has handled a particular safety problem, 
particularly one where an ongoing mission of your larger 
organization had to be interfered with?
    Rear Admiral Sullivan. I can give you an example of it some 
years ago when we were trying to deliver the Sea Wolf, which 
was a program with not a great reputation on the Hill. We were 
about six months from final sea--first sea trials and a working 
level engineer at one of our ship builders, who was working on 
the design, came up with a concern about the Titanium alloy we 
were using on the doors to the torpedo tubes, which are the 
largest holes on the ship. He pulled the thread on that and 
eventually got it pulled up through the organization, which is 
also flat. Our organization is not as flat as Naval Reactors, 
but it is flat enough that minority opinions, such as this, are 
voiced. And it came into--this was in about 1994. It came to 
full attention of the program management and technical and 
safety staff. And we had to come to a grinding halt, do a bunch 
of testing, and replace that material on those doors, and it 
delayed the ship delivery a year, and it cost in excess of $50 
million by the time we were done. And it is because we couldn't 
compromise the safety.
    Mr. Burgess. Admiral Bowman, would you have an example from 
the Nuclear Reactor Program?
    Admiral Bowman. Questions of safety are--with the nuclear 
reactors for the Naval Reactors Program are not quite so 
dramatic that we get to the end of the trail and suddenly have 
to make a decision like Admiral Sullivan just described, 
because we begin with safety in mind all of the way at the 
beginning of the design and the manufacturing process, and we 
will watch it and monitor it. And then as we test the completed 
components in a non--not--in a critical reactor environment, we 
then may run across things that require safety adjudications. 
So we fix it then. And then we go on to the next level of test 
program. And so as the test program moves along, safety items 
that might exist, that very seldom do exist, but that might 
exist, come to the floor earlier than as Admiral Sullivan just 
described. So I am racking my brain right now to think of an 
equivalent, and I can't think of one.
    Mr. Burgess. Well, the yellow light is on, so just for a 
minute more, if we had a similar situation or we had the 
situation with, of course, the Columbia with the foam, but in 
your experience in your organization, it would have never 
gotten to the--to that point. That anomaly would have been 
selected out much earlier in the process? In the design and 
manufacturing?
    Admiral Bowman. Well, it is difficult to say conclusively, 
but I would dare say yes.
    Mr. Burgess. Thank you very much. I will yield back the 
balance of my time, Mr. Chairman.
    Chairman Boehlert. Thank you very much, Mr. Burgess.
    Ms. Johnson.
    Ms. Johnson. Thank you, Mr. Chairman, and thank you for 
having this hearing. I have an opening statement of which I 
will put into the record.
    Chairman Boehlert. Without objection, so ordered.
    All Members will have their opening statements in the 
record immediately following the opening statements from the 
distinguished Ranking Member.

                         Safety Accountability

    Ms. Johnson. Thank you. There was comment, I think by the 
Admiral, that indicated he thought the CEO should be the one in 
charge without a separate organization. I don't think NASA had 
a separate organization, but the CEO, the person who occupies 
that, did not get the information. How do you think that could 
be improved?
    Admiral Bowman. Again, an excellent question. I think what 
Ms. Grubbe said and I agree with was that her CEO at DuPont 
felt himself to be the ``chief safety officer.'' And certainly, 
within my organization, I feel myself to be the ``chief safety 
officer.'' Let me--if I could for just one minute, I do have, 
at Naval Reactors, a safety group, but that safety group is not 
responsible on a day-to-day basis for ensuring the safe design 
and manufacture and production and operation of the components. 
That is the line management's responsibility to me directly. So 
the way we do it, as the design is moving along, as the system 
is operating, as we go day to day with these 103 reactors that 
I spoke of earlier that I am responsible for, I hear in real 
time these difficulties that we are encountering. And the line 
management know that they are responsible for safety as well as 
for delivering the product.
    So again, the tension isn't there. What my safety group 
does for me is integrate the overall efforts of the 
organization. They keep the safety codes. They are responsible 
for the computer codes that evaluate the overall safety of the 
reactor plant. And they do the liaison with the Nuclear 
Regulatory Commission for Naval Reactors for me. But they are 
not--and I found this out dramatically early on in my tour when 
I asked a safety question about a reactor coolant pump. And I 
asked it of the safety group head, and you would have thought 
the world was coming to an end. Within minutes, the owner of 
that reactor coolant pump, the line manager who designs and 
oversees the reactor coolant pump, was in pounding my desk 
saying, ``What are you doing asking the safety group head about 
my stuff?'' And I think it is that sense of ownership and that 
sense of responsibility that leads to this mainstreaming that I 
am talking about. And that is the way that we do it at Naval 
Reactors. I would hear about it within minutes of something 
happening.
    Ms. Johnson. So though you have persons that have expertise 
generally in particular areas, the communication loop always 
includes you for the final decisions?
    Admiral Bowman. Yes, ma'am, it does.
    Ms. Johnson. Thank you.
    Mr. Johnson, is that the way you function at DuPont?
    Mr. Johnson. I am The Aerospace Corporation. And actually, 
in our case, in the case of the Air Force launch organization, 
the CEO, the appropriate person in that same position would 
actually be Lieutenant General Arnold, who is the Space and 
Missile System Commander. The program managers that manage the 
overall launch programs actually work for him. And the 
information always flows up to General Arnold, to answer your 
question. The program managers do a very good job of doing 
that, and the final flight readiness review is actually chaired 
by General Arnold, and he is the one that gives the final GO 
decision based on the inputs of all of the various agencies, 
The Aerospace Corporation being one of them, but also his 
Program Manager and several others.
    Ms. Johnson. Ms. Grubbe.
    Ms. Grubbe. Congresswoman, at the DuPont company, everyone 
has the same accountability for safety: from the CEO to the 
operator in the control room on the night shift. And it is our 
intent to make sure that everyone would behave and make the 
decisions with regard to safety in the same way.
    Ms. Johnson. Thank you very much.
    Does anyone on the panel have a comment of what--your 
opinion of what might have broken down at NASA?
    Admiral Bowman. As I said, Congresswoman, in my opening 
testimony, I just don't consider myself to be expert enough in 
this area and have not studied it well enough to offer an 
opinion.
    Ms. Johnson. Thank you very much.
    Is that a signal that my time is up?
    Chairman Boehlert. Yeah, that is it. All right.
    Ms. Johnson. Thank you.

             Decision-making in the Naval Reactors Program

    Chairman Boehlert. Thank you very much.
    Admiral Bowman, let me ask you, does Naval Reactors make a 
decision on when and whether to launch, or does it go topside 
at Navy?
    Admiral Bowman. I--this gets difficult. I have--both wear a 
hat within the Navy as the Director of Naval Reactors as a 
four-star admiral, and I am also an Assistant Secretary of 
Energy overseeing the safe operation, the oversight regulation 
of the safe operation of Naval Reactors. In that job, I have 
the final say over whether a Reactor is safe to operate. And so 
there is no over my head in that regard. And certainly, I 
report to the Secretary of Energy in that regard, in that role, 
and to the Secretary of the Navy in the Navy role.
    Chairman Boehlert. Well, then you would say you are 
comparable to the Administrator of NASA in that regard? In 
other words, you have the final say on when and whether to 
launch?
    Admiral Bowman. When and whether to allow operation of the 
Reactor plant. The ship's operation is a different matter. The 
Reactor plant is the propulsion system that drives the ship 
through the water. Without it, the ship couldn't get underway. 
So I do have a veto vote that the ship couldn't leave if I felt 
there was something unsafe that--to preclude safe operation of 
the Reactor plant. But the contrary is not true. There may be 
things that are beyond my purview having to do with the 
submarine safety areas that Admiral Sullivan oversees that I 
could say my Reactor plant is perfectly ready to go and safe to 
operate, but the ship doesn't leave because now it does leave 
my hands and go----
    Chairman Boehlert. Yeah, I----
    Admiral Bowman [continuing]. Above my head. Yes, sir.
    Chairman Boehlert. Thank you very much for that 
clarification.
    Mr. Gutknecht.

                          Culture and Attitude

    Mr. Gutknecht. Thank you, Mr. Chairman.
    And I apologize to our distinguished guests for the 
attendance here, because you need to understand, we 
understand--sometimes people in the audience don't understand 
we have a number of other Committee meetings going on at the 
same time. And I want to thank the Chairman for calling this 
hearing, and I want to thank you for coming. I have never had 
the courage to go out on one of these weekend submarine 
missions, which some of my colleagues have done. I have spent a 
few hours on one, and I must tell you, I am in admiration of 
those brave Americans who go out sometimes for months at a time 
and serve this country. So please pass that along to the people 
that work under you.
    Let me--the issue here is about safety, and I want to come 
back to something, because I believe the single most important 
word in the English vocabulary is the word ``attitude.'' And I 
think if anything happened that I have learned so far and in 
what we have learned in terms of the Shuttle catastrophe is 
that the attitudes at NASA had become a little bit sloppy. And 
you went through--the Navy went through a similar process, I 
think, after Thresher. I guess the question that this committee 
really wants to get at, after the Thresher, and I think this is 
for Admiral Sullivan, did you start, essentially, with a blank 
sheet of paper and start over, or did you tend to--did you try 
to modify the current structure that was there? And I think 
that is a fundamental question we need to get at relative to 
NASA. And perhaps you could offer some observations on that.
    Rear Admiral Sullivan. I would say in response to the 
Thresher disaster, we basically went all the way to our roost 
and rebuilt the culture. The first thing we did was restrict 
the operating depth of all operational submarines at the time. 
Then they revised the operating procedures. And of course, this 
was many years ago. Submarine operating procedures were 
revised. We went through a review of the design of our 
submarines and made a number of changes that fundamentally 
changed the way we had our safety systems in our submarines 
design including redundancy, putting in a special emergency 
blow system, and having redundant backups for closing major 
openings into the ship if the primary system failed. We also 
worked hard on our diving plane hydraulic systems so that we 
would have increased reliability. We started the whole audit 
process. We formalized--we changed the way we joined our pipes. 
Before Thresher, many of the pipes that carried water inside 
the ship where they were--water coming in from the sea were 
used silver-braise joints. We went from silver-braise joints to 
welded joints, which are much more reliable and can be 
inspected more easily and with more reliability. So we really 
changed the whole operating design and manufacturing culture of 
the program. It took a long time.
    Mr. Gutknecht. But Admiral, did you change your 
organizational structure?
    Rear Admiral Sullivan. I wasn't there then. I was a kid. 
I--there was no SUBSAFE group, that is for sure.

               SUBSAFE's Use of the Challenger Case Study

    Mr. Gutknecht. The--and let us come back to that SUBSAFE 
group. Now apparently, I am told, that you used the Challenger 
accident as part of your training program. Can you tell us a 
little bit about that?
    Rear Admiral Sullivan. Yeah, I am glad you mentioned that, 
because I wanted to talk about how you combat complacency in a 
culture of safety. Basically, whenever any complex system 
fails, including Challenger and including all of the Soviet 
Navy's submarine losses, we try to fold that into our training. 
We hold annual training on everyone who works on the submarine 
program who works at SUBSAFE. And the training consists of two 
parts. One is a kind of review of all of the procedures and 
instructions, and the second part is a formal--I will call it a 
lecture, but we actually watch a video every year that 
describes the whole lead up and loss of Thresher, including a 
tape of the audio of the submarine pressure hold breaking up. 
And that is pretty sobering to go through every single year. 
And you know, I have heard it an untold number of times, and it 
sends a chill through my bones every time I listen to that 
tape.
    So I--again, what you have to do is combat complacency.
    Mr. Gutknecht. But do you use the Challenger incident?
    Admiral Bowman. My organization uses the Challenger 
incident as formal training. In fact, just yesterday I was at 
one of my two Department of Energy laboratories speaking to a 
fairly large crowd outside. And I spoke then about the Columbia 
Accident Investigation Board and its report and how we needed 
to do exactly the same thing with Columbia as we have done with 
Challenger. One of the first books I read upon taking this job 
over seven years ago was Diane Vaughn's book on the loss of the 
Challenger. And we have ingrained that training as a formal 
routine part of our training at Naval Reactors.
    We use a phrase called ``constructive dissatisfaction'' to 
attack what Admiral Sullivan was just speaking of, complacency 
within an already pretty safe organization. I argue that if we 
are not constructively dissatisfied with where we are and with 
the status quo, we are going to find ourselves on the right 
road but standing still, and we are going to get caught some 
day. So the Challenger training is a big part of that training.
    Mr. Gutknecht. Well, thank you very much.

                         NASA/Navy Benchmarking

    Chairman Boehlert. Thank you.
    Just let me ask you, how long, Admiral Bowman, have you 
been in your current job? Eight years?
    Admiral Bowman. Seven years and 28 days.
    Chairman Boehlert. And Admiral Sullivan, how long?
    Rear Admiral Sullivan. I have been at my job just over two 
years.
    Chairman Boehlert. I am just wondering, between--in the 
last half a dozen years or so prior to the tragic February 1 
accident of Columbia, was there interaction between NASA and 
your organization?
    Admiral Bowman. Yes, sir, there was. Early on in Mr. 
O'Keefe's tenure, he socialized with me the possibility of 
benchmarking the Naval Reactor's culture against what he had 
found at NASA. He subsequently formally asked the Secretary of 
the Navy for permission to do that discussion, benchmarking 
with my organization as well as with Paul Sullivan's 
organization. The Secretary of the Navy, of course, obliged 
happily, and we began that benchmarking operation months before 
the tragedy.
    Chairman Boehlert. Of course, Mr. O'Keefe has prior 
experience with the Navy, so he was fully aware of your 
outstanding program.
    Admiral Bowman. Yes, sir.
    Chairman Boehlert. But I am comforted to hear that. But you 
guys, in the Navy, learn from the Challenger, and that is a 
case study.
    Admiral Bowman. Sure.
    Chairman Boehlert. I sometimes wonder if NASA learned from 
Challenger. They ought to study it as seriously as you did.
    Mr. Miller.
    Mr. Matheson. How about Mr. Matheson? Thanks.
    Chairman Boehlert. This paper, who says what? Mr. Matheson. 
Yes, sir.

                          CAIB Recommendations

    Mr. Matheson. Thanks. Thanks, Mr. Chairman.
    I want to thank you for your testimony on safety practices 
in your own organizations. What I would like each of you to 
tell us is what specific benchmarks you think ought to be 
established to evaluate whether or not NASA is complying with 
the Board's organizational recommendations. And as part of your 
response, I would like you to give a thought about how long you 
think it should take for an organization like NASA to implement 
those recommendations.
    Admiral Bowman. Boy, that is a good question. And I have 
given very little honest thought to it, because it is not my 
responsibility. If I could possibly back off for just a couple 
of days and provide that answer for the record, I will devote--
--
    Mr. Matheson. That would be great.
    Admiral Bowman [continuing]. A lot of resources to thinking 
about it. But I just haven't given it adequate thought to 
answer.
    Rear Admiral Sullivan. I would just add that probably the 
best forum for that is to just continue the benchmarking effort 
that is going on between NASA and NAVSEA right now.
    Mr. Matheson. If you--go ahead.
    Mr. Johnson. I was just going to add that I think probably 
the best benchmarks are the items that are contained in the 
recommendations in the report itself. And it could take a 
considerable amount of time to set up an organization like 
that. Of course, we don't know exactly what it is that NASA is 
going to set up, but that could be easily a year-long effort to 
set up an organization like that.
    Mr. Matheson. Sure. Sure.
    Ms. Grubbe. Congressman, I can not speak to the benchmark 
question, but in DuPont's work with other clients with regards 
to changing their own safety culture, it takes--if management 
is committed, if the management of the company is committed, it 
takes roughly 18 to 24 months to see substantive changes.

                           Communicating Risk

    Mr. Matheson. You know, one issue that we deal with that, 
you know, as Congressmen, we are dealing with the public all of 
the time in town meetings or what not. And I am wondering how 
do your organizations address public--the public's concern 
about risk? How do you try to communicate how you are dealing 
with risk? How do you try to build up that knowledge within the 
public that your organization is addressing risk issues? And 
how do you think that would apply to NASA? You can just go in 
the same order. Yeah.
    Admiral Bowman. I am going to reverse the seating next 
time.
    Within Naval Reactors, there has been a consorted effort 
over the past five or six years to do more of what you are 
suggesting. We are little bit hamstrung, because a great deal 
of what I deal with is classified----
    Mr. Matheson. Right.
    Admiral Bowman [continuing]. And it is protected by the 
Atomic Energy Act of 1954. And so I have to be cautious. I 
honestly believe that I am dealing with the country's crown 
jewels, or at least some portion of them, in our nuclear 
submarines and nuclear aircraft carriers. I know, without 
question, that my organization is targeted by other nations for 
this technology, so we have been careful.
    Mr. Matheson. Sure.
    Admiral Bowman. That said, we recognize that--the point of 
your question, that it was very important to begin developing 
more trust with the public than perhaps we had before. So we 
asked ourselves what could be discussed, and we began a program 
that I--from my Tennessee background, if Mr. Gordon were here, 
called hobnobbing. And I began encouraging my field 
representatives who oversee the operations in the various ports 
where our submarines and aircraft carriers are located or where 
my Department of Energy laboratories are to begin discussions 
with the public officials, the State officials, and the Federal 
officials who co-regulate some of our activities to bring them 
in and, at the table over a cup of coffee in a non-extreme kind 
of situation, tell them who we are and what we are trying to do 
and begin working even on security clearances for some of these 
people so that we can bring them into the inner sanctum and let 
them know better what we are doing to protect the environment 
and to protect the--their public.
    We are highly reliant on these State and local officials to 
take care of their people in our ports. So we felt very 
strongly that it was important to do that. So I would say that 
we have had now a number of these discussions with State 
officials in all of the states that we operate in as well as 
beginning now to do what I call table-top drills, training 
scenarios that would walk us through the what-ifs and the 
highly improbable event of an incident that would require the 
town or the state to mobilize, what would be required. And so 
we have been doing a great deal of that, most recently with the 
State of Washington and their Adjutant General attended that 
with us.
    Mr. Matheson. Thank you, sir.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired. Did anyone else need to respond to that? 
Thank you very much.
    Mr. Smith.

                    Turnover in the Safety Workforce

    Mr. Smith. Mr. Chairman, thank you.
    Congress tries to fulfill its role of policy, and sometimes 
that policy sort of interferes with some of the goals of the 
Administration or the Navy. I served in the Nixon 
Administration for about five years. And pretty much what we 
were told when we came on the Hill is, you know, try not to 
rile any of the Congressmen. Be nice. Be polite. I am a little 
concerned with NASA that has been somewhat immune from 
political control even--from Congress, but also even from the 
White House over the last several years. And so I am trying 
to--I guess my question relates partially to the balance of 
that policy coming from Congress to--at what point it--is it 
disruptive to the mission as determined by the Administration 
versus as the responsibility for policy oversight by Congress. 
But I don't know how you answer a question that is sort of 
vague like that, except let me specifically talk about the 
difference between the Navy and the NASA in terms of 
complacency, how complacency starts to evolve from employees 
that have been doing the same thing for too long a period. And 
as I understand it, Admiral Bowman, the Navy has an 8-year 
transition in some of the more technical aspects. And NASA has 
now told us that they are looking at a rotation of two to three 
years, so a new broom will sweep clean, if you will, but--so it 
is a balance of the energy and attentiveness of new people 
coming on the job versus the potential of complacency. What is 
the right length of time for rotation and transition?
    Admiral Bowman. Well, that is another very good question 
and I think one that should be addressed by this committee in 
dealing with this NASA situation. You are right. My particular 
position is, by law, eight years. On the day Admiral Rickover 
retired, President Reagan wrote an Executive Order that made 
that so, and that Executive Order has subsequently been written 
into law twice now, making my tenure eight years.
    I think longevity in this kind of oversight position that I 
find myself in is extremely important to the safe operation of 
an organization that deals with an unforgiving technology, such 
as mine or NASA's. So I heartily endorse both that concept of 
extending the tenures of key technical people at NASA as well 
as what Secretary Rumsfeld is trying to do across the Navy for 
this--or across the military for----
    Mr. Smith. You are recommending that it be done by law?
    Admiral Bowman. Well, that is certainly one way to ensure 
that it gets done. It is a way that it could happen. It is the 
way it has happened with my position.
    Mr. Smith. Well, according--but you know, part of my 
concern with past hearings on the Columbia disaster, and I 
appreciate the question that was asked earlier that the Navy 
looks at Columbia in terms of what possible mistakes have they 
made in reaction--in relation to what we are doing and how do 
we make sure that we don't make the same mistakes. NASA, I 
think, is going to start being more conscious of a larger 
environment.

                             Nanotechnology

    I have been concerned about the mission. I am Chairman of 
the Subcommittee on Research. A lot of the justification for 
our NASA effort is research. We have been told that the main 
reason that humans are in space is to--studying--
scientifically, at least, is studying the physiological 
implications on humans in space flight. I just returned from 
Cal Tech and JPL and looking at some of the California science 
efforts. And I guess I come back with the conclusion that our 
new nanotechnology is going to replace a lot of the manned 
space flight. How about nanotechnology in communication to 
replace more personnel in the Navy, especially with submarines?
    Admiral Bowman. We are headed in that direction, without 
question, the entire Navy, not just submarines. Looking at 
automation. Nanotechnology may very well have a place in that 
in the sensor world, being able to better determine what is 
going on inside systems and inside components with 
nanotechnology. But reducing the manpower on board our warships 
is a stated goal as the Chief of Naval Operations and the 
Secretary of the Navy even--one which I endorse.

                          NASA/Navy Benchmark

    Mr. Smith. Is there--just one last quick question.
    On your investigation and how it might apply to you and 
your responsibilities in terms of reviewing what happened with 
Columbia, do you communicate any of that analysis or evaluation 
to NASA?
    Admiral Bowman. I am sure we will. I say that because of 
the earlier questions that indicated that Mr. O'Keefe was keen 
on benchmarking his organization against the Navy's 
organization. So I would have no doubt that he would be 
interested in our views on lessons learned from Columbia. I 
would add that we have already conducted training for NASA on 
Challenger, giving them our version of the lessons that we 
learned from the Challenger disaster----
    Mr. Smith. Okay.
    Admiral Bowman [continuing]. And I think they found that 
very helpful.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired.
    Mr. Smith. Thank you.
    Chairman Boehlert. Ms. Jackson Lee.

                    Manned vs. Unmanned Space Flight

    Ms. Jackson Lee. Thank you very much. And to the panelists, 
I think I associate my remarks with my colleague who has 
indicated that there are a number of hearings going on that may 
have delayed us in hearing your complete testimony, but I want 
to thank the Chairman and Ranking Member for a very, very vital 
hearing.
    And I would like to probe extensively, within my time 
frame, on this question of safety. Realizing that Admiral 
Gehman and the Columbia Investigation Board set a standard of 
which we should try to achieve, I have noted over the years, 
starting halfway, probably, into my term, maybe even earlier, 
on this committee, which has been a sizable amount of time, 
that safety is the number one responsibility and requirement. 
And I would then add to say that we are at a crisis point as it 
relates to safety issues in moving NASA forward. Admiral 
Bowman, just a quick question. My colleague led you down the 
path of technology and manpower and possibly substituting 
technology for manpower. I assume reducing manpower does not, 
in your mind, equate to eliminating manpower as it relates to 
submarines.
    Admiral Bowman. In some instances----
    Ms. Jackson Lee. In totality, I am trying to say.
    Admiral Bowman. No, not in totality. Absolutely not.
    Ms. Jackson Lee. Okay. Then let me--I just wanted to make 
sure that I got that on the record that technology will never, 
in totality, replace the necessity of manpower, humanpower, 
womanpower, if you will, if they have reached that point of 
staffing on the submarines. And I don't believe that it will 
reach the point of eliminating the importance and vitality of 
human space flight. You are not here today suggesting that we 
should eliminate the human Space Shuttle?
    Admiral Bowman. The----
    Chairman Boehlert. All right. Excuse me. That is not at all 
the purpose of the hearing. The purpose of the hearing is to 
learn from them how do we make----
    Ms. Jackson Lee. I understand.
    Chairman Boehlert [continuing]. Human flight safer.
    Ms. Jackson Lee. I appreciate. Let me allow the gentleman--
would you answer my question, please, Admiral? Thank you.
    Admiral Bowman. It was certainly not my intent to indicate 
any opinion on the elimination of manned space flight in my 
answer.
    Ms. Jackson Lee. Right. So you are not here suggesting that 
that should be eliminated or make a comment on that?
    Admiral Bowman. That is correct.

                          Safety Organization

    Ms. Jackson Lee. Okay. The CAIB has indicated that we 
should divide the structure of NASA between operations and 
safety. Is that along the lines of what you have done with 
respect to the operations that you are involved in the Navy?
    Admiral Bowman. We really have done almost the opposite.
    Ms. Jackson Lee. All right.
    Admiral Bowman. We have integrated operations and safety. 
We have combined operations and safety from the beginning. As I 
have said earlier, the mainstreaming aspect of safety with the 
line functions does that for you and makes everybody 
responsible for and cognizant of safety.
    Ms. Jackson Lee. And how have you found--has that been a 
structure that you have had for a number of years? Has it been 
a structure that you have implemented in response to actions 
that have occurred? Or has this been the Navy's general basis 
of operations?
    Admiral Bowman. Admiral Rickover set up his office at Oak 
Ridge in 1948, and this has been a part of Naval Reactors since 
1948.
    Ms. Jackson Lee. And in that integration of safety issues, 
how do you encourage the personnel in the Navy to be open on 
their concerns about safety questions, for example, and I think 
it was asked before but I would like to hear it again, if there 
is an air quality problem or a safety problem in a submarine 
that was about to disembark or about to leave shore, if you 
will, with my--with the technology to be refined better? But in 
any event, what would be the response to that individual or 
individuals?
    Admiral Bowman. I think they would be rewarded and 
applauded. They certainly would be in my organization in our--
--
    Ms. Jackson Lee. And how do they go up the chain of 
command?
    Admiral Bowman. Within my organization, it is quite easy. 
They have direct access to me, number one, through knocking on 
my door and coming in the office, calling me on the telephone, 
e-mail. They have direct access to their section heads. The 
direct reports that I referred to earlier, the 21 direct 
reports, know that we are going to be talking at the table in 
my office about are there minority opinions, are there 
dissenting opinions on the consensus view here. And so they go 
out and look for it.
    Ms. Jackson Lee. So the atmosphere can be created, you are 
saying?
    Admiral Bowman. I believe it can, yes, ma'am.
    Ms. Jackson Lee. Ms. Grubbe, would you--thank you very 
much, Admiral.
    Would you help me with the safety question in the private 
sector? We find that there are concerns of retaliation and 
enforcement questions on how do you enforce the atmosphere or 
penalize those who don't do it. What do you do in the private 
sector with DuPont?
    Ms. Grubbe. We do something very similar to the Navy, 
Congresswoman. We reward and highlight people who bring forward 
not only safety events that have occurred where no one else was 
around, but potential events and make sure that they get broad 
communication across the organization and to every plant site 
around the world that has a similar kind of apparatus, if it 
involves a piece of equipment.
    Ms. Jackson Lee. We thank you very much for your reasoning 
on this. This will be instructive to us as to what we need to 
do, and I thank you for your testimony.
    Chairman Boehlert. Thank you very much.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Well, I am just going to say that I missed 
the testimony, and I am sorry, and I apologize. We have got our 
Governor-elect Arnold in town, and I was introducing him to 
various people, and that is part of my job, and I am sorry. But 
I will be reading your testimony. And I appreciate the fact 
that you have shared your expertise with us. We have to put 
NASA's house in order, and all of us on the outside and the 
inside have to work together. And I appreciate your 
contribution and appreciate Sherry Boehlert's leadership. Thank 
you very much.
    Chairman Boehlert. Thank you very much.
    And now I would like to thank the panel for participating, 
for serving as resources. We value highly your testimony in its 
entirety. And all of your complete testimony will be part of 
the permanent record and any added material you care to submit. 
And stay tuned, we may be back by phone or by written 
communication to ask for some amplification of certain segments 
of your testimony, but we really appreciate what you have done. 
Thank you very much.

                                Panel II

    Our next panel will be a panel of one, the very 
distinguished Chairman of the Columbia Accident Investigation 
Board, Admiral Harold Gehman. Admiral Gehman has had a busy 
day. He has been over to the JV's this morning. He is coming to 
the Varsity right now in the Science Committee of the House of 
Representatives. As we all know, Admiral Gehman has been just 
outstanding in his service to the Nation in a very important 
capacity as Chairman of the Columbia Accident Investigation 
Board. Let me add, he has also been outstanding in many other 
respects, including his availability to all of the Members of 
this committee and to the staff of the Committee. We are 
working hand-in-glove with the Admiral to ensure that we have 
the best possible response to a very tragic situation.
    And with that, now that the name tag is properly in place 
and the Admiral is prepared, Admiral Gehman, welcome back.
    Admiral Gehman. Thank you very much.
    Chairman Boehlert. The Floor is yours, sir.

 STATEMENT OF ADMIRAL HAROLD W. GEHMAN, JR. (RET.), CHAIRMAN, 
             COLUMBIA ACCIDENT INVESTIGATION BOARD

    Admiral Gehman. Thank you very much, Mr. Chairman.
    I will just make a very, very short opening statement here, 
and we will get right to the questions.
    The panel that you just had, I didn't get to listen to all 
of it, but I got to listen to part of it, a very illustrious 
panel. I consulted their organizations in the course of our 
investigation, and I congratulate this committee for getting 
them here and letting them talk about safety and reliability.
    Let me just say that the Columbia Accident Investigation 
Board was careful to--we tried to be careful to separate safety 
from reliability. By safety, we referred to--we refer to things 
like untoward incidents in the workplace or hazardous 
conditions or hazardous materials or the failure to inspect or 
to catch something. Reliability refers to completing the 
mission, that is launching safely and returning safely with all 
of the humans intact. And we--they are related to each other, 
but at the same time, the Board came to the conclusion that the 
organization and structure needed to accomplish these two goals 
with slightly--a slightly different approach. And therefore, we 
made these three organizational and structural organizations 
the--that you are conducting this hearing on. And it is the 
opinion of the Board that there is almost nothing in our 
report, which is more important than getting this right. We 
really feel that if the Board--if the Columbia Accident 
Investigation Board is going to be viewed as having been 
successful, then making these changes in NASA will be the 
measure of whether or not we were successful.
    In the area of reliability, we feel very strongly that 
separating technical and engineering authority from the 
operation of the Shuttle is the key to increasing the 
reliability and accomplishing the mission. Right now, we are 
successfully launching and recovering the crew and the Shuttle 
55 out of 56 times. And that is not what I would call a high 
reliability record. There are a lot of activities in the United 
States which are very dangerous, very hazardous, and which have 
success rates far in excess of 55 out of 56. Certainly you had 
Naval Reactors here and the Navy Submarine Program as well as 
DuPont and The Aerospace Corporation. And they--their goal is 
zero failures to accomplish their mission. And they don't 
consider 55 out of 56 to be anything to brag about. So the 
separation of the technical and engineering authority, we 
believe, is one of the keys--is the key to doing that.
    The second area is safety. As NASA is organized right now, 
the Headquarters safety organization is independent and that is 
not the issue. The problem that we have is that the 
Headquarters safety organization, Code Q, Mr. Brian O'Connor, 
with--in whom we have the highest confidence, does not have any 
line authority. He is the policy setter. And it is--it isn't 
that the Headquarters safety organization is not independent. 
That is not the issue. The problem that we have is that the 
Headquarters organization doesn't have any authority. And then 
the program and center safety organizations are subordinate and 
are dependent upon the programs and centers, that is the very 
organizations that they are supposed to check up on, are the 
ones that are funding their activities. And we have--it is 
the--so it is the program and the center safety programs that 
we think are not independent, not the Headquarters safety 
program.
    The last thing I would say before I respond to your 
questions is that the Board carefully studied these 
institutions whose representatives you just had here, plus some 
others, and we also availed ourselves of more than a dozen 
academic experts in the area of high-reliability operations and 
safety. And we will admit to you--we will admit, unashamedly, 
that we selectively picked and chose the attributes and 
characteristics of these organizations, which we thought added 
to reliability. We did not copy lock, stock, and barrel either 
the Naval Reactor's model, the SUBSAFE model, the Aerospace 
model, or any other model. We picked the attributes that we 
liked the best and put our formula in the report. And the 
longer that this report stands out here, the more scrutiny it 
has gotten, the stronger we feel that we got it right.
    So with that, Mr. Chairman, I will be glad to answer your 
questions.
    [The prepared statement of Admiral Gehman follows:]

              Prepared Statement of Harold W. Gehman, Jr.

    Good afternoon Mr. Chairman, Representative Hall, distinguished 
Members of the Committee, ladies and gentlemen.
    It is a pleasure to appear today before the House Science 
Committee. I thank you for inviting me and for the opportunity to 
provide answers to questions you may have as you endeavor to implement 
the recommendations of our report on the investigation into the tragic 
loss of the Space Shuttle Columbia and her courageous crew of seven.
    My intent during my testimony today is to provide the Committee 
with information on any of the topics explored by the Columbia Accident 
Investigation Board in the final report. I am prepared to explore any 
area in which you or the Committee are interested; however, I would 
like to remind you that now that the Board has disbanded, my ability to 
speak on its behalf is limited. I cannot comment on the progress of the 
NASA's return to flight, as I have not been involved in an oversight 
role. I do wish to make myself available to explain any facets of the 
report that may be unclear or require further clarification.
    That said, I would like to turn my attention to the questions 
provided in the charter of this hearing.
    The first question asks what it means for a safety program to be 
independent. I believe we must clarify which independent safety program 
we are discussing. The Board found that the NASA Headquarters Code Q 
safety organization is completely independent. Our finding referred to 
the Center and Program Safety Offices. We do not think the current 
process by which the Center and Program Managers ``buy'' as much safety 
as they can afford or think they need is the best organizational 
construct. When safety competes against all other budget items such as 
schedule, maintenance, upgrades, pay raises, etc., safety sometimes is 
compromised. In regards to the NASA Headquarters Safety Office 
addressed in Recommendation 7-2.5, the Board's concern was not lack of 
independence, but rather the lack of a direct line of authority over a 
safety organization whose jurisdiction runs all the way down to the 
shop floor.
    The second question concerns how to balance the organization of 
safety programs to give them sufficient robustness and efficiency, but 
without preventing the larger organization from carrying out its 
duties. Safety organizations should not have veto authority over 
operations, but they do need the expertise and depth to understand the 
systems completely, the ability to initiate and resource at least a 
minimal study or inquiry on their own without having to ask project 
management, sufficient personnel to be present at critical tests and 
inspections, proper test equipment, and sufficient resources to fund 
studies that help reveal what trends mean and what the safety 
organization should be looking for.
    Thirdly, the Committee asks how to ensure that the existence of an 
independent safety program does not allow the larger organization to 
absolve itself of responsibility for safety. The safety organization 
should not supplant the operations organization for operational 
decisions. The safety organization just needs to be robust enough and 
independent enough to study an issue, understand multiple sides and all 
the implications of the actions contemplated, come to a conclusion that 
is supported by analysis, testing and research, and then have a chance 
at the proper forum to voice their independent position.
    The Committee's last question concerns ensuring that dissenting 
opinions are heard, but avoiding the possible impasse resulting from a 
safety review process that can never reach closure. The Board has 
reached the conclusion that holding and voicing dissenting opinions is 
not the problem. The problem comes when dissenting opinions are not 
supported by data. What the CAM recommended are procedures that ensure 
that reliability and safety matters can be thoroughly examined by 
knowledgeable people with sufficient resources. This process does not 
guarantee that errors won't be made, but the current NASA process 
doesn't even give the system the chance to catch mistakes.
    Thank you, Mr. Chairman. This concludes my prepared remarks and I 
look forward to your questions.

                          Discussion, Panel II

                  ISS Safety and CAIB Recommendations

    Chairman Boehlert. Thank you very much, Admiral.
    You are aware, and so are all of us, of the issue of the 
Space Station and what has transpired over the last several 
days and the extensive coverage given to the issue and how it 
was handled. If your recommendations had been in place, how do 
you think it would have been handled differently?
    Admiral Gehman. Mr. Chairman, I do not--I only know about 
this case of the air and water quality on the International 
Space Station from what I read about in the newspapers. I do 
not have any knowledge of the actual details of who said what 
to whom and who went to what meeting and all of that sort of 
thing. But I can speak to that incident in the context of the 
mosaic presented by our report. First of all, if there are 
technical standards for air, water quality, and if there are 
monitoring instruments up there, the operation of those 
instruments and the enforcement of the air--of the 
environmental quality and the safety of the people in the 
International Space Station would be the purview of this 
engineering technical authority. And the Program Manager could 
not waive those standards. He could not say, ``No, I am going 
to go anyway.'' That is--that would not be one of his 
functions. He would have to go to the independent technical and 
engineering authority and say, ``Well, I have looked at this, 
and I have decided that we should go ahead and replace this 
crew. Even though these instruments aren't working the way they 
are supposed to, we have no reason to believe that there is''--
anyway, he would make his argument, and it would be up to this 
independent technical authority to determine whether or not it 
wanted to waive its own standards. If it chose not to waive--
and to get to your question specifically, the--whoever these 
people were who decided not to sign off on the flight readiness 
review, they would be operating in an environment in which they 
would be on the inside. That is, they are in an engineering 
environment in which actions like this are rewarded and are 
encouraged rather than having to prove that something was 
wrong.
    Sooner or later, it would have to come to some person, 
probably the head of human space flight, or something like 
that, who would have to decide which way to go. That is okay. 
And if they decided to go ahead anyway, that would be fine. But 
I--but the big difference would--the big difference in my view 
would be that, as I understand it, and Mr. O'Keefe sat beside 
me a couple of hours ago and he just explained his action here, 
as I understand it, these dissenting opinions were encouraged. 
They were fired up on. They were taken seriously, but they were 
all taken seriously because of the good graces and the 
cooperative attitude of management. And I--the history of the 
Space Shuttle Program and NASA, going all of the way back to 
Apollo, indicates that over a period of 18 to 24 months, those 
good graces and that cooperative attitude will atrophy and the 
old pressures of schedule and manifest and cost will come back 
again.
    Chairman Boehlert. And it never got topside until the last 
72 hours. I mean----
    Admiral Gehman. Yeah, that--I don't know any of those 
details, but the big difference would be, in my opinion, that 
these dissenting opinions, these concerns would be voiced in an 
organization that was not concerned about schedule, not 
concerned about cost, and it would be in a friendly 
environment. These people would not be, kind of, on the outside 
trying to get their way in.

                      Safety Program Independence

    Chairman Boehlert. Well, what--how do you consider the 
Naval Reactors Program independent, because we just heard from 
Admiral Bowman that there is nothing separate? I mean, safety 
is everybody's business. It is the culture that he is talking 
about. Everybody is totally immersed in safety first and 
foremost. And it--there doesn't seem to be the independence 
that you outlined, the Board outlined in its recommendations.
    Admiral Gehman. Mr. Chairman, I listened to part of that, 
and I think that there was a misunderstanding, even though 
Admiral Bowman tried to clear it up at the end. Admiral Bowman 
and his organization are responsible for the Reactor and all of 
the requirements of the Reactor, all waivers to the Reactor, 
and all operations of the Reactor, but they are not responsible 
for the ship, the submarine. There is a--the Fleet is 
responsible for the operations of the submarine. And that is 
our model with--the Program Manager who is responsible for the 
operations of the manifest of the Shuttle and then a technical 
authority that is responsible for the technical specs and 
requirements of the Shuttle.
    Admiral Bowman and his organization can say, ``That Reactor 
is not ready to operate,'' in which case the Fleet Commander 
can't operate the submarine. But Admiral Bowman doesn't operate 
the submarine. Once he says it is okay, then someone else 
decides where the submarine goes, how fast it goes, what date 
it goes out----
    Chairman Boehlert. Got it.
    Admiral Gehman [continuing]. When it comes back, and so 
when he says that the whole line organization is responsible 
for safety, he was referring to his line organization. He was 
referring to his pump guys and his----
    Chairman Boehlert. Thank you for that clarification.
    Admiral Gehman. Yeah.
    Chairman Boehlert. Ms. Jackson Lee.

                               ISS Safety

    Ms. Jackson Lee. Thank you very much, Mr. Chairman, again. 
And thank you, Admiral Gehman----
    Admiral Gehman. Thank you.
    Ms. Jackson Lee [continuing]. For having the willingness to 
be at bat more than once today.
    Since you have been here, your work is continuing, and our 
challenges are continuing. And so rather than dance around the 
question, let me go right to it. You had been answering the 
question, but might I say that I think we were engaged earlier, 
as you well know, when I say we, myself in questioning, raised 
the issue of safety on the International Space Station. And I 
think now we are in dialogue through written communications to 
try and expand on that understanding. I believe that maybe it 
was good for us to have this happen sooner rather than later 
with respect to the issue of exposing the difficulties.
    There are two prongs that I would like to probe with you. 
One, we found, again, if you will, and you have not done an 
extensive review of the Space Station but use your background 
and experience with your view of Columbia 7, the tragedy that 
occurred there. The first prong, of course, is that there were, 
in this instance, two very vocal scientists who offered their 
opinion and, I believe, refused to sanction and/or prove the 
sending of two additional astronauts to that--to the Station. 
What should have happened or what went wrong, maybe that would 
be the better approach, that they were either overrun, 
superseded? Was that healthy? Was there--and you may be 
gleaning this from newspaper articles, but what went wrong from 
that perspective?
    The other perspective is that is it viable and important at 
this time now to do a comprehensive safety assessment on the 
Space Station? Again, I remain committed to the value of humans 
in space and certainly human Space Shuttle. But for it to be a 
successful experiment, which I think Space Station is, there is 
no doubt that we are still experimenting with what goes on in 
space, but do we need that right now without one moment's rest 
or stop in beginning to assess the safety issues on that--on 
Space Station?
    Admiral Gehman. Thank you very much, Ms. Jackson Lee.
    From what I understand of the incident over--the incident 
having to do with the approval of the Crew 8 mission, I believe 
that it is--if you take the matrix or the test of the Columbia 
Accident Investigation Board report and apply it to that event, 
I believe it looks like this. In the first case, there is some 
good news. For example, one of the issues that we raised in our 
report was it--that it seemed to us that over the years that 
engineers and scientists had to prove that a situation was 
unsafe before the Shuttle Program would take any action, 
whereas in the original days, you had to prove it was safe in 
order to go forward. And the fact that the test now seems to be 
``prove to me that it is unsafe'' is the wrong question. For 
example, in the case of the engineers in the case of Columbia 
who wanted photography, wanted imagery on-orbit, they were told 
to prove that there was a problem before management would go 
ahead and get the photography. That is a case of ``prove that 
it is unsafe before I take any action,'' whereas the original 
Apollo philosophy was ``you have to prove to me that it is safe 
or I am not going to go forward.''
    Okay. In the case of the atmosphere and the water 
situation, the human conditions on board the International 
Space Station, it does appear to me that NASA management asked 
the question, ``All right, you are going to have to prove to me 
that it is safe.'' That is the correct question. So it looks to 
me like they have learned that--in this case, they have learned 
their lesson. The--so that is the good news in this particular 
incident.
    The bad news, or the thing that I am concerned about is the 
same issue that I brought up with the Chairman and that is it 
appears to me that it took the intervention, the act of 
intervention of management to resolve this issue. In other 
words, the system didn't take care of this problem by itself. 
And a year from now, or 18 months from now, when cost and 
schedule pressures have resumed, I am--I don't think we want to 
rely upon the intervention of management to snatch victory from 
the jaws of defeat. I think we want to institutionalize a 
process by which these issues can be raised and sorted out 
without having top-level management intervene.
    Chairman Boehlert. Thank you very much, Admiral.
    Admiral Gehman. And the second question, to get to your 
second question, we kind of have a cookbook here. We only 
looked at the Shuttle Program. I think that probably the 
International Space Station Program ought to be looked at, 
also, but I--but not with the same urgency, of course.
    Ms. Jackson Lee. Thank you.
    Chairman Boehlert. Thank you, Ms. Jackson Lee.
    Mr. Rohrabacher.

                         Leadership Confidence

    Mr. Rohrabacher. Yes. Admiral Gehman, Mr. O'Keefe, Director 
O'Keefe, has my full faith in his decision-making. Does he have 
your faith?
    Admiral Gehman. Yes, sir. I--of course, I only have seven 
months of experience, I mean, since the 1st of February, and--
--
    Mr. Rohrabacher. Almost as much as his.
    Admiral Gehman. Well, that is right. He is--that is right. 
He has only been there slightly longer than that, but in the 
course of this investigation, he has provided us all support, 
everything we have asked for. He has taken all of the right 
moves, as far as I can tell, so yes. The answer is yes.

                               ISS Safety

    Mr. Rohrabacher. Okay. And the episode with this Space 
Station decision that had to be made, you were satisfied with 
the way that that has been handled?
    Admiral Gehman. Well, once again, I don't know the details 
of who said what to whom. And--but it did appear to me, just 
based on the limited knowledge that I have, including listening 
to Mr. O'Keefe explain it to the CST this morning, that it took 
the active intervention of management to bring this issue up to 
the proper level. And I would rather see a system at work in 
which it didn't take the active intervention of senior managers 
to bring something up. It ought to come up automatically.
    Mr. Rohrabacher. And since the issuance of your report, 
your--you would give NASA an ``A''? A ``B''? A ``C''? An ``F''?
    Admiral Gehman. Since the issuance of our report, myself 
and other members of the Board have continued to dialogue not 
only with NASA on a regular basis, we have been asked--invited 
by Mr. O'Keefe to come over and address his senior management, 
and we continue to hammer, and hammer, and hammer. But also, we 
have an active dialogue going on with the Stafford Covey Return 
To Flight Task Group so that they understand exactly what we 
mean by every recommendation. So we are--you know, it is early 
yet, and we are still in the thinking stage. We are not in the 
doing stage yet, but so far, so good.

                                 Vision

    Mr. Rohrabacher. One of the things that I believe we 
discussed when you were sitting there before was the lack of--
the importance of a lack of vision statement and the importance 
of lack of an overall goal that people would--could unify 
behind and those type of goals actually energize the system. I 
haven't seen anything come forward from the Administration yet 
along those terms. Is it necessary? Do you still believe that 
it is necessary to have this vision and unified concept for 
NASA to work at its peak efficiency?
    Admiral Gehman. Yes, sir. The Board was quite 
straightforward and firm in that finding. It wasn't a 
recommendation, but we felt very strongly that the lack of an 
agreed, and by agreed I mean both ends of Pennsylvania Avenue 
as well as the American public, an agreed vision for what we 
want to do in space gets in the way of a lot of very practical 
day-to-day things. For example, NASA doesn't know, nor do you 
know, how much money to put into infrastructure upgrades if you 
don't know where you are going. You don't know how much money 
and how high a priority Shuttle upgrades and Shuttle safety 
upgrades should be accorded, because you don't know how long 
the Shuttle is going to last. You don't know--NASA doesn't know 
how to justify to you major investments. And indeed, in the 
case of the orbital space plane, it is not clear exactly what 
this thing is supposed to do because we don't have an agreed 
vision as to what we want to do.
    So it gets in the way of doing business on a daily basis, 
not only at the national level, not only at your level, but at 
the practical level down at the Cape and down at Marshall, 
because they----
    Mr. Rohrabacher. And in terms of the individual level, you 
might correct me if you disagree, but I imagine you do, that 
individuals who are working within a system are energized and 
there is a new dynamic created in their--in the way they work 
and the care that they take if they feel that they are part of 
something that is much larger than just the task of the day. 
And without a consensus or a concept that is going to--a 
unifying concept, we are not going to be able to do our job, 
are we?
    Admiral Gehman. Well, I think that the--all of the workers 
and all of the scientists and engineers as well as the 
contractors that we came in contact with, which was quite 
extensive, as you know, because we did interviews on the shop 
floor, we did interviews in the back room, they all appeared to 
be motivated and serious and quite dedicated to their project. 
I think I mentioned to you and to other Members of this 
committee that early in our investigation, we were--when we 
were doing view graph 101, when we were getting hundreds and 
hundreds of view graphs, we actually had presenters choke up 
and break down while they were briefing us, just to show how 
dedicated they are.
    But I believe that--in the--that where your question really 
hits the mark, Mr. Rohrabacher, is in the area of problem 
solving. Now if we don't really have a good vision, a good, 
exciting vision that people can buy into, we don't really 
address some of the problems as aggressively and imaginatively 
as they would if they knew where they were going.
    Mr. Rohrabacher. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Boehlert. Thank you very much.
    Mr. Wu.

              Expedition 8 Launch Decision-making Process

    Mr. Wu. Thank you, Mr. Chairman.
    Thank you for coming again, Admiral.
    I want to ask one question and then one follow-up. And the 
question is--somewhat follows up on the Chairman's earlier 
question and Ms. Jackson Lee's earlier question about the 
decision to launch this latest group of people to the 
International Space Station and the fact that there were, in 
fact, in essence, two dissenting opinions. And there was a 
process. There was dissent. There was discussion, and 
apparently that occurred over a period of time, and now there 
are two astronauts in the International Space Station. We have 
a solar flare that occurred yesterday and it is arriving just 
about at this time: an unpredicted event, difficult to predict, 
and in this case, unpredicted. Was this decision-making process 
and the fact that now these two astronauts have to get into the 
thickest part of the International Space Station and move water 
around, perhaps, and so on, is that a sign that the process is 
working because two people were able to consent, or is that a 
sign that this process is not improving because we are where we 
are with the solar flare and two astronauts up and the 
radiation monitors not working?
    Admiral Gehman. Right. Well, my understanding--and 
certainly we studied this in the case of the Shuttle Program in 
great detail. My understanding is that in the process of 
certifying a vehicle for a launch or a mission to go, I would 
consider dissent to be a good thing. There are so many 
variables and so many pieces and so many subsystems that--there 
are so many risks and so many assumptions that have to be made 
that if everybody said, ``Yes, yes, we are ready to go. No 
problems. Everything is good to go,'' I would be suspicious 
that somebody is hiding something from me, because it is so 
complex and so dangerous. There is so much energy involved. 
There are so many systems involved. There has got to be some--
out there, there has got to be somebody who is having a little 
problem with his system or he has some doubts about something. 
And if that person doesn't speak up, that is what I would be 
concerned about.
    So the fact that there were some environmental scientists, 
or medical doctors in this particular case, who were concerned 
about some aspect of it, to me is not a sign of a failure or a 
sign that anything is going wrong or anything like that. The 
lack of any dissent would cause my suspicions to go up. And 
once again, I do not know in detail of how this dissent was 
handled or who did what to whom and who held what meeting, only 
what I have heard Mr. O'Keefe testify to this morning and what 
I have read in the newspapers. And I had already said that it 
looked to me like it took active management intervention to get 
that sorted out. And that is not a long-term formula for 
success.
    Mr. Wu. Thank you, Admiral.
    The follow-up question I have is that, according to what I 
have heard, Administrator O'Keefe learned of this problem only 
days before the launch even though the dissents occurred a 
significant time prior to that. And as a Member of this 
committee, I don't know if the Chairman had better access to 
the information, but I learned about the dissents through the 
newspaper. Is this--the panel we had earlier said, ``You know, 
one of the things about safety is you build it in so that it 
goes to the top and everyone has responsibility and the loop 
loops in the person who is ultimately responsible.'' And the 
fact that, perhaps Administrator O'Keefe did not know until, 
maybe, soon before the launch and that members of this 
oversight committee didn't know until it was published in the 
newspaper post-launch, is that a sign of a challenge or a 
problem to be faced?
    Admiral Gehman. I think we should not comment on that here, 
because in his testimony this morning before the Senate, Mr. 
O'Keefe said that that was not true. And we ought to let him 
sort this out. As I say, I do not know who said what to whom on 
what day, but in his testimony this morning, Mr. O'Keefe said 
that that press report of when he was told and how he was told 
was inaccurate. And so we ought to let him sort that out.
    Mr. Wu. Thank you, Admiral.
    Chairman Boehlert. Thank you.
    Mr. Wu. Thank you, Mr. Chairman.

                     ITEA and Safety Staff Turnover

    Chairman Boehlert. A quick one before I go to Mr. Smith for 
the final question for you. How important do you think it is, 
Admiral, to have longevity in the staff of the independent 
technical and safety organizations?
    Admiral Gehman. Well, I think that longevity is one of the 
attributes that would aid in the efficiency and effectiveness 
of that organization. It is also the opinion of the Board, by 
the way, that this independent technical and engineering 
authority or whatever it eventually gets called, would also aid 
in some of NASA's career progression and retaining issues, 
because right now there are very troublesome career moves of 
into contractors and out of contractors and back and forth. And 
I would really like to see a more healthy progression of, you 
know, into the--into a true engineering organization than back 
into the program and back into engineering. So we think it is 
very important.
    Chairman Boehlert. That is a view we share. It is--we are 
working with NASA to give them the ability to restructure in 
how they do things and to treat their workforce a little bit 
differently because of the proven need.
    All right. Mr. Smith, for the final----

                               ISS Review

    Mr. Smith. Mr. Chairman, I am--very briefly. And Mr. 
Chairman, I agree with you that Administrator O'Keefe was 
correct when he decided that the reorganization of NASA should 
occur before the return to flight, really setting a more 
ambitious schedule than that called for by the CAIB.
    Admiral, let me ask you exactly what you meant when you 
said there should be a further evaluation of the Space Station. 
Are you talking about policy, goals, objectives, what it is 
accomplishing, or are you talking about safety?
    Admiral Gehman. Any kind of a review whatsoever. I am 
speaking--that was a private opinion. So I have got no evidence 
to go on to indicate that there were--there are any problems in 
International Space Station.
    Mr. Smith. Well, there is hope----
    Admiral Gehman. But my private opinion is, though, that the 
kind of look we looked at their management schemes here and how 
safety is handled probably would be a good idea for the 
International Space Station to get the same kind of 
examination.
    Mr. Smith. But even more than that, I would think, last 
weekend, I am sure you are aware that a report by NASA 
scientists was, for lack of a better word, leaked that 
described the human physiological research at the Station as 
voodoo science. And NASA science, I think, has identified that 
the physiological research on humans is essentially all of the 
justification why humans would be in space. And of course, I am 
an advocate of dramatic reductions at this time of real 
financial problems with the Federal Government and the debt 
that we are facing to review all programs. And so I think when 
we look at the Space Station, we also need to look at what it 
has accomplished. And I think that we should consider, in some 
kind of investigation, whether it is--and I suspect maybe you 
would like to visit with your family some more as far as you 
taking the responsibility of it, but should we drastically 
reduce manned space flight and should we maybe abandon the 
Space Station?
    Admiral Gehman. I am sorry. I am going to have to defer on 
that----
    Mr. Smith. I knew you--all right.
    Admiral Gehman [continuing]. Mr. Smith. We did not look--we 
did a lot of ancillary research to make sure that the report 
that we wrote was--is in much context as we possibly could. We 
put it in budget context, history context, everything else 
like--but the one context that we did not look at was the 
argument between how much human space flight is enough. And so 
I just am not a----
    Mr. Smith. And again, thank you for your great work and 
service to the country.
    Admiral Gehman. Thank you.
    Mr. Smith. And Mr. Chairman, I yield back. Thank you.
    Chairman Boehlert. Thank you very much. And what you said, 
very eloquently, and you have said it many times, we need a 
national debate, a good thorough vetting of the issues. And we 
have got to reach some sort of a consensus that gives us a 
vision.
    Admiral Gehman. Yeah.
    Chairman Boehlert. And we have got to work toward it. Thank 
you very much, Admiral Gehman.
    Admiral Gehman. May I make one 30-second last closing 
statement here----
    Chairman Boehlert. By all means.
    Admiral Gehman [continuing]. And that is that the 
fundamental--the three fundamental organizational 
recommendations that we made that is there should be an 
independent technical engineering authority. That is the most 
important one. That the Headquarters safety organization should 
have line authority. Now that doesn't mean that the Program 
can't have a safety organization and the center can't have a 
safety organization. They certainly can. But for the--for your 
head of safety to be only a policy-setter doesn't seem to be--
--
    Chairman Boehlert. Right.
    Admiral Gehman [continuing]. Reason for us. And the last 
one, that the Shuttle Program should have a true integration--a 
systems integration office, which it does right now. In 
reflection over time and listening to all of the experts, we 
are more convinced than ever that those are good, solid 
recommendations, and we stand by them. And I didn't hear 
anything from this panel this morning which changed my opinion.
    Thank you very much, Mr. Chairman.
    Chairman Boehlert. Well, thank you. And you have not 
disappointed us. We have always come to recognize that we get 
good, solid recommendations from you.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 12:19 p.m., the Committee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Admiral F.L. ``Skip'' Bowman, Director, Naval Nuclear 
        Propulsion Program, U.S. Navy

Questions submitted by Representative Ralph M. Hall

Columbia Accident Investigation Board Recommendations

Q1.  How will we know that NASA has implemented the Columbia Accident 
Investigation Board (CAIB) recommendations? What measures do you use in 
your organization to determine that your safety mechanisms are working?

A1. I do not have firsthand knowledge of the pertinent details of 
NASA's technology and organization. However, I do note that in many 
ways they are different from that of the Naval Nuclear Propulsion 
Program (NNPP). Therefore, I cannot provide useful guidance on how to 
best determine if the CAIB's recommendations are implemented.
    As to how I determine if safety mechanisms are working in my own 
Program, I have several methods using many inputs. My staff and I are 
personally informed of or briefed on every significant naval nuclear 
propulsion plant problem; from this, we determine if additional causes 
need to be identified or if additional corrective actions (technical or 
administrative) need to be taken. In addition to performing site 
inspections, Reactor Safeguards Examinations (RSE), and personal site 
or ship visits, my staff and I receive reports from my many field 
representatives, from contractor and other Program organizations, and 
from commanding officers of nuclear-powered ships. I expect them to 
find problems--if they don't, my instincts based on a more than 30-year 
career as a nuclear-trained operator tell me that they probably aren't 
looking hard enough. Issues identified in those reports are evaluated 
to see whether corrective actions (again, either technical or 
administrative) are required. Similarly, I expect dissenting opinions 
on difficult decisions and if there are no dissenting opinions, my 
experience tells me that they haven't asked all the right people for 
input. In addition, I frequently insert my own ``dissenting opinions'' 
(``devil's advocate'') into the discussion and have those carefully 
examined. As Admiral Rickover said, ``One must create the ability in 
his staff to generate clear, forceful arguments for opposing viewpoints 
as well as for their own. Open discussions and disagreements must be 
encouraged, so that all sides of an issue will be fully explored.''
    My safety inspection process is extensive. Headquarters personnel 
at the most senior level personally evaluate performance and compliance 
in the field. Headquarters staff conducts regular inspections of work, 
safety, and environmental and radiological controls. Headquarters 
evaluation teams are made up of the technical-requirements owners (who 
are responsible to me for all safety aspects of their areas) for the 
particular areas being assessed. This ensures that the evaluation team 
has an indepth understanding of not only the requirement, but also its 
significance, letting the evaluation team identify issues and trends 
that might not be discerned if auditing were done solely by checklist. 
Additionally, field office personnel routinely conduct audits and 
inspections as part of their responsibility to monitor the work of 
Program laboratories, prototypes, the Fleet, shipyards, and prime 
contractors. The DOE laboratories, the nuclear-capable shipyards, and 
the Fleet also must conduct self-audits, assessments, and inspections. 
My Headquarters staff, field office personnel, senior Fleet personnel, 
and I then critique these self-reviews, as appropriate.
    Of course, the bottom-line measure of the success of the safety 
mechanisms is prevention of any event that could affect the health and 
safety of the public and Navy personnel or the environment. Therefore, 
we don't let near misses or even initiating events pass unchallenged. 
The hallmark of a strong safety culture is to look continually and 
actively address the minor problems in order to prevent the major 
problems.

Q2.  The CAIB recommends a separation between the operational aspects 
of the Shuttle program and the organizations providing engineering and 
safety support. Based on your experience:

Q2a.  Do you agree with this as a principle for managing your program?

A2a. In the Naval Nuclear Propulsion Program (NNPP), my Headquarters 
and Field Office staff that provides engineering and safety support 
also provides operational oversight (as opposed to operational control, 
which is assigned to the Fleet for ships and to the Prime Contractors 
for their laboratories and prototype reactors). I do not agree with the 
principle of completely divorcing all operational aspects of a 
technical program from engineering and safety support for that program. 
The technical expertise from engineering and safety is necessary in the 
proper oversight of operations. Most importantly, I consider it vital 
for the technical authority to be one and the same as the safety 
oversight to ensure indepth and continuing understanding, awareness, 
and ownership of all aspects of design and operation.
    For Fleet operations, Headquarters and Field Offices are 
responsible for the engineering and safety aspects relating to nuclear 
power. The Fleet operates the nuclear-powered warships in accordance 
with the safe operating procedures my organization provides them. The 
Prime Contractors operate prototype propulsion plants, following 
similar procedures. Changes to technical standards or operational 
procedures require my Headquarters' approval.

Q2b.  Where do you place the boundaries between these three program 
elements in your program and how do they interact?

A2b. Within my organization, safety is the responsibility of everyone 
at every level: equipment suppliers, contractors, laboratories, 
shipyards, training facilities, the Fleet, field offices, and 
Headquarters. It is not a responsibility unique to a segregated safety 
department that then attempts to impose its oversight on the rest of 
the organization. Put another way, safety is mainstreamed. I expect to 
be able to ask any of my direct reports about the safety significance 
of any action in which they are involved and have them be able to 
explain the issues and why the action is satisfactory.
    Because of the mainstreaming philosophy, some elements of the 
Program (such as shipyards and the Fleet) do not even have a separate 
reactor safety department. However, I do have a small group of people 
responsible for reactor plant safety analysis, who provide policy 
oversight as well as most of the liaison with other safety 
organizations (such as the NRC) to help ensure that we are using best 
practices. They also maintain the documentation of procedures and 
responsibility for the modeling codes used in our safety analyses. They 
are full-time safety experts who provide our corporate memory of what 
the past problems were, what we have to do to maintain a consistent 
safety approach across all projects, and what we need to know about 
civilian reactor safety practices. In addition, this group is part of 
our technical reviews to ensure that our mainstreamed safety practices 
are in fact working the way they should by providing an independent 
verification that we are not ``normalizing'' threats to safety.
    While safety is mainstreamed throughout the Program, technical 
authority is vested in my Headquarters. Any other Program organization 
must get my Headquarters' agreement for any changes in technical 
standards and operational procedures. Sometimes this requires decisions 
that affect ship operations, which is one reason the Director of the 
NNPP needs to have a technical engineering background, with career-long 
experience in naval nuclear propulsion, and the seniority of a four-
star admiral. Congress recognized this need and enacted it as a 
requirement in law.

Q2c.  What training and experience do, you require, in your senior 
managers, and what incentives do you provide such managers?

A2c. Nearly all of my technical staff at Headquarters came to the NNPP 
right out of college and with science or engineering degrees. They 
receive NNPP-specific engineering training during their early years 
with the Program and continue to receive specialized training 
throughout their careers with us. At the end of their initial 
obligation, we offer permanent positions to those individuals who in 
our judgment have the requisite technical capabilities that best 
embrace our cultural values, such as mainstreaming safety. These are 
the people that go on to become my senior managers--a great many 
spending their entire adult lives and careers in the Program.
    My section heads, the senior managers who report directly to me, 
have an average of more than 25 years of Program experience. However, 
mere longevity is not a requirement: a suitably capable individual with 
less time in service could become a section head. I select the best-
qualified personnel as my senior managers.
    As a performance measure, safety is not tied to incentives. Rather, 
it is a shared value among all engineers within the NNPP. My engineers 
won't be promoted to senior positions unless they demonstrate that they 
have embraced the importance of safety in their work and have ingrained 
this attitude in their subordinates, including fairly and completely 
vetting dissenting opinions.

Threats From Minor Problems

Q3.  In both Shuttle accidents, NASA failed to appreciate the threat to 
the vehicle from what seemed a minor problem--O-ring seals that did not 
seem to work well in cold weather and foam that sometimes struck the 
Orbiter's thermal protection system.

Q3a.  How does your organization deal with similar ``weak signals''?

A3a. In a high-risk environment, there are no guarantees of success, 
but our record demonstrates the value of hard work in addressing the 
``weak signals.'' As an organization, we do not allow weak signals to 
go unanswered. An important part of our technical effort is working on 
small problems to prevent bigger problems from occurring. We measure 
and track minor deficiencies to identify trends. Then we ask the hard 
questions on even apparently minor issues: What are the facts? How do 
you know? Who is responsible? Who else knows about the issue and what 
are they doing about it? What other ships or activities (e.g., the labs 
or prototypes) could be affected? What is the plan? When will it be 
completed? Is this within our design, test, and operational experience? 
What are the expected outcomes? What is the worst that could happen? 
What are the dissenting opinions? These and other questions like them 
help us to solve the problem at hand before it gets worse. As an 
example, I personally read letters (required at least quarterly) from 
each of the commanding officers of our 82 nuclear-powered warships. I 
look for these ``weak signals'' in their reports and flag them to 
cognizant headquarters personnel for resolution through this process. 
Additionally, my Headquarters and field organizations conduct periodic 
inspections in the field to determine the effectiveness of the 
individual activities in identifying, assessing, and resolving such 
deficiencies.

Q3b.  How does your organization evaluate problems to determine if they 
represent recurring failures that require changes in design or 
processes if they are to be dealt with? Who conducts those evaluations?

A3b. Even minor problems under Headquarters' consideration require 
formal and disciplined review, together with official action and 
resolution correspondence signed by the cognizant Headquarters 
engineers. Any issue that, in our view, could recur and have 
undesirable consequences is assessed for the need for corrective action 
by my Headquarters staff. Where my staff concludes that action is 
warranted, I task the prime contractor laboratories with further 
assessment and with recommending corrective action. If the issue is 
time-sensitive, the Naval Nuclear Propulsion Program (NNPP) will 
immediately issue guidance by naval message to any ships or in writing 
to any training reactors that may be affected.

Q3c.  For recurring problems, does your organization have the 
capability to analyze the trend to determine if it could contribute to 
a low-probability, high-consequence accident?

A3c. The Naval Nuclear Propulsion Program (NNPP) conducts extensive 
self-audits and performs various analyses of trends. Multiple 
organizations (my Headquarters organization, Nuclear Propulsion 
Examining Boards, Fleet headquarters, type commanders, naval squadrons, 
shipyards, and laboratories) are notified when problems arise and can 
call for further evaluation and correction based on recognition of a 
trend or precursor event requiring correction. Put simply, recurring 
problems aren't ``normalized.'' We do everything we can to engineer 
them out of our system before they become major issues.

Q3d.  How much certainty would your organization require to take action 
in a case where your relevant technical expert strongly believed a 
catastrophe could occur but did not have the engineering evaluations to 
confirm that judgment--and little or no time to conduct such 
evaluations?

A3d. To determine the relative importance of individual discrepancies, 
I rely on my engineering judgment and that of my experienced managers 
and engineers throughout the Program. If there were a strong belief, 
even if only by a single individual, those unacceptable consequences 
are a possibility, the issue would be attacked at: the technical level 
by my DOE labs and Headquarters experts and then discussed with me. All 
relevant technical facts would be presented, and an appropriately 
conservative course, balanced by military necessity, would then be 
chosen. This would not always mean that the reactor, and therefore the 
ship, must stand down from operation, but it might require additional 
operational precautions that suitably offset the situation under 
consideration. The Director, as a four-star admiral with a career of 
nuclear experience and a long tenure (the law stipulates eight years), 
is essential to making this come out right. Engineering is not an exact 
process--there is no single absolutely correct answer to every problem. 
The NNPP, as instituted by Admiral Rickover and as it continues to this 
day, embraces the philosophy that airing dissenting opinions helps 
invigorate the technical evaluation process and minimize the chance 
that a technically significant issue is overlooked.

Question submitted by Representative Bart Gordon

Operational and Developmental Safety Structures

Q1.  Does it matter in your organization whether a vehicle or product 
is deemed ``operational'' versus ``experimental/developmental''? Do you 
have a different safety structure for operational activities versus 
those that are developmental in nature?

A1. Our safety structure and processes are independent of the 
operational designation of the product. However, the margin of 
conservatism will be even greater when we are dealing with a 
developmental system. We test components, subsystems, and then systems 
(often to the point of failure in tests prior to ships' use), to ensure 
that unexpected results are minimized in operational warships. We then 
thoroughly test the ships and crew pier side to confirm the 
acceptability of the systems and the training of the crew. When I take 
a ship to sea for the first time, on sea trials in which I directly 
participate, I confirm that both the propulsion plant and crew are 
fully capable and ready to join the Fleet. Once a ship is in 
commission, it is deemed ``operational''--regardless of whether it is 
the first or the last of a class.

Questions submitted by Representative Nick Lampson

Safety at Every Level

Q1.  Admiral Bowman testified that, ``Safety is the responsibility of 
everyone at every level in the organization,'' a sentiment echoed by 
Ms. Grubbe in her statement--but in day-to-day program activities, 
safety is not a primary metric for measuring performance. Safety 
usually becomes an issue only after it is clearly seen to be absent. 
What specific actions does your organization take to maintain the focus 
on safety when the pressures to achieve organizational goals inevitably 
build?

A1. Safety is an overarching organizational goal. We recognize that the 
ability of the Navy to operate nuclear-powered warships in over 150 
ports of call in more than 50 countries around the world is based on 
the trust we have earned and maintained by safely steaming over 129 
million miles. If we do not deliver and maintain safe naval nuclear 
propulsion plants, we have failed our crews, our Navy, and our country. 
Everyone in the Naval Nuclear Propulsion Program (NNPP) understands 
this. We all understand (and are trained in this from our first day in 
the NNPP) that the only acceptable answer is the technically correct 
solution. We also recognize that no technology is risk-free. We 
benchmark actions against requirements and past practices, require that 
a design or change be proven technically correct, and identify any 
alternatives. If the only technically safe acceptable action is one 
that affects cost and schedule to an extent that cannot be accommodated 
within available resources or schedule, we slow the schedule and/or add 
the additional resources.
    Additionally, the very fabric of my Headquarters organization 
ensures that safety is mainstreamed for the long haul. Headquarters 
personnel are handpicked and have a common broad heritage of technical 
Program training and experience that permit the necessary esprit de 
corps and shared values. These factors (together with the independence 
of our technical authority from others in the Navy who are primarily 
charged with ``cost, schedule, and mission'') permit us to provide 
effective direction and oversight. Safety is not just a way to measure 
performance: it's the result of a process that must be followed from 
start to finish if we are to achieve the desired result.

Technical Authority and Safety Assurance

Q2.  In your organization, do you have units performing the functions 
of an independent technical authority and office of safety assurance? 
How do they interact within your organization? If you don't, why not?

A2. In my DOE ``hat,'' my Headquarters is the absolute technical 
authority for all naval reactor plants. Therefore, any other 
organization must get my Headquarters' agreement for any changes in 
technical standards and operational procedures. Sometimes this requires 
decisions that affect ship operations, which is one reason the director 
of the Naval Nuclear Propulsion Program (NNPP) needs the seniority of a 
four-star admiral. Congress recognized this need and enacted it as a 
requirement in law.
    I don't separate technical authority and safety assurance. They are 
part and parcel of the same process. For the Navy, my organization is 
responsible for the engineering and safety aspects relating to nuclear 
power. The Fleet operates the nuclear-powered warships in accordance 
with safe operating procedures my organization provides them. In the 
NNPP, the same staff that provides engineering and safety support also 
provides operational oversight (as opposed to the Fleet's operational 
control). Safety is the responsibility of everyone at every level of 
the Program. In other words, safety is mainstreamed. It is not a 
responsibility unique to a segregated safety department that then 
attempts to impose its oversight on the rest of the organization. This 
is the only way safety can be ensured effectively, since no separate 
office of safety can have the depth of technical knowledge and 
personnel resources to cover an entire, complex technical program in 
the detail necessary to fulfill a safety responsibility.
    Although the various elements of the Program (such as shipyards and 
the Fleet) do not have a separate reactor safety department, I do have 
a small group of people responsible for reactor plant safety analysis. 
They provide policy oversight as well as most of the liaison with other 
safety organizations (such as the Nuclear Regulatory Commission) to 
help ensure that we are using best practices. They also maintain the 
documentation of procedures and upkeep of the modeling codes used in 
our safety analyses. As full-time safety experts, they provide our 
corporate memory of what the past problems were, what we have to do to 
maintain a consistent safety approach across all projects, and what we 
need to follow in civilian reactor safety practices. By providing an 
independent verification that we are not ``normalizing'' threats to 
safety, each additional group involved in a technical review also 
ensures that our mainstreamed safety practices are in fact working the 
way they should.

Questions submitted by Representative Sheila Jackson Lee

Safety Training and Awareness

Q1.  How is safety training done in your organization? How is safety 
awareness maintained in your organization? Please describe the kinds of 
training materials you use.

A1. Allow me to break my answer into elements dealing with my 
Headquarters and the U.S. Navy Fleet.
    Safety awareness is built into every part of our work, including 
our extensive training programs. Thorough training minimizes problems, 
results in quick and efficient responses to issues, and helps ensure 
safety. At my Headquarters, I select the best graduate engineers I can 
find, with the highest integrity and the willingness to accept complete 
responsibility for every aspect of nuclear-power operations. After I 
hire them, the training they need to be successful begins immediately. 
All members of my technical staff undergo a technical indoctrination 
course during their first several months at Headquarters. Next, they 
spend two weeks at one of our training reactors (prototypes), learning 
about the operation of the reactor and observing and participating in 
the training our Fleet sailors are undergoing. This involves an actual, 
operating reactor plant, not a simulation or a PowerPoint 
presentation--and it is an important experience. It gives them an 
understanding that the work they do affects the lives of the sailors 
directly, while they perform the Navy's vital national defense role. 
This direct experience helps reinforce the tenet that the components 
and systems we provide must perform when needed.
    Shortly after our new people return from the training reactor, they 
spend 6 months in residence at one of our DOE laboratories, completing 
an intensive, graduate-level course in nuclear engineering. Once that 
course is complete, they spend three weeks at a nuclear-capable 
shipyard, observing production work and work controls. Finally, they 
return to Headquarters and are assigned to work in one of our various 
technical jobs. They then attend a six-month series of seminars on a 
wide range of technical and regulatory matters, led by the most 
experienced members of my staff. Each of these training experiences is 
saturated with the principles of reactor safety through high quality 
assurance of plant material, conservative design, and verbatim 
adherence to procedures.
    At Headquarters, there is a continual emphasis on professional 
development. We typically provide training courses that are open to the 
entire staff each month on various topics, technical and non-technical. 
In particular, we have many interactive training sessions on lessons 
we've learned--mistakes that we, or others, have made--in order to 
prevent similar mistakes in the future. These sessions teach both the 
specific issues and the right questions to ask.
    Throughout their careers, the members of my staff are continually 
exposed to the end product, spending time on the waterfront, at the 
shipyards, in the laboratories, at the vendor sites, or interacting 
directly with the Fleet. In addition, the constant interaction among 
Headquarters personnel provides me with an arsenal of individuals who, 
though charged with responsibilities in specific areas, are capable and 
knowledgeable of overarching Program interests and are expected to act 
accordingly. Every one of these activities and perspectives emphasizes 
the vital role of safety.
    My responsibilities also include training the operators of nuclear-
powered warships. I require both officer and enlisted operators to 
undergo 6 months of formal academic instruction in nuclear propulsion 
theory and technology, followed by 24 weeks of hands-on operational and 
casualty training at an operating prototype or moored training ship 
(MTS). Even after completing this training and qualification as an 
operator at a prototype or MTS, personnel must completely requalify 
(including familiarization steps and watch standing under instruction) 
on the ship to which they are assigned before they are permitted to man 
a propulsion plant watch station on that ship. For both officer and 
enlisted nuclear-trained personnel, there is continuing training and 
required periodic requalification in the Fleet throughout their 
careers. My prime contractor personnel who operate the prototype 
reactors get equivalent training.
    For the officers, a significant milestone in their career path is 
qualification as an engineer officer. This signifies an officer has 
obtained sufficient knowledge to supervise safe, effective maintenance 
and operation of the ship's propulsion plant. When the commanding 
officer (CO) is satisfied with a junior officer's knowledge level, he 
recommends him or her to take the Engineer's Examination. The 
Engineer's Examination is administered at my Headquarters and consists 
of a written examination (about five hours long) and at least two 
detailed technical interviews. I personally approve qualification of 
each engineer officer. The best of these junior officers are 
subsequently assigned to submarines as the engineer officer or to 
aircraft carriers as a principal assistant to the reactor officer.
    The commanding officer (CO) is charged with the absolute 
responsibility for all aspects of ship operation, including safe and 
effective operation of the reactors. Personnel who become COs of 
nuclear-powered submarines are all Engineering Officer of the Watch 
qualified with about 17 years of experience in the Navy. They have 
qualified as an engineer officer on a nuclear-powered submarine, have 
served as an executive officer and have successfully completed an 
intense, technical/safety course during a three-month Prospective 
Commanding Officer School at Naval Nuclear Propulsion Program 
Headquarters.
    The path for becoming a CO of a nuclear-powered aircraft carrier is 
similar. Personnel who become COs of a nuclear-powered aircraft 
carriers are Engineering Officer of the Watch qualified officers with 
over 20 years of experience in the Navy. They have completed a three-
month Prospective Commanding Officer School at Naval Nuclear Propulsion 
Program Headquarters and have served as an executive officer on a 
nuclear-powered aircraft carrier.
    Every segment of every training experience for both Headquarters 
and Fleet personnel emphasizes the absolute need for ``safety first.'' 
Lessons learned from historical problems are discussed in detail. The 
conservative design of our plants and the need for strict adherence to 
written, formal procedure is taught and tested. There is no confusion 
regarding our philosophy that safety comes first.

Safety Audit Process

Q2.  Please describe your safety audit process. What is its scope? How 
often is it done? Who does it? To whom, are the results reported? What 
is done with the results?

A2. My safety inspection process is extensive. Inspection and 
corrective action follow-up are essential aspects of being the 
technical authority for the Program and its current 103 reactor plants. 
Headquarters personnel at the most senior level personally evaluate 
performance and compliance in the field. Headquarters staff conducts 
regular inspections of work, safety, environmental and radiological 
controls. Additionally, field office personnel routinely conduct audits 
and inspections as part of their responsibility to monitor the work of 
Program laboratories, prototypes, the Fleet, shipyards, and prime 
contractors. The DOE laboratories, the nuclear-capable shipyards, and 
the Fleet also conduct self-audits, assessments, and inspections at 
almost every organizational level. These reviews are then critiqued by 
Headquarters, field office, and senior Fleet personnel (as appropriate) 
and then reported to me. An important part of these reviews is 
evaluating the activity's ability to look critically at itself--in 
keeping with the principle that each activity must identify, diagnose, 
and resolve its own problems when outside inspectors are not present to 
do so. This effort, along with other requirements, makes clear that 
day-to-day excellent performance must be the goal (and the norm), not 
merely ``peaking'' for an annual audit or inspection. In fact, my 
evaluation teams make ``inadequate self-assessment'' a finding of its 
own, when appropriate. My teams will then closely follow the efforts of 
activity management to improve this crucial ability.
    Headquarters evaluation teams always include the technical-
requirements owners for the particular areas being assessed. This 
ensures that the team has an indepth understanding of not only the 
requirement, but also its significance, letting the evaluation team 
identify issues and trends that might not be discerned if auditing were 
done solely by checklist. My field offices, largely composed of 
qualified personnel drawn from the Fleet and from Headquarters, are 
located at all major Program sites and at each Navy Fleet concentration 
area.
    The Naval Nuclear Propulsion Program (NNPP) continually evaluates 
operational information for trends and lessons learned. For example, my 
staff annually assesses--and I personally review plant-aging concerns 
to ensure that trends in equipment corrosion, wear, and maintenance 
performance are acceptable.
    To meet regulatory responsibilities for oversight of nuclear-
powered warship operations, the NNPP relies in part on the Nuclear 
Propulsion Examining Board (NPEB). The NPEB, comprising nuclear-trained 
officers who have served as commanding officers or engineer officers of 
nuclear-powered warships, performs annual Operational Reactor 
Safeguards Examinations (ORSE) and inspects the material condition of 
each plant in the Fleet. During an ORSE, the NPEB reviews documentation 
of normal operation (including operational, maintenance, and crew 
training records); observes and assesses current plant operations (both 
normal and in response to casualty drills); and reviews any off-normal 
events that may have occurred during the preceding year. The NPEB 
reports directly to me in parallel with the command authority for that 
ship (the Fleet Commander). As discussed above, the ship's day-to-day 
performance and ability to self-assess are emphasized through 
evaluation of records, training, evolutions, lessons learned, and 
overall plant conditions. If ships do not meet standards, they would 
have their authorization to operate removed until they are upgraded, 
reexamined, and deemed satisfactory.

Dissenting Opinions

Q3.  In your organization, is there a channel specifically for 
dissenting opinions?

Q3a.  How do you generate a dissenting opinion in a case where a strong 
technical consensus exists? What prevents that from becoming an empty 
exercise?

Q3b.  How would a dissenting technical opinion be evaluated?

A3a,b. There are several channels through which individuals can air 
dissenting opinions. At my prime contractor laboratories, any 
dissenting opinion must be documented, along with a discussion of the 
reason why the majority opinion is being recommended. (In some cases 
the process results in the formerly ``dissenting'' opinion becoming the 
recommended approach.) In the case of a dissenting opinion that could 
affect safety, further analysis and discussion are required to attempt 
to reach a satisfactory resolution. If the dissenter is not satisfied, 
the recommended action must be agreed to by the laboratory general 
manager, and the dissenting opinion is documented in the recommendation 
to me with an explanation as to why it was not accepted. This allows my 
staff and me to see that dissenting opinion firsthand as we evaluate 
the recommendation.
    Similarly, within Headquarters, if a dissenting opinion is not 
resolved, the issue must be cleared with me. When I discuss a complex 
issue, I frequently ask if there were any dissenting opinions to ensure 
that personnel have the opportunity to air any remaining concerns. If I 
am satisfied that I have enough data to make an informed decision, I 
will do so. In any other case, I will request additional information or 
the involvement of additional personnel to help me reach the correct 
technical decision.

Q3c.  In cases where dissenting opinions question the safety of reactor 
operations for a ship (or class of ships) deployed and operating, are 
reactors immediately shut down or is a risk assessment performed to 
determine whether operations can continue?

A3c. Nuclear-powered warships are designed to survive under battle 
conditions. The inherent conservatism and redundancy built into these 
ships, along with the extensive training provided every operator, make 
it highly unlikely that any unexpected problem will pose an immediate 
threat to public or environmental safety. If such an unlikely problem 
ever were to occur, we would balance the multiple safety 
responsibilities of reactor, crew, ship, and public safety. Where there 
is a reactor safety concern, we immediately determine whether the 
problem is likely to occur, the potential consequences, its potential 
impact on ship operations and safety, and any alternatives that may 
mitigate the problem. Since our designs include significant redundancy, 
shutting down all or part of the reactor plant system of concern might 
still allow safe operation of the reactor. If necessary, the reactor 
would be shut down and the problem repaired, even at sea.

Q3d.  While dissenting opinion may be welcomed in the Naval Reactors 
program, how do you demonstrate to new junior officers that expressing 
such opinions will not create problems for their careers in the Navy 
outside the program--particularly if that opinion is left unsupported 
by later analysis?

A3d. In the Fleet, dissenting opinions are raised through the chain of 
command. Dissenting opinions are not just welcomed, they are highly 
valued. For the Fleet, asking questions and raising concerns is 
highlighted during training for junior officers and enlisted personnel 
from their first day in the Program. In fact, we teach and require 
forceful backup. If expected indications and conditions are not 
observed during an evaluation, other members of the watch team are 
required to point that out. There cannot be any fear of reprisal for 
raising concerns or issues. The best proof of this is our record. I 
can't think of a single example when a junior officer brought up a 
safety issue and it created a problem for that officer's career. On the 
contrary, if an officer of any rank is aware of a safety issue and 
doesn't bring it up, that officer would be held accountable.

                   Answers to Post-Hearing Questions

Responses by Rear Admiral Paul E. Sullivan, Deputy Commander, Ship 
        Design, Integration and Engineering, Naval Sea Systems Command, 
        U.S. Navy

Questions submitted by Representative Ralph M. Hall

NASA Implementation of Investigation Board Recommendations; SUBSAFE 
                    Program Measures

Q1.  How will we know that NASA has implemented the Columbia Accident 
Investigation Board (CAIB) recommendations?

A1. Respectfully, this question may be best posed to the CAIB, or 
similar independent board. As a practical matter, it is beyond the 
purview of the Naval Sea Systems Command (NAVSEA) to monitor NASA's 
implementation of the CAIB recommendations, and therefore, we are 
unable to offer a substantive response in this area. However, as noted 
in my testimony, NAVSEA is a continuing participant in the NASA/Navy 
Benchmarking Exchange. To that extent, we are engaged in the process of 
sharing information with NASA on all aspects of the Submarine Safety 
(SUBSAFE) Program, so that NASA itself can evaluate the potential 
adaptability of any part of the SUBSAFE Program to the NASA Safety 
Program.

Q1a.  What measures do you use in your organization to determine that 
your safety mechanisms are working?

A1a. The Navy uses a tiered approach to ensure Submarine Safety 
(SUBSAFE) Program safety mechanisms are working. The Naval Sea Systems 
Command Submarine Safety and Quality Assurance Office (NAVSEA 07Q) has 
overall responsibility for overseeing the SUBSAFE Program and verifying 
compliance with its requirements.

        <bullet>  The purpose of the SUBSAFE Program is to provide 
        maximum reasonable assurance of a submarine's watertight 
        integrity and its ability to recover from a flooding casualty. 
        It is important to note that the SUBSAFE Program does not 
        spread or dilute its focus beyond this purpose. The technical 
        and administrative requirements of the SUBSAFE Program are 
        applied specifically to a carefully defined set of ship systems 
        and components that are critical to the safety of the 
        submarine. The tenets of the SUBSAFE Program are invoked in a 
        submarine's initial design, through construction and initial 
        SUBSAFE Certification, and throughout its service life.

        <bullet>  The first tier of the SUBSAFE Program is a Quality 
        Program at each activity that performs SUBSAFE work. Each 
        facility is required to have a quality system such as that 
        defined by MIL-Q-9858 (Quality Program Requirements) or ISO 
        9000, etc. The quality assurance organization at each facility 
        plays a key role in validating compliance with SUBSAFE Program 
        requirements and in compiling the objective quality evidence 
        necessary to support SUBSAFE certification. A local SUBSAFE 
        Program Director (SSPD) provides oversight for work at each 
        facility and is responsible for independently verifying 
        compliance with the SUBSAFE Manual requirements. At private 
        contractor shipbuilding facilities, a U.S. Navy Supervisor of 
        Shipbuilding, Conversion and Repair (SUPSHIP) organization is 
        also assigned to monitor compliance with SUBSAFE work and 
        process requirements.

        <bullet>  The second tier is the SUBSAFE audit program. NAVSEA 
        07Q audits the policies, procedures and practices at each 
        facility as well as the effectiveness of the oversight provided 
        by the local SSPD and SUPSHIP. There are two types of audits: 
        (1) the Functional Audit, which evaluates the organization's 
        programs and processes for compliance with SUBSAFE 
        requirements; and (2) the Ship Certification Audit, which 
        evaluates the work and processes used to overhaul or construct 
        each individual submarine for compliance with SUBSAFE 
        requirements prior to SUBSAFE certification.

        <bullet>  The final tier is program oversight. Several 
        organizations provide forums for program evaluation, process 
        improvement, and senior level oversight. The SUBSAFE Working 
        Group, chaired by the Director of the Submarine Safety and 
        Quality Assurance Office (NAVSEA 07Q), is comprised of NAVSEA, 
        field activity and contractor SSPDs and meets semi-annually to 
        review program status and discuss recommendations for 
        improvement. The SUBSAFE Steering Task Group, chaired by the 
        NAVSEA Deputy Commander for Undersea Warfare (NAVSEA 07), 
        reviews program progress and provides policy guidance for the 
        SUBSAFE Program. The SUBSAFE Oversight Committee, chaired by 
        the NAVSEA Vice Commander (NAVSEA 09), provides independent 
        command-level oversight of the SUBSAFE Program to ensure the 
        purpose and intent of the SUBSAFE Program are being met.

Separation Between Operational Aspects of Program and Organizations 
                    Providing Engineering and Safety Support

Q2.  The CAIB recommends a separation between the operational aspects 
of the Shuttle program and the organizations providing engineering and 
safety support. Based on your experience:

Q2a.  Do you agree with this as a principle for managing your program?

A2a. Yes. The separation of Program Management, the Technical 
Authority, and the Safety Organization has proven an effective approach 
for the Navy's Submarine Safety (SUBSAFE) Program during the last 40 
years.

Q2b.  Where do you place the boundaries between these three program 
elements in your program and how do they interact?

A2b. The three groups--Program Management, Technical Authority, and 
Safety Organization--work together to discuss issues and reach 
agreement on final decisions. However, each has its own authority and 
responsibility:

        <bullet>  The Program Manager has overall authority and 
        responsibility for the success of his program (Quality, Cost, 
        Schedule). However, the Program Manager is not a technical 
        authority and may not make technical decisions unilaterally. 
        The Program Manager has the authority to choose among the 
        technically acceptable solutions provided by the Technical 
        Authority.

        <bullet>  The Technical Authority bears ultimate responsibility 
        for the adequacy of the technical solutions provided to the 
        Program Manager.

        <bullet>  The Safety Organization has the authority and 
        responsibility to ensure that compliance with SUBSAFE Program 
        requirements is achieved. The Safety Organization is staffed 
        with engineers giving it the acumen to understand the technical 
        issues and providing it with the credentials to challenge the 
        Technical Authority and the Program Manager when appropriate.

Q2c.  What training and experience do you require in your senior 
managers, and what incentives do you provide such managers?

A2c. Senior managers are hand picked based on detailed submarine 
experience. Senior managers receive continuous training on safety and 
participate in the audit process. Our senior managers, military and 
civilian, are required to achieve a broad scope of experience and 
formal training as they progress in their career. Both the Navy and the 
Office of Personnel Management establish supervisory and management 
training programs to enhance career paths and assist in developing the 
knowledge, skills and abilities necessary to achieve success in the 
senior management levels of the Naval Sea Systems Command (NAVSEA) and 
the Navy.

Recognition and Analysis of Safety Threats

Q3.  In both Shuttle accidents, NASA failed to appreciate the threat to 
the vehicle from what seemed a minor problem--O-ring seals that did not 
seem to work well in cold weather and foam that sometimes struck the 
Orbiter's thermal protection system.

Q3a.  How does your organization deal with similar ``weak signals''?

A3a. Dealing with and resolving ``weak signals'' before they become 
major problems, or even disasters, is very difficult for a large 
organization. It requires constant vigilance. These signals get missed 
when people become complacent and accept seemingly minor unsatisfactory 
conditions. As I noted in my testimony, our review of the Submarine 
Safety (SUBSAFE) Program during the 1985-86 timeframe noted an 
increasing number of incidents and breakdowns that raised concerns 
about the quality of SUBSAFE work and thus, the level of discipline 
with which that work was being performed. As a result, we established 
additional program requirements and actions to improve the 
understanding of SUBSAFE Program requirements, to provide increased 
emphasis on oversight, and to find problems and fix them. They are 
still in place today, but personal vigilance is still required as the 
potential exists for complacency to creep into any organization. For 
example, less than two years ago, we nearly lost the USS DOLPHIN (AGSS 
555) to a flooding casualty. While it was not a SUBSAFE issue, the 
casualty was due, in part, to allowing a less than acceptable condition 
to exist that made it easier for water to enter the submarine when 
transiting on the surface. Only the skills and exceptional action on 
the part of the well-trained crew prevented disaster. Although crew 
selection and training aren't part of SUBSAFE, the Navy gives them the 
appropriate level of attention to ensure the crews are highly trained, 
competent and motivated. Corrective and other follow-up actions are 
still in progress from the incident.

Q3b.  How does your organization evaluate problems to determine if they 
represent recurring failures that require changes in design or 
processes if they are to be dealt with? Who conducts those evaluations?

A3b. We have several formal programs for evaluating failures and 
conditions that may require program or design changes. Periodic 
inspections and tests are required to be performed to validate that the 
condition of the submarine and its critical components support 
continued unrestricted operation. The results of these inspections and 
tests are tracked over time and across submarines to ensure conditions 
are not degrading. During component major maintenance or overhaul, the 
conditions found must be documented and reported for technical 
evaluation, again, to determine if any unexpected degradation may be 
occurring and to maintain a history, that is used to evaluate the need 
for maintenance program or design changes. Audits of facilities and 
submarines are conducted to evaluate performance and acceptability of a 
submarine for SUBSAFE certification. During the service life of a 
submarine and facility, problems or failures may occur that are outside 
the scope of the formal inspection and audit programs. These are 
required to be formally investigated and reported to Naval Sea Systems 
Command (NAVSEA) as Trouble Reports. The results of audits and Trouble 
Reports are tracked, maintained and trended over time, and are used to 
evaluate the health of program and determine if changes are required or 
appropriate to consider. Responsibility for these programs, including 
implementation of changes, is assigned to specific offices or 
organizations within NAVSEA. However, recommendations for significant 
changes in technical requirements or program procedures are reviewed 
and concurred with by members of the Technical Authority, Program 
Manager and Safety Offices.

Q3c.  For recurring problems, does your organization have the 
capability to analyze the trend to determine if it could contribute to 
a low-probability, high-consequence accident?

A3c. Trending and analysis are an integral part of the Submarine Safety 
(SUBSAFE) Program and are used to guide future actions. In addition, an 
annual SUBSAFE Program assessment is prepared with input from SUBSAFE 
Working Group members, and is briefed to the SUBSAFE Steering Task 
Group and the SUBSAFE Oversight Committee. Hazard analyses of specific 
conditions or component or system operations are conducted when 
warranted to assess risk and potential consequence, and to determine 
what actions must be taken to mitigate risk if the condition is to be 
allowed to exist.

Q3d.  How much certainty would your organization require to take action 
in a case where your relevant technical expert strongly believed a 
catastrophe could occur but did not have the engineering evaluations to 
confirm that judgment--and little or no time to conduct such 
evaluations?

A3d. When we identify a significant technical/safety concern, the 
normal approach is to suspend work, testing, or ship deployment until 
the relevant engineering evaluations are obtained. For a significant 
and imminent wartime condition or situation, a risk assessment would be 
presented to the Fleet Type Commander for decision.

Questions submitted by Representative Bart Gordon

Operational vs. Developmental Safety Structure

Q1.  Does it matter in your organization whether a vehicle or product 
is deemed ``operational'' versus ``experimental/developmental''? Do you 
have a different safety structure for operational activities versus 
those that are developmental in nature?

A1. No, Submarine Safety (SUBSAFE) Program requirements are invoked in 
design contracts and construction contracts, including those for 
experimental or developmental items placed on our submarines. The 
SUBSAFE Program structure is the same whether an item is operational or 
developmental.

Dealing with Downsizing and Aging Workforce Challenges

Q2.  You mentioned in your written testimony the challenge you faced in 
1998 with downsizing and an aging workforce. Please describe the 
magnitude of the problem and the steps you took to maintain the 
integrity of the SUBSAFE Program in the face of this challenge? How are 
you dealing with these problems?

A2. Over the past decade, the Naval Sea Systems Command (NAVSEA) has 
undergone a significant loss of experience and depth of knowledge due 
to downsizing and an aging workforce. The size of the independent 
technical authority staff at NAVSEA headquarters has been reduced from 
1300-1400 people in 1988 to approximately 300 today. Beginning in 1995, 
NAVSEA undertook an approach to provide continued support of critical 
defense technologies with a smaller Headquarters workforce. This was 
accomplished through the development of a war-fighting system 
engineering hierarchy that defined the necessary engineering capability 
requirements. NAVSEA began to refocus our workforce on core equities or 
competencies:

        <bullet>  Setting technical standards and policies,

        <bullet>  Certifying and validating delivered products, and

        <bullet>  Providing a vision for the future, i.e., technology 
        infusion and evolution.

    NAVSEA also initiated a recruitment program to hire engineering 
professionals, primarily in our field activities, but headquarters 
engineering staff continued to decrease.
    As a result of the noted reduction in NAVSEA headquarters 
independent technical authority staff over the past 15 years, we have 
remained continuously engaged in balancing the need to maintain our 
culture of safety while becoming more efficient.
    NAVSEA currently is contemplating modest increases in staffing in 
the independent technical authority and SUBSAFE and quality assurance 
organizations to manage the increasing SUBSAFE workload in design, 
construction and maintenance, and to bolster and renew the workforce as 
our older experts retire.

Questions submitted by Representative Nick Lampson

Specific Actions to Maintain Focus on Safety

Q1.  Admiral Bowman testified that, ``Safety is the responsibility of 
everyone at every level in the organization,'' a sentiment echoed by 
Ms. Grubbe in her statement--but in day-to-day program activities, 
safety is not a primary metric for measuring performance. Safety 
usually becomes an issue only after it is clearly seen to be absent. 
What specific actions does your organization take to maintain the focus 
on safety when the pressures to achieve organizational goals inevitably 
build?

A1. First, Admiral Bowman and Ms. Grubbe are correct. The culture of 
safety must be instinctive. Training, instructions and written 
performance requirements are not enough to ensure safety. In the final 
analysis, each person who operates, designs, constructs, maintains or 
tests submarines must have the culture of safety as part of his or her 
basic work ethic. This culture is instilled in our sailors from the 
first day of submarine basic training, and in the civilian workforce by 
continuous grooming from their leaders. It is reinforced for all by 
periodic mandatory Submarine Safety (SUBSAFE) training.
    Second, we cannot afford for safety to become ``absent'' and we 
work constantly to ensure that does not happen. We do that by keeping 
the requirements of our Submarine Safety (SUBSAFE) Program visible at 
all levels. Critical safety requirements and implementation methods are 
clearly defined. These safety requirements are protected regardless of 
pressures. Program Managers cannot tailor them or trade them against 
other technical or programmatic variables. The Technical Authority and 
the Safety Office do not compromise the technical or safety 
requirements to relieve a Program Manager's schedule or cost pressures. 
This separation of Program Management, the Technical Authority and the 
Safety Office has proven to be an effective organizational structure in 
support of Submarine Safety. Our routine SUBSAFE training includes 
lessons learned with strong emotional ties. Our SUBSAFE audit programs 
focus on technical and safety compliance and provide additional 
visibility to the importance of safety.
    Finally, for the U.S. Navy Submarine Force, safety IS an 
organizational goal. It is tracked carefully and reviewed frequently by 
senior management, and corrective action is rapid.

Lessons from the Challenger Accident

Q2.  What lessons does the Navy take away from its review of the 
Challenger accident?

A2. As noted in my testimony, the Challenger accident occurred at the 
same time the Naval Sea Systems Command (NAVSEA) was conducting an in-
depth review of the Submarine Safety (SUBSAFE) Program. The Challenger 
accident gave added impetus to, and helped focus our effort in, several 
critical areas: disciplined compliance with requirements, thoroughness 
and openness of technical evaluations, and formality of our readiness 
for sea certification process.
    As a result of our review, we have: maintained increased visibility 
on mandatory and disciplined compliance with requirements and 
standards; upgraded our engineering review system (technical authority) 
to ensure responsibilities and expectations for thorough engineering 
reviews with discipline and integrity are clear; and established a 
safety and quality assurance organization with the authority and 
organizational freedom to function without external pressure. We use 
annual training with strong, emotional lessons from past failures to 
ensure that all members of the Navy's Submarine community fully 
understand the need for constant vigilance in all SUBSAFE matters.

NASA/Navy Benchmarking Exchange

Q3.  Please provide your impression of the NASA/Navy Benchmarking 
Exchange (NNBE) undertaken in August of 2002. What specific plans, if 
any, are there for continuing this interaction? What changes in this 
interaction do you anticipate because of the Columbia accident?

A3. The NNBE has been a valuable process for both NASA and the 
submarine Navy. Two reports outlining the results of the NNBE to date 
have been issued, the first in December 2002 and the second in July 
2003. After the loss of Columbia, NNBE activity was temporarily placed 
on hold to allow NASA to focus on the accident investigation. Specific 
exchanges under the NNBE process since the Columbia accident have 
included Navy presentations to the NASA Engineering and Safety Center 
Management Team and to the SUBSAFE Colloquium held at NASA headquarters 
in November 2003. On December 2, 2003, both parties signed a Memorandum 
of Agreement for participation in engineering investigations and 
analyses. A Memorandum of Agreement for participation in Functional 
Audits is currently being developed and is scheduled to be signed in 
early 2004. In the NNBE forum, we have initiated exchanges regarding 
processes for specification control, waivers to requirements, life 
cycle extension, software safety and human systems integration. More 
detailed discussions on these common processes are planned in 2004. We 
also expect benefits from planned collaboration of technical experts in 
welding, materials, life support and other areas of special interest.

Questions submitted by Representative Sheila Jackson Lee

Safety Training

Q1.  How is safety training done in your organization? How is safety 
awareness maintained in your organization? Please describe the kinds of 
training materials you use.

A1. The Submarine Safety (SUBSAFE) Manual requires that organizations 
performing SUBSAFE work establish and maintain procedures for 
identifying training needs and provide for the training of all 
personnel performing activities affecting SUBSAFE quality. This 
requirement includes periodic SUBSAFE Awareness training. During 
Functional Audits of these organizations we evaluate the adequacy of 
training programs and the level of knowledge of personnel performing 
SUBSAFE work. Our SUBSAFE requirements are generally integrated into 
specific technical process or work-skill training. This training and 
its periodicity are established and provided by each organization to 
meet its needs for the work it performs.
    One of the keys to SUBSAFE Program awareness is the fact that many 
of the senior Navy and civilian managers and personnel have either 
served aboard or temporarily embarked on submarines during their 
careers. This ``underway'' experience, in addition to regular visits to 
submarines undergoing construction, repair or maintenance, fosters a 
heightened level of understanding in program management that is 
important to maintaining the requisite level of vigilance and 
visibility for SUBSAFE matters.
    SUBSAFE Program Awareness Training is usually given on an annual 
basis. It consists of a review of requirements, a brief history of the 
SUBSAFE Program and a discussion of recent relevant program events, 
e.g., changes, problems, and failures (and their causes). SUBSAFE 
training beyond the annual awareness training takes a variety of forms. 
Web-based training is becoming the most common. This is supported by 
classroom lecture and discussion. Skills-training takes the same form 
and is supplemented by practical exercises and on-the-job training. By 
combining personal experience, training and our requirements in this 
way, we keep the SUBSAFE Program and its requirements visible to and 
fresh in the minds of the Navy's Submarine community personnel, ashore 
and afloat.

Safety Audit Process

Q2.  Please describe your safety audit process. What is its scope? How 
often is it done? Who does it? To whom are the results reported? What 
is done with the results?

A2. There are two primary types of audits in the Submarine Safety 
(SUBSAFE) Program: Certification Audits and Functional Audits.
    In a SUBSAFE Certification Audit, we look at the Objective Quality 
Evidence associated with an individual submarine to ensure that the 
material condition of that particular submarine is satisfactory for sea 
trials and unrestricted operations. These audits are performed at the 
completion of new construction and at the end of major depot 
maintenance periods. They cover a planned sample of specific aspects of 
all SUBSAFE work performed, including inspection of a sample of 
installed equipment. The results and resolution of deficiencies 
identified during such audits become one element of final Naval Sea 
Systems Command (NAVSEA) approval for sea trials and subsequent 
unrestricted operations.
    In a SUBSAFE Functional Audit, we periodically--either annually or 
bi-annually depending on the scope of work performed--review the 
policies, procedures, and practices used by each organization, 
including contractors, that performs SUBSAFE work. The purpose is to 
ensure that those policies, procedures and practices comply with 
SUBSAFE requirements, are healthy, and are capable of producing 
certifiable hardware or design products. This audit also includes 
surveillance of actual work in progress. Organizations audited include 
public and private shipyards, engineering offices, the Fleet, and 
NAVSEA headquarters.
    Audits are performed by a team of 12 to 25 auditors, led by the 
NAVSEA Submarine Safety and Quality Assurance Office (NAVSEA 07Q). 
Auditors are experienced subject matter experts drawn from NAVSEA and 
our field organizations that perform SUBSAFE work, e.g., shipyards, 
engineering offices, etc. To ensure consistent and thorough coverage of 
the areas of concern, audits are conducted using formal audit plans or 
guides. In functional audits, guides are supplemented with pre-audit 
analysis reports,
    that assess the prior health of the organization and point out past 
problems so that the effectiveness of corrective actions can be 
evaluated. The results of audits are formally documented and reported 
to the organization and to senior NAVSEA management. They are also 
provided to other SUBSAFE organizations for lessons learned purposes. 
Each deficiency must be corrected and the root cause of the deficiency 
identified. The corrective action and root cause is formally reported 
back to NAVSEA along with applicable objective quality evidence for 
evaluation and approval. Further, each deficiency is tracked by NAVSEA 
07Q to maintain its visibility and to ensure it is satisfactorily 
resolved. Annually, an analysis report of all audit results, and other 
reported problems, is prepared to support a senior management 
assessment of the health of the SUBSAFE Program.
    Functional Audits are also used to identify areas in which an 
organization can initiate process improvements. Although a process or 
practice may be in compliance with SUBSAFE requirements, auditors may 
make recommendations, which offer the opportunity for significant 
improvement in the effectiveness of the process or practice. These 
recommendations, categorized as Operational Improvements, are 
documented in the report and tracked until the organization provides 
its evaluation and any planned actions.
    In addition to the audits performed by NAVSEA, our shipyards, field 
organizations and the Fleet are required to conduct internal (or self) 
audits of their policies, procedures, and practices and of the work 
they perform.

                   Answers to Post-Hearing Questions

Responses by Ray F. Johnson, Vice President, Space Launch Operations, 
        The Aerospace Corporation

    Note of Clarification: Throughout the discussions of CAIB 
investigations, the term ``safety'' is used relative to establishing 
NASA flight readiness. Since our DOD launches are not human rated, we 
use the term ``mission assurance'' in essentially an equivalent 
meaning. For DOD launches, the term `flight safety'' is primarily 
associated with the risks to the uninvolved public due to catastrophic 
failure rather than mission success itself.

Questions submitted by Representative Ralph M. Hall

Q1.  How will we know that NASA has implemented the Columbia Accident 
Investigation Board (CAIB) recommendations? What measures do you use in 
your organization to determine that your safety mechanisms are working?

A1. Following the Space Launch Broad Area Review in 1999, the Air Force 
developed an execution plan for each of the Board's recommendations. 
Periodically since then the BAR has reconvened and reviewed progress 
against their initial recommendations. We would recommend a similar 
approach to track NASA's implementation of the CAIB recommendations.
    Our mission success record is the best gauge of our mission 
assurance processes. Since the Broad Area Review, the renewed rigor in 
mission assurance has yielded a 100 percent success rate. We have also 
measured our success rate against other launch organizations (i.e., 
commercial, foreign) and found that our processes have consistently 
resulted in a higher level of success.

Q2.  The CAIB recommends a separation between the operational aspects 
of the Shuttle program and the organizations providing engineering and 
safety support. Based on your experience:

Q2a.  Do you agree with this as a principle for managing your program?

A2a. Our organization and the value of our contributions comes from the 
degree of independence we are afforded by our Air Force sponsors. Our 
launch programs do not employ separate organizations for safety, 
engineering and operations, but rather a triumvirate of program 
participants (Air Force, contractor, Aerospace) with individual 
responsibilities. Aerospace is the program participant with 
responsibility for the independent mission assurance assessment.

Q2b.  Where do you place the boundaries between these three program 
elements in your program and how do they interact?

A2b. Our independent mission assurance role uses a cadre of engineering 
talent with skills comparable to that of the contractor who has the 
primary engineering and operational responsibility. Aerospace provides 
a final launch readiness verification to the SMC Commander that is 
independent from the contractor's assessment. The SMC Commander, in his 
role as ultimate flight worthiness certification authority, employs an 
additional oversight review team to ensure that the program 
participants properly execute their responsibilities.
    Flight safety is the responsibility of the Range Safety 
organization at the launch sites. Range Safety is not only completely 
separate from the launch system program, it is under a separate Air 
Force organization. Range Safety's primary role is to protect 
resources, personnel, and general public from the hazards of launch.

Q2c.  What training and experience do you require in your senior 
managers, and what incentives do you provide such managers?

A2c. We are essentially an engineering and scientific organization and 
our role in space launch does not typically require formal 
certification training of our personnel. Our engineering staff is made 
up of career professionals who typically have many years experience 
either in industry or academia. Many of these are the foremost 
specialists in their fields. Our senior managers (up to and including 
our president) all have strong technical backgrounds as well. Our field 
site personnel, who are associated with vehicle operations and exposed 
to hazardous conditions, are certified as required by the local safety 
organizations. We are incentivized by our accountability to mission 
success as well as formal recognition through a corporate awards 
program.

Q3.  In both Shuttle accidents, NASA failed to appreciate the threat to 
the vehicle from what seemed a minor problem--O-ring seals that did not 
seem to work well in cold weather and foam that sometimes struck the 
Orbiter's thermal protection system.

Q3a.  How does your organization deal with similar ``weak signals''?

A3a. We apply rigor in defining system performance specifications and a 
continuous oversight presence in identifying any out-of-family 
condition following every launch. Any out-of-family deviation is 
thoroughly evaluated to determine the associated risk and corrective 
action.

Q3b.  How does your organization evaluate problems to determine if they 
represent recurring failures that require changes in design or 
processes if they are to be dealt with? Who conducts those evaluations?

A3b. Each flight is thoroughly analyzed by domain experts to identify 
any anomalies. These anomalies are compared to other missions to 
evaluate trends and out-of-family performance. Each item is then 
assessed for mission risk and corrective action is established. Unless 
the risk can positively be established as low, the corrective action is 
made a lien against the next launch of that system. These evaluations 
are performed by the contractor and independently by Aerospace using 
separately acquired, processed, and analyzed telemetry, video and radar 
data. Results and findings are compared at formal Post-Flight Reviews.

Q3c.  For recurring problems, does your organization have the 
capability to analyze the trend to determine if it could contribute to 
a low-probability, high-consequence accident?

A3c. Yes, we not only have the capability to independently analyze 
these conditions, we have the obligation to ensure they are 
accomplished. We maintain a separate database of launch vehicle flight 
data that our engineering team uses to maintain recurring flight 
records. We have also developed unique analytical tools for the 
engineers to use in analyzing and identifying trends. We recently 
identified a potential problem during trend analysis of actuator 
performance that was ultimately traced to internal contamination. Due 
to the consequences of failure from debris migration, all actuators of 
like manufacture were processed through a new cleaning procedure before 
another flight was allowed.

Q3d.  How much certainty would your organization require to take action 
in a case where your relevant technical expert strongly believed a 
catastrophe could occur but did not have the engineering evaluations to 
confirm that judgment--and little or no time to conduct such 
evaluations?

A3d. We believe that we are required to take the necessary time to 
validate a condition such as this and would request the launch be held 
if need be. Our first obligation is to validate the concern through our 
readiness review process, then elevate in time to effect the launch 
decision. A recent example illustrates our process. Our experts 
identified a concern for dynamic instability on an upcoming Titan 
launch. This was based on observations noted on other launches but 
could not be readily quantified for this mission. Due to the risks 
involved, we requested a launch slip of several weeks while additional 
modeling was developed and analyses performed. The Air Force was 
persuaded by the preliminary analysis that a more definitive answer was 
warranted and delayed the launch. The results of this analysis created 
sufficient concern that flight changes were made that successfully 
mitigated the risk of occurrence.

Questions submitted by Representative Bart Gordon

Q1.  Does it matter in your organization whether a vehicle or product 
is deemed ``operational'' versus ``experimental/developmental''? Do you 
have a different safety structure for operational activities versus 
those that are developmental in nature?

A1. Space Launch is an inherently engineering intensive activity. This 
is partly due to the high performance, low margins, numerous hazards, 
and consequences of failure. But it is also due to the very low 
production and flight rates with equally low repeatability and assembly 
before flight. By any comparison to other transportation media, space 
launch operations would not be considered an operational system and its 
inherent reliability viewed as relatively low. Therefore as a space 
organization we have no truly operational systems and continuous 
engineering involvement is mandatory for mission assurance.
    As mentioned in response to Mr. Hall's questions, Range Safety is 
responsible for flight safety of our launches. When a vehicle strays 
from its intended flight path, it is destroyed to protect the public 
from an errant vehicle. This approach would unlikely be employed in an 
operational transportation system. Also, a comparison of flight safety 
procedures for space launch and air traffic control yields many 
significant differences which can be attributed to the non-operational 
nature of launch.

Q2.  In your written testimony you noted that a root cause of some 
launch failures in National Security Space programs was ``the lack of 
disciplined system engineering in the design and processing of launch 
vehicles exacerbated by a premature dismantling of government oversight 
capability.. . .''

Q2a.  Could you elaborate on the circumstances of this ``premature 
dismantling'' and how it contributed to the launch failures studied in 
the Broad Area Review?

A2a. The Broad Area Review found that a combination of budget 
reductions and program reforms that occurred in the early-mid 1990s 
converged to dilute program effectiveness. Pressures to reduce costs 
resulted in reduction of government oversight, quality assurance, 
erosion of expertise, and emphasis on cost savings over mission 
assurance. In addition specs, standards, and policies were abandoned 
and the mission assurance technical focus eroded in favor of an 
``operational'' orientation. This was particularly true on Titan, one 
of the most complex launch systems in use, where manpower reductions in 
the government and Aerospace staff approached 50 percent. The Broad 
Area Review referred to this as a ``premature going out of business 
mindset'' in anticipation of flying out the remaining vehicles as the 
new EELV families were in development, whereas, in reality, the Titan 
launch rate was increasing. The Broad Area Review also found that the 
recent failures it examined could be attributed to engineering and 
workmanship (i.e., human) errors that should have been avoidable.

Q2b.  How similar are the findings and conclusions of the Broad Area 
Review and the Columbia Accident Investigation Board report?

A2b. In both reviews it was found that lines of responsibility, 
accountability, and authority were fragmented, which resulted in an 
inadequate decision process. We also see similarities in findings that 
the government entity relied more and more on the contractor, allowed 
organic capabilities to erode, and became more complacent.

Q2c.  With Aerospace Corporation's experience in independently 
assessing launch readiness, what capabilities do you expect to see in 
the Air Force organizations involved in the launch decision to be 
confident of a successful launch?

A2c. We expect our Air Force customer to hold us accountable for our 
mission assurance responsibilities and to demand the appropriate rigor 
and technical discipline in our independent assessments and 
recommendations.

Q2d.  How do you evaluate the relationships between the Air Force and 
the contractors supplying the launchers when certifying readiness to 
launch? What represents an appropriate relationship between those two 
groups?

A2d. We rely on the contractors as the primary source of all data and 
the first line of defense in the mission assurance/readiness process. 
They provide assurance in their hardware, software, and procedures. It 
is our job to independently verify that all critical items (i.e., 
hardware, software, analyses, processes, and procedures) are 
technically acceptable. The appropriate relationship is one of 
cooperation and technical interchange with the independent technical 
party providing additional confidence through verification. The Air 
Force holds both the contractor and Aerospace accountable for 
independent mission assurance assessments.

Q3.  In your testimony you state, ``dissenting opinions are heard.. . 
.'' What specifically are the forums for these dissenting opinions? How 
does your organization encourage dissent?

A3. For each launch we conduct a series of technical reviews at each 
level of management up to the corporation president. At each stage of 
these reviews, all disciplines and domain experts are represented and 
their findings and conclusions are presented. The launch vehicle 
programs rely on the domain experts in the Engineering and Technology 
Group to provide the technical basis for all positions. Each discipline 
presents all findings and must be in agreement on the readiness state. 
If a dissenting position is presented, it will be flagged and actions 
assigned to resolve. The existence of these issues is also tracked and 
the dispositions presented throughout the process. This process is also 
overseen by the Independent Readiness Review Team that reports to the 
SMC Commander at the Flight Readiness Review in the form of a risk 
assessment.

Question submitted by Representative Nick Lampson

Q1.  Admiral Bowman testified that, ``Safety is the responsibility of 
everyone at every level in the organization,'' a sentiment echoed by 
Ms. Grubbe in her statement--but in day-to-day program activities, 
safety is not a primary metric for measuring performance. Safety 
usually becomes an issue only after it is clearly seen to be absent. 
What specific actions does your organization take to maintain the focus 
on safety when the pressures to achieve organizational goals inevitably 
build?

A1. We maintain an independent chain of mission assurance 
responsibility within our organization that flows up to our president. 
Although we are also responsible to the Air Force program director for 
his readiness assessment, our president reports to the SMC Commander 
who is above the program director and who ultimately certifies flight 
worthiness. It is this chain of command and the accountability expected 
at each level that assures our mission assurance focus is maintained.

Questions submitted by Representative Sheila Jackson Lee

Q1.  How is safety training done in your organization? How is safety 
awareness maintained in your organization? Please describe the kinds of 
training materials you use.

A1. True safety training and certification is only required for those 
individuals at the launch site who support hazardous operations and are 
near the flight hardware. For industrial safety, our Safety and 
Security office is responsible for training in various procedures. They 
also have safety awareness circulars and other information media, such 
as the corporate website. For technical training we also have an 
educational arm of the corporation, The Aerospace Institute, that has a 
wide curriculum of space and national defense related courses. The 
Institute has classroom courses with appropriate text and other 
documentation for student's use. Our launch systems, systems 
engineering, and mission assurance functions are all contained in 
different modules within these courses. For those assigned specific 
mission assurance functions, we maintain a well-defined process and 
mentoring program that supports our technical staff.
                   Answers to Post-Hearing Questions
Responses by Deborah L. Grubbe, P.E., Corporate Director, Safety and 
        Health, DuPont

Questions submitted by Representative Ralph M. Hall

Q1.  How will we know that NASA has implemented the Columbia Accident 
Investigation Board (CA1B) recommendations? What measures do you use in 
your organization to determine that your safety mechanisms are working?

A1. We will know when the CAIB recommendations are in place when we see 
NASA leadership and management more focused on safety than on schedule. 
The diagnostic is as simple and as difficult as to watch what is done. 
In my firm we measure outcome metrics, e.g., the number of injuries and 
we also measure leading indicators, which is a measure of the general 
safety attitudes and procedures. With NASA I would start by looking at 
contractor and employee injury rates. If those start to improve, the 
indicator is there that management and leadership are taking safety 
seriously. There are literally hundreds of measures within an world 
class safety program.

Q2.  The CAIB recommends a separation between the operational aspects 
of the Shuttle program and the organizations providing engineering and 
safety support. Based on your experience:

Q2a.  Do you agree with this as a principle for managing your program?

A2a. Yes, my firm has independent authorities for both safety and for 
engineering.

Q2b.  Where do you place the boundaries between these three program 
elements in your program and how do they interact?

A2b. All elements in my firm: manufacturing, safety and engineering 
interact at the local site, where the work is being done. In NASA 
terms, the work comes together at the center. We try to work with no 
boundaries at all times. We work to ensure alignment against the 
highest objective, which is to safely meet our customers' needs. If 
there is a point of disagreement, the management of the respective 
organizations are called in to help resolve the best approach.

Q2c.  What training and experience do you require in your senior 
managers, and what incentives do you provide such managers?

A2c. Most managers have been ``in those chairs'' and know what it is 
like to see someone hurt. None of us who have been there ever want to 
see that again. The only true incentive for safety is, in the end, that 
everyone under my charge left today with all the parts they came with. 
There is a small monetary incentive at the corporate level, which may 
be as little as $500/year to someone making six figures. This money is 
really not much incentive, and is more recognition of job well done.

Q3.  In both Shuttle accidents NASA failed to appreciate the threat to 
the vehicle from what seemed a minor problem--O-ring seals that did not 
seem to work well in cold weather and foam that sometimes struck the 
Orbiter's thermal protection system.

Q3a.  How does your organization deal with similar ``weak signals''?

A3a. My firm investigates anything that seems ``out of the ordinary'' 
or unexpected. We drive the answer to root cause, and put the fix into 
place as soon as practical. The important aspect of this work is to fix 
it before it becomes more serious.

Q3b.  How does your organization evaluate problems to determine if they 
represent recurring failures that require changes in design or 
processes if they are to be dealt with? Who conducts those evaluations?

A3b. Our engineering and safety organizations, along with the 
collaboration of our manufacturing organization, looks to discern 
common cause and special cause variation. Both common cause and special 
cause variation provide data to direct the needed change.

Q3c.  For recurring problems, does your organization have the 
capability to analyze the trend to determine if it could contribute to 
a low-probability, high-consequence accident?

A3c. Yes. Our organization, primarily our engineering organization, can 
do the analysis to quantify risk.

Q3d.  How much certainty would your organization require to take action 
in a case where your relevant technical expert strongly believed a 
catastrophe could occur but did not have the engineering evaluations to 
confirm that judgment--and little or no time to conduct such 
evaluations?

A3d. My firm instructs its employees that if they do not feel safe, 
they are to stop their job and get someone to help them determine a 
better, safer way to do the work. An engineering evaluation does not 
have to do be done, someone just has to sense that ``something is not 
right.''

Questions submitted by Representative Bart Gordon

Q1.  Does it matter in your organization whether a vehicle or product 
is deemed ``operational'' versus ``experimental/developmental''? Do you 
have a different safety structure for operational activities versus 
those that are developmental in nature?

A1. The same safety standards apply whether the process or equipment is 
``operational'' vs. ``experimental.''

Q2.  One of the ``cultural'' issues raised in the CAIB report is the 
lack of respect for the safety organization demonstrated by the 
engineering and program offices at NASA. How does DuPont's safety 
organization avoid such marginalization?

A2. While there are many safety organizations in DuPont, every DuPont 
employee, and every DuPont contractor is accountable for safety. Safety 
is a line responsibility. Safety comes first. Period. No questions 
asked. No one in DuPont can ignore safety without consequences that 
could lead up to and include termination. If I discount safety, I can 
expect to hear about it from my boss, and he is not going to be happy! 
Likewise, with our corporate group. Since everyone is accountable for 
safety, it is never ignored. The safety organization can serve as the 
conscience on some occasions; however, you know safety is really 
working with the organization serves as its own conscience.

Question submitted by Representative Nick Lampson

Q1.  Admiral Bowman testified that, ``Safety is the responsibility of 
everyone at every level in the organization,'' a sentiment echoed by 
Ms. Grubbe in her statement--but in day-to-day program activities, 
safety is not a primary metric for measuring performance. Safety 
usually becomes an issue only after it is clearly seen to be absent. 
What specific actions does your organization take to maintain the focus 
on safety when the pressures to achieve organizational goals inevitably 
build?

A1. All major DuPont meetings start with a discussion of safety. 
Subjects include: statistics, what happened to me on the way home last 
night, weather safety, travel safety, etc. Others actions include the 
following: a monthly review of safety statistics at the global 
manufacturing meetings, reporting of lost time injuries within 24 hours 
to the CEO, and an aggressive off the job safety program where daily 
statistics are kept on lost time with off the job fatalities reported 
to the CEO within 24 hours. Safety statistics are shared daily with the 
whole organization, and we share improvement ideas frequently. We know 
that when we go through organizational changes, that safety can suffer, 
so we also redouble our efforts during difficult times.

Questions submitted by Representative Sheila Jackson Lee

Q1.  How is safety training done in your organization? How is safety 
awareness maintained in your organization? Please describe the kinds of 
training materials you use.

A1. Safety training starts the first day of employment and continues 
monthly until one retires. Safety meeting attendance is mandatory. 
Safety awareness is maintained through items like: a global safety 
message that is sent out every working day at 2 a.m. EST, tool box 
meetings at the start of every shift, supervisor walk-through to 
support learning good safety techniques, etc. Training materials are 
items like: standards, videos, computer assisted tools, demonstrations, 
safety fairs, classes, safety meetings, written job procedures, 
pictures on how to best do the task, etc.

Q2.  You mentioned in your written testimony that ``any person can stop 
any job at any time if there is a perceived safety danger.'' What 
incentives do you use to encourage such action?

A2. People who stop a job, and people who offer an alert to an unsafe 
situation are highlighted at a safety meeting, or verbally recognized 
at a tool box meeting, or are sometimes even offered monetary 
recognition. The positive reinforcement is very affirming, and we 
continue to see more folks step forward and report unusual events. It 
is the driving home of the fixes on these unusual events that helps to 
keep people from getting hurt in the first place.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
